<html>
<title> - REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT: OVERSIGHT OF FISHERIES MANAGEMENT SUCCESSES AND CHALLENGES (PART 3)</title>
<body><pre>[Senate Hearing 115-433]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-433
 
                REAUTHORIZATION OF THE MAGNUSON-STEVENS
                FISHERY CONSERVATION AND MANAGEMENT ACT:
                   OVERSIGHT OF FISHERIES MANAGEMENT
                   SUCCESSES AND CHALLENGES (PART 3)

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 12, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             





                Available online: http://www.govinfo.gov
                
                
                
                         _________

              U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-305 PDF            WASHINGTON : 2019                     
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

DAN SULLIVAN, Alaska, Chairman       GARY PETERS, Michigan, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       EDWARD MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CORY BOOKER, New Jersey
CORY GARDNER, Colorado               TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 12, 2017...............................     1
Statement of Senator Sullivan....................................     1
    Letter dated September 25, 2017 to Hon. Daniel S. Sullivan 
      and Hon. Gary C. Peters from the Mid-Atlantic recreational 
      anglers, charter-for-hire owners, commercial fishermen and 
      seafood distributors.......................................     4
    Letter dated September 25, 2017 to Hon. Daniel S. Sullivan 
      and Hon. Gary C. Peters from the recreational anglers and 
      guides.....................................................     9
    Letter dated October 15, 2017 to U.S. Senate Committee 
      Members from Brett Tolley, Community Organizer, National 
      Atlantic Marine Alliance...................................    10
Statement of Senator Peters......................................     2
Statement of Senator Inhofe......................................    31
Statement of Senator Wicker......................................    35
Statement of Senator Blumenthal..................................    37

                               Witnesses

Phil Faulkner, Owner/Founder, NauticStar Boats...................    13
    Prepared statement...........................................    14
James A. Donofrio, Executive Director, Recreational Fishing 
  Alliance.......................................................    15
    Prepared statement...........................................    17
Chris Horton, Fisheries Program Director, Congressional 
  Sportsmen's Foundation.........................................    20
    Prepared statement...........................................    22
Anthony ``Tony'' Friedrich, Recreational Fisherman, Eastern 
  Shore, Maryland................................................    25
    Prepared statement...........................................    27
Lori Steele, Executive Director, West Coast Seafood Processors 
  Association....................................................    42
    Prepared statement...........................................    44
Peter Andrew, Jr., Board Member, Bristol Bay Native Corporation..    49
    Prepared statement...........................................    51
Gregory P. DiDomenico, Executive Director, Garden State Seafood 
  Association....................................................    72
    Prepared statement...........................................    73
William ``Bubba'' Cochrane II, President, Gulf of Mexico Reef 
  Fish Shareholders' Alliance....................................    78
    Prepared statement...........................................    79

                                Appendix

Captain Robert F. Zales II, President, National Association of 
  Charterboat Operators, prepared statement......................    89
Response to written questions submitted by Hon. Gary Peters to:
    Chris Horton.................................................    91
Response to written questions submitted to Anthony ``Tony'' 
  Friedrich by:
    Hon. Gary Peters.............................................    94
    Hon. Edward Markey...........................................   100
    Hon. Cory Booker.............................................   103
Response to written questions submitted to Lori Steele by:
    Hon. Bill Nelson.............................................   105
    Hon. Gary Peters.............................................   109
Response to written questions submitted by Hon. Gary Peters to:
    Peter Andrew, Jr.............................................   110
    Gregory P. DiDomenico........................................   111
    William ``Bubba'' Cochrane II................................   113


                    REAUTHORIZATION OF THE MAGNUSON-
                    STEVENS FISHERY CONSERVATION AND
                      MANAGEMENT ACT: OVERSIGHT OF
                     FISHERIES MANAGEMENT SUCCESSES
                        AND CHALLENGES (PART 3)

                              ----------                              


                      TUESDAY, SEPTEMBER 12, 2017

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:44 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
Chairman of the Subcommittee, presiding.
    Present: Senators Sullivan [presiding], Peters, Inhofe, 
Wicker, Blumenthal, Cantwell, Fischer, and Young.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. The Subcommittee on Oceans, Atmosphere, 
Fisheries, and the Coast Guard will now come to order. Good 
afternoon, everybody. Thank you for your patience. We had a 
vote that we needed to get out of the way so we could keep this 
hearing continuous.
    But before we turn today's business, I would like to 
acknowledge the impact of two recent hurricanes, Harvey and 
Irma, and what they've done and had done to our Nation. Our 
thoughts and prayers are with the families affected by the 
devastation wrought by these storms. Two of our scheduled 
witnesses are unable to join us today directly due to the 
fallout from those hurricanes. We wish them and all touched by 
the storms a speedy recovery.
    In addition, as Chairman of this Subcommittee, which also 
oversees the heroic work of the United States Coast Guard, I am 
extremely proud of the work that they have done for so many 
impacted by these hurricanes. I want to thank them for their 
service as they continue to make all of us proud.
    Today's hearing is the third in a series of hearings 
dealing with the reauthorization of the landmark 1976 Magnuson-
Stevens Fishery Conservation and Management Act, the MSA. Over 
the past few months, this Committee has heard from dozens of 
witnesses, including members of the Trump administration, 
regional fishery management councils, regional stakeholders, 
tribal representatives, and many, many others. Through these 
hearings, we have tried to foster a robust consensus dialogue, 
hearing from a broad range of witnesses with differing 
experiences and perspectives, in an effort to best equip the 
members of this Subcommittee as we proceed with the important 
task of reauthorizing the MSA.
    Last month, I had the privilege of holding a field hearing 
in Alaska, commonly known as the ``superpower of seafood,'' 
where I heard from many Alaskans and others about their views 
on the best way to move forward on the MSA reauthorization. In 
Alaska, our coastal communities rely on a strong, sustainable 
fishery. We have over 80,000 Alaskans in these communities, in 
this industry, more than even the oil and gas industry, in our 
state.
    But, of course, it's not just Alaska where this industry 
and the communities impacted by it are so important. There are 
numerous other states and regions that also rely heavily on the 
fishing industry, be they commercial, charter, or recreational.
    And what works in one region of the country doesn't 
necessarily work in other regions. To more fully examine that, 
we have a diverse group of witnesses and experts here today to 
testify on their experiences and offer perspectives on ways to 
potentially improve on the successes we've achieved over the 
past 40 years of fisheries management under the MSA.
    As Chairman of this Committee, I view the advances achieved 
during the previous reauthorizations as improvements. At the 
same time, we've listened to many stakeholders and constituents 
describe the need for updates and tweaks in the current law, as 
written, to effectively continue that progress without rolling 
back our conservation successes.
    Additionally, ensuring that Congress supports the need for 
proper data supported by reputable and consistent science is 
critical to maintaining a sustainable, yet profitable, national 
fishery. Technology needs to play a larger role in this, as it 
has the potential to provide efficiencies, reduce 
administrative burdens, and increase the accuracy of the data 
used for stock assessments and catch accountability.
    As a steward of the MSA, we are all committed to ensuring 
that our Nation's fishery management system supports a stable 
food supply, including subsistence opportunities, recreational 
opportunities, and plentiful fishing and processing jobs that 
provide vibrant coastal communities throughout America.
    With that, I want to thank all the witnesses for being here 
today. And I now recognize Ranking Member Peters for any 
opening statement he may have.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Mr. Chairman.
    And thanks to our witnesses for being here this afternoon 
for a third in a series of hearings to discuss the important 
issue of reauthorization of the Magnuson-Stevens Act, or MSA.
    I want to first add to the comments made by Chairman 
Sullivan and join him in saying that our thoughts are with the 
people of Florida, who have now started the long process of 
recovering from Hurricane Irma's devastation. Unfortunately, 
the Ranking Member of the Full Committee, Senator Nelson, can't 
be with us this afternoon to talk about a subject that is of 
great importance to him and to his constituents. Duty calls, 
and he is back home in Florida helping with the recovery 
efforts.
    The storm has also kept two of our witnesses, Captain Gary 
Jarvis and Captain Robert Zales, from being able to travel, and 
we are thankful that Captain Bubba Cochrane and Mr. Peter 
Andrew were able to come in their place on very short notice. 
Thank you for being able to do that.
    As I mentioned at our first MSA hearing in August, 
sustainably managing our Nation's fisheries through science and 
data-driven process is critically important, not only to 
coastal states like Alaska, but also to inland and Great Lakes 
states like Michigan. The science-driven process implemented 
through the last two Magnuson-Stevens reauthorizations have 
rebuilt over 40 different fish stocks. And as of 2015, it has 
also reduced the number of overfished stocks from 88 to 40, and 
the number of stocks undergoing overfishing from 78 down to 29, 
both now at all-time lows.
    Continuing to reduce overfishing and overfished stocks are 
key to sustainably managing our fisheries and absolutely 
critical to supporting the 1.6 million jobs and $207 billion 
that our fisheries provide to the United States.
    In Michigan, we know that fisheries are significant to the 
United States' economy and that fishing is part of our way of 
life in my state as well. Our anglers provide the State of 
Michigan with $4.3 billion in economic output and support 
nearly 38,000 jobs.
    But in the Great Lakes, we also know that managing fish is 
more important than just managing how many fish can be caught. 
Other factors in the environment and the ecosystem in the 
fisheries can have a profound effect. We have seen firsthand 
the impact of these environmental factors.
    In the early 20th century, sea lamprey found their way to 
Lake Erie and then into the Upper Great Lakes. Within 50 years, 
the Great Lakes would never be the same from this devastating 
parasite. A booming lake trout fishery harvesting 15 million 
pounds a year was very vulnerable, and by the 1960s, the sea 
lamprey population would explode and reduce our most abundant 
fishery to 300,000 pounds caught per year, or just 2 percent of 
its prior production.
    Lessons can be learned from the Great Lakes about the 
importance of the whole ecosystem. The numbers can look good on 
paper, but factors extraneous to population models, like the 
introduction of invasive species, can affect this important 
natural resource. That is why it is so important for fisheries 
management to take into account a changing environment, impacts 
to habitat, and the food web which different fish species rely 
on. Ecosystem-based approaches that take into account the whole 
system can help us foresee and be prepared for the 
environmental factors that can significantly impact our 
fisheries.
    It is hard to know how to sustainably manage fisheries in 
the face of climate change, changing ocean conditions, and 
disasters, both natural and manmade, but by listening to the 
scientists and collecting the necessary data, we can move 
toward sustainably managing our fisheries for years to come.
    Today, we will be taking another look at the Magnuson-
Stevens Act and our current Federal fisheries management 
framework. It's important to periodically take a good long look 
at how these programs are working and how they are being 
managed. As we go through the process, though, I also think it 
is important to remember and to acknowledge the success of MSA 
as we examine the problems and the progress it has helped to 
make toward sustainably managing our fisheries. We need to 
focus on sustainability. Is our current framework sustainable 
for the fishing industry? Is it sustainable for the communities 
that rely on fishing? And is it sustainable for the fish 
populations, the natural resource that we are extracting?
    These hearings provide us with the opportunity to hear from 
multiple perspectives and answer these questions. At the first 
hearing, we heard from NOAA and the regional management 
councils, and today we will hear from commercial, charter, and 
recreational fisheries.
    However, these are not all the voices and stakeholders who 
care about fisheries. There are key groups that we have not 
heard from. I think it would be remiss if we did not solicit 
these very important perspectives.
    So, Mr. Chairman, as we continue to work on MSA, I ask that 
we engage with scientists, academics, and conservation 
organizations and strongly consider their recommendations in 
the legislative process. So in that spirit, I ask unanimous 
consent that--we have a number of letters from these 
organizations addressing that issue. I would ask that they 
would be entered into the record without objection.
    Senator Sullivan. Without objection.
    [The information referred to follows:]

                                                 September 25, 2017

Hon. Daniel S. Sullivan,
Chair, Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Gary C. Peters,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman Sullivan and Ranking Member Peters,

    The Mid-Atlantic recreational anglers, charter-for-hire business 
owners, commercial fishermen, and seafood distributors listed below 
strongly oppose weakening the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act) and its conservation provisions, 
as proposed in H.R. 200 and H.R. 2023. For years, the Magnuson-Stevens 
Act has been working to build healthier fish populations through 
science-based catch limits and rebuilding plans, leading to more stable 
businesses and stronger coastal economies. We should not retreat from 
the provisions that have worked for our region and our communities.
    H.R. 200 and H.R. 2023 seek to undo years of progress in U.S. 
fisheries management by undermining the successful conservation 
provisions of the Magnuson-Stevens Act. These bills would increase the 
risk of overfishing, and halt progress in rebuilding efforts for 
depleted fish populations. For example, H.R. 2023 significantly 
restricts the use of science-based annual catch limits designed to 
prevent overfishing by making them optional for the vast majority of 
managed stocks.
    Mid-Atlantic black sea bass, bluefish, and scup are important 
species that support thousands of regional jobs and generate millions 
of dollars of broad economic benefits to coastal communities. Each one 
was successfully rebuilt from depleted levels due to the Magnuson-
Stevens Act's conservation requirements. The legislative proposals 
mentioned above could jeopardize those gains and limit progress in 
rebuilding vulnerable fish populations, which would result in more 
economic hardships for fishery-related businesses in our region.
    We urge you to oppose any effort to undermine the conservation 
provisions of the Magnuson-Stevens Act, including the provisions 
proposed in H.R. 200 and H.R. 2023. The conservation tools established 
under the Act are critical to ongoing efforts to eliminate overfishing, 
restore fish populations to healthy levels, and promote improved 
stability for coastal communities that depend on commercial and 
recreational fisheries.

cc: Subcommittee on Oceans
NY, NJ, DE, MD, PA, VA and NC Senators

Rich King,                           Ed Dobbins
Angler & Owner                       Angler
Delaware Surf Fishing                Sussex County, DE
Millsboro, DE
 
Thomas J Littleton                   Steven Dalphon
New Castle County, DE                Angler
                                     New Castle County, DE
 
Theresa Futty                        Verity L. Watson
Angler                               Angler
Sussex County, DE                    Sussex County, DE
 
Brian Blackburn                      Dominic Prestipino
Angler                               Angler
New Castle County, DE                Sussex County, DE
 
Dean Herfindahl                      Joey Furtak
Angler                               Angler
New Castle County, DE                New Castle County, DE
 
Jerry Bellistri                      Toni Feldman
Angler                               Angler
Sussex County, DE                    Clayton, DE
 
Tyler O'Neal                         Susan Brennan
Sales Rep, Winter Equipment          Angler
Smyrna, DE                           Sussex County, DE
 
Janell Kellogg                       Gordon M. Law
Angler                               Business Owner/Angler
Sussex County, DE                    Sussex County, DE
 
Kim Bowden                           William Buckworth
Angler                               Angler
Sussex County, DE                    Sussex County, DE
 
Ken Sharp                            Sean Erickson
Angler                               Angler
New Castle County, DE                New Castle County, DE
 
Dan Duranko                          Glenn A. Taylor
Angler                               Angler
Sussex County, DE                    New Castle County, DE
 
Neil Guercio                         Raymond Provost
Angler                               Angler
Sussex County, DE                    Dover, DE
 
Francis Loretangeli                  Josh Dickson
Angler                               Angler
Greenwood, DE                        Sussex County, DE
 
Barry Matus                          Raymond Provost
Angler                               Angler
Delaware Surf Fishing                Kent County, DE
Sussex County, DE
 
Brett Cavanaugh                      Linda Rosenberg
Angler                               Sussex County, DE
New Castle County, DE
 
Steve Johnson                        Sarah F Pierce
Angler                               New Castle County, DE
Sussex County, DE
 
Alex Tkachuk                         Michael Eckert
Angler                               Angler
Dover, DE                            Milford, DE
 
Tom Spence                           Ronald Bowman
Angler                               Angler
Delaware Mobile Surf Fisherman       Lincoln, DE
New Castle County, DE
 
Jeffrey Thompson                     William Cubbage
Angler                               Angler
Kent County, DE                      Kent County, DE
 
Mike Swain                           Eugene Hansen
Angler                               Angler
Wilmington, DE                       Frankford, DE
 
Tom Deptula                          Roy Miller
Chef                                 Angler
Sussex County, DE                    Atlantic States Marine Fisheries
                                      Commission
                                     Sussex County, DE
 
John Coverly Jr                      John Lamar
Angler                               Angler
New Castle County, DE                Sussex County, DE
 
Bonita MacLean                       Richard J Bennett
Angler                               Angler
Sussex County, DE                    Sussex County, DE
 
Frank Danner                         Keith Churchill
Fisherman                            Angler
Saltwater Fly Anglers of Delaware    New Castle County, DE
Kent County, DE
 
Ron Dimaulo                          James Wersinger
Angler                               Fisherman
Sussex County, DE                    New Castle County, DE
 
Ed Matarese                          Mark Chaump
Recreational Angler                  Angler
New Castle County, DE                New Castle County, DE
 
Jennifer Lee Bedell                  Kristie Thomas
COO, Total Outdoor Solutions, LLC    Angler
Sussex County, DE                    New Castle County, DE
 
Robert W Bryan                       Guy W. Doron III
Angler                               Angler
Sussex County, DE                    Doron Contracting LLC
                                     Smyrna, DE
 
Ron M Smith                          Bill Courtney
Angler                               Angler
Saltwater Fly Anglers of Delaware    Ocean View, DE
Sussex County, DE
 
C Revak                              Jason Pennington
Sussex County, DE                    Angler
                                     New Castle County, DE
 
Steve Selway                         Chris Shipp
Angler                               Sussex County, DE
Sussex County, DE
 
Pete Sullivan Delaware               Wanda Kucek
Angler/Beach and Kayak               Felton, DE
Sussex County, DE
 
Kathy Herlehy Douglass               John Mc Falls
Angler                               Recreational Fisherman
New Castle County, DE                Berlin, MD
 
Michael K. Towe                      Mark Eustis
Surf Fisherman                       Coastal Ecosystems Investigator
Delaware Mobile Surffishermen        Davidsonville, MD
New Castle County, DE
 
 
Molly O'Brien                        Michael Vernick
Angler                               Angler
Brookeville, MD                      Ocean, NJ
 
Anthony Friedrich                    Michael MeGill
Saltwater Angler                     Angler
Eastern Shore, MD                    Little Silver, NJ
 
Krista Snyder                        Michael DeLamater
Angler                               Angler
Charlestown, MD                      Belmar, NJ
 
Stephen Sirochman                    Tom Pizzonia
Angler                               Angler/Chef
North East, MD                       Asbury Park, NJ
 
Trey Blackiston                      Don Simonds
Angler                               Angler
Chestertown, MD                      Harmony, NJ
 
Lew Armistead                        Jacob Bishop
Anlger                               Angler
Hollywood, MD                        Ocean, NJ
 
Jack Spruill                         Steve Clayton
Angler                               Angler
Spruill Farm Conservation Project    Ocean, NJ
Roper, NC
 
Frank Yelverton                      Chris Siciliano
Executive Director                   Angler
Cape Fear River Watch                Ocean, NJ
Wilmington, NC
 
Paul Dement                          Melissa Britton
Angler                               Angler
Middletown, NJ                       Burlington, NJ
 
John Tully                           Joe Newton
Angler                               Angler
Member Belmar Fishing Club           Willingboro, NJ
Spring Lake Heights, NJ
 
Nick Williams                        Al Franchetta
Angler                               Angler
Deputy Mayor Neptune                 Millville, NJ
Neptune, NJ
 
 
Mehdi Bozorgmehy                     Dante Accurti, Jr.
Angler                               Angler
New York, NY                         Mechanicsburg, PA
 
Kerry Heffernan                      Courtney Accurti
Angler/Chef                          Angler
New York, NY                         Wormleysburg, PA
 
Bryan Goulart                        Michael J.Ferko
Angler                               Angler
Easthampton, NY                      Sewickley, PA
 
Joel Filner                          Michael A. Ferko
Angler                               Angler
Salty Flyrodders of NY               Venetia, PA
New York, NY
 
David Blinken                        Kurt Knaus
Angler                               Angler
Easthampton, NY                      Harrisburg, PA
 
Richard Ruggiero                     Zachary Bates
Angler                               Angler
New York, NY                         Levittown, PA
 
Ricky Davis                          Grae Buck
Angler                               Angler
Poughkeepsie, NY                     Harleysville, PA
 
Julius Morton                        Matt Becker
Angler                               Angler
West Chester, NY                     Finleyville, PA
 
Todd Pride                           Mike Topping
Lead Management & Training Coach     Angler
Mid-Atlantic Youth Anglers &         President, DE River Shad
 Outdoors Prog                        Fishermen's Assoc
Nottingham, PA                       Bethlehem, PA
 
Elizabeth Stoner                     John Berry
Angler                               Angler
Pittsburgh, PA                       Brd Member, DE River Shad
                                      Fishermen's Assoc
                                     Bethlehem, PA
 
Dante Accurti, Sr.                   Shawn Carroll
Angler                               Angler
Wormleysburg, PA                     Chester County, PA
 
Patricia Morgan                      Grae Buck
Angler                               Angler
Delaware County, PA                  Harleysville, PA
 
Delos F Page                         Jessica Moldofsky
Recreational Angler                  Angler
Muncy, PA                            Harleysville, PA
 
Ryan Keown                           Maurice Hudson
Angler                               Angler
Berks County, PA                     Broomall, PA
 
Lee T Fulmer                         Rachel Roberts
Angler                               Angler
Bechtelsville, PA                    Nottingham, PA
 
Mike Rhodes                          Curt Ashburn
Surf Angler                          Angler
Delaware Surf Fishing                Nottingham, PA
Chester County, PA
 
David Pcholinski                     Judy Ashburn
Carpenter/Surf Fisherman             Angler
West Mifflin, PA                     Nottingham, PA
 
John Mumper                          Analyse Gaspich
Angler                               Angler
Union County, PA                     Palmyra, PA
 
Mike Anderson                        Tom Best
Angler                               Angler
Chester County, PA                   Philadelphia, PA
 
Henry Busby                          John Henning
Surf Fisherman                       Angler
Chester County, PA                   Lansdale, PA
 
Dan Duffy                            Curtis W. Tomlin
Surf Fisherman                       Angler & Vice President
State College, PA                    Virginia Saltwater Sportfishing
                                      Association
                                     Mechanicsville, VA
 
Paul S. Smith                        Thomas A. Miller
Angler                               Saltwater Fisherman, Brd Member,
Lebanon, PA                           Rivers of Virginia (FORVA),
                                      Legislative Affairs
                                     Roanoke, VA
 
Sharon June                          Benjamin R. Ferko
Angler                               Angler
Glen Mills, PA                       Fairfax, VA
 
John Bello
Angler
Asburn, VA
 

                                 ______
                                 
                                                 September 25, 2017

Hon. Daniel S. Sullivan,
Chair,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.
Hon. Gary C. Peters,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Sullivan and Ranking Member Peters,

    We the undersigned are recreational anglers and guides who share a 
common objective; asking policy-makers and managers to put fish first 
so that future generations of anglers will be able to enjoy the sport 
fishing opportunities that we have enjoyed. We understand that 
America's fisheries belong to all Americans, including those of future 
generations, and we want to leave our fisheries to our children and 
grandchildren in a better condition than we inherited.
    On September 12, our friend and colleague Tony Friedrich presented 
testimony \1\ to the Senate Commerce Committee Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard, at the hearing titled 
``Reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act: Oversight of Fisheries Management Successes and 
Challenges.'' \2\ The message in Tony's testimony is important.
---------------------------------------------------------------------------
    \1\ https://www.commerce.senate.gov/public/_cache/files/94908d51-
21ee-49db-a8b4-7f1d
93e214ad/C6CE9C72DE498101BDF51DD7CF86F5CF.9.12.17-friedrich-
testimony.pdf
    \2\ https://www.commerce.senate.gov/public/index.cfm/
hearings?ID=FA788A8C-2F71-4B09-AFC6-1FE2B120B828
---------------------------------------------------------------------------
    While we recognize that no law is perfect, the Magnuson-Stevens Act 
has been the keystone of the recovery of America's marine fisheries. At 
the time of the passage of the Sustainable Fisheries Act (1996), 86 
species were overfished. In the twenty years since, thanks to MSA, SFA, 
and the Magnusson-Stevens Conservation and Management Reauthorization 
Act of 2007, only 30 stocks now remain on the overfished list. This is 
a testament to the fact that the MSA process is working.
    The existing provisions of MSA offer flexible access to our 
fisheries, while codifying our duty to rebuild depleted stocks. In 
particular, annual catch limits and accountability measures offer 
managers critical tools that have led to the recovery of stocks like 
red snapper to levels of abundance not seen since the 1960s.
    We believe that the elimination or weakening of management tools, 
such as annual catch limits and accountability measures, will hamstring 
the efforts of our Nation's fishery managers and start us down the dark 
road to overfishing and depleted stocks. We have been there before and 
we do not wish to return.
    At the same time, we believe that the MSA process can be improved. 
In particular, we call on policy makers to allocate more funding to 
fisheries science. The economic impact of recreational fishing in our 
Nation is measured in the hundreds of billions of dollars. Federal 
funding for fisheries science ought more accurately to reflect this. 
Likewise, the Marine Recreational Information Program (MRIP) could be 
improved by leveraging technological innovations that have proliferated 
since MRIP began, like the widespread use of smartphones and associated 
technology.
    We are firmly committed to the principal that the best way to 
support recreational anglers and associated industries is to build 
healthy, sustainable, robust fisheries. We have made enormous progress 
since the passage of MSA over forty years ago. The MSA process should 
not be degraded by the elimination of accountability measures, annual 
catch limits, and other proven management tools.
    We ask that you review Tony's testimony and carefully consider the 
recommendations when you are considering votes and actions during the 
reauthorization process.
    Please don't hesitate to contact any of us if we can answer any 
questions or provide additional information.
            Respectfully,

Lucas Bissett/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b67696278786e7f7f3c324b6c666a626725686466">[email&#160;protected]</a>/225-718-9532/New Orleans, Louisiana

Will Brown/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aebeabbba6bea789aea4a8a0a5e7aaa6a4">[email&#160;protected]</a>/757-535-8431/Dallas, Texas

Jim Dietz/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="452f2c281a212c20313f05292c33206b262a28">[email&#160;protected]</a>/908-752-5890/Naples, Florida

Lise Lozelle/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89e5e0faecc9e4e8ffece7efe5f0a7eae6e4">[email&#160;protected]</a>/512-879-8907/Austin, Texas

Dennis Mckay/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1175667c727a7068282851767c70787d3f727e7c">[email&#160;protected]</a>/256-375-8604/Dallas, Texas

John Royall/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc968e93859d9090c9c8bc859d949393d29f9391">[email&#160;protected]</a>/713-853-5742/Houston, Texas

Tom Sadler/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6a2a5b7b2bab3a496b5b9b8a5b3a4a0b3b0bfa5bef8b9a4b1">[email&#160;protected]</a>/202-957-4748/Verona, Virginia

Brandon Shuler/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d4c4d7d8d2d9d898c5dec3dad3c498c6ded2f6d1dbd7dfda98d5d9db">[email&#160;protected]</a>/832-603-3787/St. 
Petersburg, Florida

Bruce Shuler/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f19383849294b18299849d94839e8485959e9e8382df929e9c">[email&#160;protected]</a>/281-380-0708/Salado, Texas
                                 ______
                                 
                         Northwest Atlantic Marine Alliance
                                   Gloucester, MA, October 15, 2017

U.S. Senate Committee Members,

    On behalf of the Northwest Atlantic Marine Alliance I would like to 
raise critical issues and offer solutions in regards to the 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act.
    As an organization that supports fishing families and values-based 
seafood businesses around the country in order to advance healthier 
marine ecosystems and fishermen's livelihoods, we have engaged in the 
fisheries policy making process for over 20 years.
    The Magnuson-Stevens Fishery Conservation and Management Act is now 
under discussion for revision. Commonly referred to as the Magnuson-
Stevens Act, we refer to it as the Fish Bill because of its central 
purpose to protect fish in a manner that ensures the greatest benefit 
to the Nation.
    The Fish Bill was originally enacted in 1976 to govern marine 
fisheries in Federal waters. In its most recent reauthorizations in 
1996 and 2006, attempts were made to shift the focus toward an 
ecosystem-based approach. The Fish Bill also adopted, however, a 
``Catch Share'' system--a fishing quota scheme that relies on private 
ownership of fishing rights--that could make ecosystem-based approaches 
difficult if not impossible to implement.
    While its supporters tout the benefits of privatizing fishing 
rights through Catch Shares, this approach has been highly contested. 
Evidence from NAMA's own community outreach and other independent 
research has indicated that:

  <bullet> Privatization of fishing rights has grave human, economic, 
        and environmental consequences

  <bullet> The ocean and rights to its fisheries do not need to be 
        privatized in order to prevent overexploitation

  <bullet> Once fisheries are privatized, public input is limited, if 
        not discouraged, and oversight is trusted to those who own the 
        quota and permits

    In reality, the current Fish Bill causes harm to marine ecosystems, 
fishermen, and their communities across the U.S. due to its over-
reliance on Catch Shares as the panacea for fixing what ails fisheries 
management.
    To overcome these challenges, the Fish Bill needs sensible, 
productive revisions that protect both fisheries and fishermen. This 
Policy Brief outlines key evidence and recommendations for members of 
Congress to utilize throughout this Fish Bill reauthorization in order 
to preserve marine environments, communities that depend on them, and 
ensure the ``greatest overall benefit to the Nation.''
Evidence
    Under Catch Share policy, the allocation of fishing rights has 
sweeping negative consequences for:
Marine Ecosystems

  <bullet> Consolidation of fishing quota can increase negative 
        ecological impacts of fishing.\1\
---------------------------------------------------------------------------
    \1\ Tolley, B, Gregory, R, Marten, G. (2015) Promoting resilience 
in a regional seafood system: New England and the Fish Locally 
Collaborative. Journal of Environmental Studies and Sciences. Volume 5, 
Issue 4. 593-607.

  <bullet> Habitat, migratory patterns, and trophic relationships have 
        been disrupted by Catch Shares.\2\
---------------------------------------------------------------------------
    \2\ Brewer, J. (2011). Paper fish and policy conflict: catch shares 
and ecosystem-based management in Maine's groundfishery. Ecology and 
Society, 16(1)

  <bullet> Catch Shares can cause ``anti-conservation incentive'' among 
        fishermen, either in ``high-grading'' (selecting fish with the 
        highest value per pound, and dumping the lower-value fish) or 
        in the case where a quota does not yet exist, they might aim 
        for larger catch histories to ensure a greater percentage of 
        future quota allocation.\3\
---------------------------------------------------------------------------
    \3\ Copes, P., & Charles, A. (2004). Socioeconomics of individual 
transferable quotas and community-based fishery management. 
Agricultural and Resource Economics Review, 33(2), 171-181.
---------------------------------------------------------------------------
Democracy

  <bullet> The current Fish Bill lacks sufficient accountability 
        measures for regional fishery management councils. At regional 
        fishery management meeting meetings, NAMA has witnessed a 
        breakdown of the democratic process in which some fishermen's 
        voices were silenced and/or intentionally excluded \4\ from 
        public record.
---------------------------------------------------------------------------
    \4\ Northwest Atlantic Marine Alliance letter to NOAA Fisheries. 
2017. http://www.namanet
.org/sites/default/files/field_file/
NAMA%20Comments%20on%20Participatory%20Democracy_
0.pdf
---------------------------------------------------------------------------
Local Economies

  <bullet> Catch Shares can lead to the creation of an absentee owner 
        class that does not fish, but only leases fishing rights, which 
        can reduce fishermen's economic benefit.\5\
---------------------------------------------------------------------------
    \5\ Pinkerton, E., & Edwards, D. N. (2009). The elephant in the 
room: the hidden costs of leasing individual transferable fishing 
quotas. Marine Policy, 33(4), 707-713.

  <bullet> Under Catch Shares, quota and permit values create capital 
        barriers to entry for new fishermen.\3\
Communities

  <bullet> The current Fish Bill has not provided sufficient support 
        for small and medium scale fishing operations, causing a 
        decline in both.

  <bullet> Catch Shares are leading to mass-consolidation of fisheries 
        and fishing business with little restriction.

  <bullet> Consolidation of fisheries access causes the loss of working 
        waterfront infrastructure which has a disproportionate impact 
        on rural coastal communities.
Food System

  <bullet> The current Fish Bill does not address or promote access to 
        healthy, economically accessible, and local seafood for all.
Why Is Revising The Fish Bill Important?
    The current Fish Bill neglects its duty to manage not only 
environmental but also social and economic impacts on fishing 
communities. This occurs to the detriment of the fisheries and those 
community-based fishermen who have the smallest ecological footprint. 
The opportunity to avoid further damage is shrinking as the deleterious 
Catch Shares system is further ingrained in fisheries across the 
country.
Recommendations
    NAMA has developed five initial recommendations to ensure that 
fisheries are indeed managed for the greatest benefit to the Nation. 
Doing so will directly improve the marine environment, the democratic 
processes of fisheries management, the livelihoods of fishermen, and 
the health of local economies, as well as the provisioning of quality 
seafood to all in the Nation.
    It is NAMA's strong belief that Congress must:
Improve marine environments

  <bullet> No entity should control more than 2 percent of any quota 
        managed species. Congress must institute limits on the 
        consolidation of fishing quota to avoid the negative ecological 
        impacts of large, vertically integrated enterprises.

  <bullet> Fish Bill requirements should specifically address non-
        fishing impacts to the marine environment, such as climate 
        change, pollution, deforestation, mining, and oil and gas 
        exploration.
Safeguard democracy

  <bullet> Reform the Regional Council process with internal mechanisms 
        that decentralize authority and create authentic participatory 
        roles for fishermen and all other interested parties.\6\
---------------------------------------------------------------------------
    \6\ Frontani, H. & Simonitsch, M. (2005) New England Fisheries and 
Participatory Management: Rhetoric and Realities. Studies in New 
England Geography. Book 7.

  <bullet> Redesign meetings and provide more time on the agenda for 
        collaborative working sessions that promote active 
        participation and dialogue not only among council members and 
        fishermen, but with the public as well.
Transparency and accountability

  <bullet> Catch Shares are leading to more and more data and 
        information to be labeled as ``proprietary information'' 
        keeping the public in the dark about what's really happening to 
        the ocean commons.

  <bullet> The Council process must be reformed to better represent the 
        wide range of concerns of fishing communities and of the 
        national interest, and more information needs to remain in the 
        public domain.
Support communities and local economies

  <bullet> Incentivize diversification of fishing methods and species 
        harvested by vessels.

  <bullet> Promote and support independent, small and medium scale 
        fishing businesses.
Increase access to seafood

  <bullet> Create an initiative that ensures healthy and local seafood 
        is provided to all people regardless of economic status. 
        Community-supported fisheries and fish-to-institution programs 
        could be incentivized and directly supported by the Fish Bill 
        to achieve gains in the seafood supply chain.
Conclusion
    Your attention to this matter is important because of the harm 
posed to our local economies and marine environments. If these issues 
are not addressed in the Fish Bill, Congress runs the risk of 
overexploiting our marine environment, losing certain fish stocks for 
generations, eroding the potential for young and beginning fishermen to 
move into the industry, and disrupting longstanding fishing knowledge 
and traditions in favor of consolidation across the industry.
    NAMA and its collaborators believe that by advocating for these 
five recommendations there can be tangible improvements to the Fish 
Bill that may help us to avoid these risks. Incorporating these 
recommendations into the future reauthorization of the Fish Bill will 
benefit the environment, community-based fishermen, and the 
provisioning of quality seafood for the public.
            Sincerely,
                                              Brett Tolley,
                                               Community Organizer.

    Senator Peters. Thank you, Mr. Chairman. And, again, thank 
you for pulling this hearing together. I look forward to the 
testimony of our witnesses.
    Senator Sullivan. Great. And thank you, Senator Peters.
    We have, as usual, on this topic a panel--two panels today 
of numerous distinguished witnesses. The first panel consists 
of Mr. Phillip Faulkner, the President of NauticStar Boats, 
from the great state of Mississippi; Mr. James Donofrio, 
Executive Director of the Recreational Fishing Alliance; Mr. 
Christopher Horton, Senior Director, Congressional Sportsmen's 
Foundation; and Mr. Anthony Friedrich, a saltwater angler from 
the Eastern Shore of Maryland.
    Gentlemen, thank you for being here.
    Mr. Faulkner, we will start with you. You will have 5 
minutes to deliver an oral statement, and a longer written 
statement may be included in the record if you so wish.

  STATEMENT OF PHIL FAULKNER, OWNER/FOUNDER, NAUTICSTAR BOATS

    Mr. Faulkner. Good afternoon, Chairman Sullivan, Ranking 
Member Peters, Senator Wicker, and members of the Subcommittee. 
I appreciate this opportunity to speak to you today about 
challenges facing the marine recreational anglers and the 
marine recreational fishing industry. My name is Phil Faulkner, 
and I'm a recreational fisherman.
    In my spare time, I like to fish for recreation like 
millions of my fellow Americans. For my day job, I own a 
company in Amory, Mississippi, NauticStar Boats. With more than 
25 years of boat-building experience, we produce family boats 
ranging from 18 feet to 28 feet in length, with at least 85 
percent of these boats built for recreational fishing. Our 
dealer network consists of 75 dealers in 28 states.
    Let me tell you a little bit about my business and the 
industry I am so blessed to be a part of. I work in a uniquely 
American business, the boat-building business. Ninety-five 
percent of boats sold in the United States are made in the 
United States. And here is why: We make the finest quality 
boats right here in America. According to NOAA's latest 
economic report, the marine recreational fishing industry 
contributes $63 billion a year to the U.S. economy from coast 
to coast and every state in between.
    More than 70 percent of the boats purchased in the U.S. are 
bought for fishing. It's a common misconception that the 
saltwater fishing economy resides only in the coastal 
communities. I'm here to report otherwise. And many of my 
suppliers throughout the U.S. are situated far from the coast, 
and many of them are in the landlocked states. I live in a 
coastal state, but I'm 300 miles away from the coast.
    At NauticStar, I employ 300 hardworking Americans in Amory, 
Mississippi, in Senator Wicker's home state. We take pride in 
producing the highest quality boats on the market, and we are 
dedicated to our customers. That's why I am here today, to be 
the face and the voice for the 440,000 Americans employed in 
the industry and the 11 million Americans who enjoy 
recreational fishing on America's public waters.
    As I sit here today, I could not be more proud of what 
recreational fishermen and recreational boaters contribute to 
conservation. We outdoorsmen are the original conservationists. 
Through license sales and excise taxes paid on fishing 
equipment and boat motor fuel, anglers and boaters contribute 
$1.3 billion annually for sport fish conservation and 
management. An additional $400 million is donated to the 
conservation and fishing organizations who do so much to 
support our passion each year.
    But in recent years, the Federal Government has been 
focused on denying public access to America's public resources. 
This problem has found a solution thanks to Senator Wicker. I 
would like to thank my Senator for sponsoring Senate Bill 1520, 
the Modern Fish Act. The Modern Fish Act would bring much 
needed modernization to the way recreational fishing is managed 
in Federal waters. And this is important because the marine 
recreational fishermen have felt like an afterthought of the 
Federal Government for decades.
    Federal fishery policies do not reflect the depth and 
breadth of the recreational fishing industry and the need for 
more public access for anglers. Furthermore, current Federal 
fishery management is limiting the true economic potential of 
the recreational fishing industry.
    With unreasonably short seasons, abrupt fishing closures, 
and inconsistencies in setting seasons from year to year, 
recreational anglers and the businesses they support are not 
fully confident they will have access to America's public 
marine resources under the current system. Without the 
confidence of access, anglers don't buy boats and families 
don't go fishing.
    The way marine fisheries are managed affects me, it affects 
my business, and it affects my family. Congress can address 
these problems by passing the Modern Fish Act.
    I'm happy to answer questions. And thank you for having me.
    [The prepared statement of Mr. Faulkner follows:]

  Prepared Statement of Phil Faulkner, Owner/Founder, NauticStar Boats
    Good afternoon, Chairman Sullivan, Ranking Member Peters, Senator 
Wicker and Members of the subcommittee. I appreciate the opportunity to 
speak with you today about the challenges facing marine recreational 
anglers and the recreational fishing industry. My name is Phil 
Faulkner, and I am a recreational fisherman.
    In my spare time, I like to fish for recreation like millions of my 
fellow Americans. For my day job, I own a company in Amory, 
Mississippi--NauticStar Boats. With more than 25 years of boat 
manufacturing experience, we produce family boats ranging from 18 feet 
to 28 feet in length--with at least 85 percent of these boats built for 
recreational fishing. Our dealer network consists of 75 dealers in 28 
states, and we are honored to manufacture the number one selling center 
console boat in Florida, Mississippi, Louisiana, and Texas.
    Let me tell you a little bit more about my business and the 
industry I am so blessed to be a part of. I work in a uniquely American 
business--the boat-building business. Ninety-five percent of boats sold 
in the United States are made in the United States. And here's why: we 
make the finest quality boats right here in America, and boats do not 
ship well in containers from China.
    More than 70 percent of boats purchased in the U.S. are bought so 
owners can fish from them. And they buy boats when they have consistent 
access to America's public resources.
    Uncertainty about access, uncertainty about consistent fishing 
seasons, uncertainty about fisheries management will often discourage a 
potential angler from justifying an investment in purchasing a boat. 
Therefore, the market never reaches its potential.
    The marine recreational fishing industry contributes $63 billion a 
year to the U.S. economy from coast to coast and every state in 
between. (Fisheries Economics of the United States, 2015) It is a 
common misconception that the saltwater fishing economy resides only in 
coastal communities. I'm here to report otherwise. I may come from a 
coastal state, but I live 300 miles from the coast. And many of my 
suppliers and other businesses in the industry are situated far from 
the coast in interior states. Additionally, many of my vendors conduct 
their business in interior, land-locked states.
    At NauticStar, I employ 300 hard-working Americans in Amory, 
Mississippi--in Senator Wicker's home state. They are fine workers. I 
pay good wages and health benefits. We take pride in producing the 
highest quality boats on the market, and we are dedicated to our 
customers. That is why I am here today--to be a face and a voice for 
the 440,000 Americans employed in the industry and the 11 million 
Americans who enjoy recreational fishing on America's public waters. 
(Fisheries Economics of the United States, 2015)
    Our business affects more than me and my 300 employees. We do 
business with suppliers from many parts of the country who contribute 
to every boat we make. They include companies like Composites One, 
based in Arlington Heights, Ill., that provides us with fiberglass and 
catalysts to make hulls of boats. AOC Resins, in Collierville, Tenn., 
provides us with resins that we mix with fiberglass. Ashland Chemicals 
which supplies us with gelcoat is based in Fort Smith, Ark. SeaStar 
Solutions supplies us with steering systems and control cables from 
their locations in Litchfield, Ill., and Limerick, Penn. As I 
mentioned, the saltwater recreational fishing economy reaches far 
beyond the U.S. coastline.
    When I have spare time, I get down to the coast and get out on the 
water with my kids and grandkids, and we enjoy family time together 
with the hope of catching a few fish.
    As I sit here today, I could not be more proud of what recreational 
fishermen and recreational boaters contribute to conservation. We, 
outdoorsmen, are the original conservationists. Through license sales 
and excise taxes paid on fishing equipment and boat motor fuel, anglers 
and boaters contribute $1.3 billion annually to sportfish conservation 
and management, boating safety and infrastructure, and habitat 
restoration. An additional $400 million is donated to conservation and 
fishing organizations who do so much to support our passion each year. 
Recreational anglers and boaters are generous with our time and our 
resources because we care deeply about the culture and memories born 
from time spent on America's public waters.
    But in recent years, the Federal Government has been focused on 
denying public access to America's public resources. This problem has 
found a solution thanks to Senator Wicker.
    I would like to thank my Senator for sponsoring Senate Bill 1520, 
the Modernizing Recreational Fisheries Management Act of 2017. The 
Modern Fish Act would bring much needed modernization to the way 
recreational fishing is managed in Federal waters. And this is 
important because marine recreational fishermen have felt like an 
afterthought of the Federal Government for decades. Federal fisheries 
policies do not reflect the depth and breadth of the recreational 
fishing industry and the need for more public access for anglers. 
Furthermore, current Federal fisheries management is limiting the true 
economic potential of the recreational fishing industry. With 
unreasonably short seasons, abrupt fishing closures and inconsistency 
in setting seasons from year to year, recreational anglers, and the 
businesses they support, are not fully confident they will have access 
to America's public marine resources under the current system. Without 
the confidence of access and confidence in Federal fisheries 
management, anglers don't buy boats. Families don't go fishing.
    The way marine fisheries are managed affects me. It affects my 
business. And it affects my family.
    Congress can provide balance and consistency to the long-ignored 
recreational fishing sector by modernizing recreational fisheries 
management by passing the Modern Fish Act.
    I am happy to answer questions. Thank you for having me.

    Senator Sullivan. Thank you, Mr. Faulkner.
    Mr. Donofrio.

      STATEMENT OF JAMES A. DONOFRIO, EXECUTIVE DIRECTOR, 
                 RECREATIONAL FISHING ALLIANCE

    Mr. Donofrio. Thank you, Mr. Chairman.
    Good afternoon, Mr. Chairman, Ranking Member Peters, and 
members of the Committee. My name is Jim Donofrio. I'm the 
Executive Director of the Recreational Fishing Alliance.
    The RFA is a 501(c)4 political action organization whose 
mission is to fight for the rights of saltwater anglers, 
support jobs in the recreational marine industry, and support 
sustainable fisheries. Currently, under the Magnuson Act, our 
job to fight for anglers' rights and support jobs in our 
industry is getting harder. Rebuilt sustainable fisheries is 
not the problem; it is access to those fisheries that is 
causing loss of angler participation, keeping charter and party 
boats tied to the dock, and putting tackle and boat sales and 
service jobs in jeopardy.
    Right now, because of an over-precautionary Magnuson Act, 
our sector cannot access many robust fisheries, including red 
snapper, black sea bass, summer flounder, cod, haddock, and a 
list of others. Keep in mind, because of the current law, no 
state, and not even the administration, can give us more fish 
to catch because it would be a violation of Federal law.
    Mr. Chairman, we need the amendments in the bipartisan 
Modernizing Recreational Fisheries Management Act, S. 1520, to 
be put into law. These amendments, if passed, would allow for 
conservation, continued sustainability, and better access for 
those robust stocks that we cannot access at this time. We view 
these changes as improvements, not rollbacks.
    Please remember the RFA is supported by the National Marine 
Manufacturers Association, Viking Yacht Company, Yamaha, 
Contender Boats, Maverick Boat Group, and many other boat and 
motor companies as well as many tackle companies.
    And contrary to what our opposition may tell you, Mr. 
Chairman, the business models for these companies do not allow 
us to catch the last fish. The Modern Fish Act, if passed, 
would address specific needs of the recreational fishing 
industry. Historically, MSA has focused on commercial fishing 
and has mandated a commercial style management approach. It is 
undeniable that this approach is the cause of many important 
fish stocks being rebuilt to historic levels of abundance.
    However, the consequences of this approach, particularly 
the use of annual catch limits, in our sector, has had a 
negative impact on the recreational fishing industry. 
Recreational fishermen played a significant role in rebuilding, 
yet we do not enjoy the benefits of the rebuilding on an 
equitable level. We believe S. 1520 takes a step in the right 
direction by allowing recreational anglers to be managed 
different from the commercial fishermen, and so they can enjoy 
the benefits of rebuilt stocks.
    Specifically, the Modern Fish Act allows Federal fisheries 
managers to use alternative management approaches for 
recreational fishing, similar to state management, through 
interstate commissions that better align with the nature of 
recreational fishing and available data to manage and monitor 
our sector.
    It also provides limited exemptions for application of the 
annual catch limits. The open access characteristics and 
limitations with regards to data collection associated with the 
recreational sector are simply not compatible with annual catch 
limits. This is not to imply that the recreational anglers want 
no accountability or they don't want to--or they want to fish 
without restrictions. In many recreational fisheries, there are 
far better ways of monitoring the recreational sector, and 
they're more practical and fair than the annual catch limits.
    It also provides limited flexibility with rebuilding fish 
stocks and allows managers to take into consideration 
international fishery treaties and ecosystem interaction. It 
temporarily limits the expansion of limited access privilege 
programs and catch shares, and calls for the National Academy 
of Science to study the impacts of this management approach.
    And, finally, it calls for improvements to the recreational 
fishing data collection by allowing consideration and inclusion 
of information from fishermen, universities, and other third 
parties, as well as fostering Federal-state partnerships to 
improve data collection.
    Mr. Chairman, it has been over 10 years since Magnuson was 
revisited. And as you know, fisheries are in a dynamic, ever-
changing environment. Fisheries change, science change, and we 
can't get the help from the bureaucracy we need. We need 
Congress to modernize the law now with the Modern Fish Act and 
put this all together for us.
    Mr. Chairman, thank you. I'm happy to answer any questions.
    [The prepared statement of Mr. Donofrio follows:]

     Prepared Statement of James A. Donofrio, Executive Director, 
                     Recreational Fishing Alliance
Introduction
    Good afternoon Mr. Chairman, Ranking Member Peters and Members of 
the Committee. It is an honor to appear before you today and a 
privilege to speak to the Committee. My name is Jim Donofrio and I am 
the Executive Director of the Recreational Fishing Alliance (RFA). It 
is my intention today to discuss the management challenges facing the 
recreational fishing industry and to offer suggestions for the 
Committee's consideration to address these challenges. These 
suggestions will be directed toward amendments that should be made to 
the Magnuson-Stevens Fishery Conservation and Management Act (MSA) with 
the goal of spurring growth and prosperity in our industry while 
ensuring long-term conservation and sustainability of our Nation's 
marine resources.
    We have been talking about the need for MSA reform since the ink 
dried on the 2007 MSA reauthorization. There have been numerous 
congressional hearings on the topic, more than I care to count. Two 
national rallies were held in the Capitol and attended by fishermen, 
both commercial and recreational, from across the country. The theme of 
both rallies was MSA reform. I will not bore the Committee with 
statistics and specific examples of problem fisheries. The problems in 
red snapper, cod, summer flounder, black sea bass, amberjack, and many 
other species are all well documented and have been discussed and 
analyzed in great detail. The limitations of recreational data 
collection and lack of confidence in the stock assessments for many 
fisheries are also well known. The problem has been identified through 
some brilliant testimony given by witnesses, particularly Mr. Nick 
Wiley and Mr. Ben Speciale, at the two previous field hearings held by 
the Committee. What our industry and the recreational fishing community 
needs now is action.
    In simple terms, we need your help. We have been asking for your 
help since MSA was reauthorized in 2007 when amendments were made to 
the law that created a systemic management problem on a national scale 
and which is most acutely felt in the recreational sector. Looking back 
at original intent of MSA (public law 94-265) signed into law on April 
13, 1976, one objective of the law was to promote domestic commercial 
and recreational fishing under sound conservation and management 
principles. This objective seeks to strike a balance between sound 
conservation and the needs of the fishing industry for our federally 
managed species which RFA very much supports. Unfortunately, this noble 
objective was altered in the 1996 and 2007 reauthorizations and 
currently, management can only be described as a failure, a total 
imbalance with recreational fishermen and the recreational fishing 
industry losing out. The needs of fish have been put at an inordinate 
level of priority while the needs of the fishing community and industry 
have been made an afterthought. This is not sound resource management 
and this approach is not in line with the original intent of MSA. We 
are asking that the Senate, along with the House, pass MSA 
reauthorization bills as soon as possible to bring back a balance to 
management of our Nation's marine resources.
    I think it is important to impress upon the Committee three key 
points; urgency, jobs and fragility. First, our industry has been 
losing businesses and jobs at an alarming rate as a direct result of 
failed management measures forced upon the recreational sector due to 
MSA. These are businesses that once lost do not come back and our 
community permanently losses necessary recreational fishing 
infrastructure. For this reason, it is imperative that Congress make 
reauthorizing MSA a top legislative priority. Our industry expects and 
requires a bill to be passed and sent to President Trump's desk before 
the mid-term elections in 2018 at the absolute latest. Second, I ask 
that you look at the recreational fishing sector as an industry where 
access to fisheries afforded to individual anglers supports a $60 
billion industry comprised of thousands of businesses, large and small. 
Recreational fishing businesses are not confined to coastal regions but 
span nearly all 50 states. Those businesses and jobs can be protected 
by giving anglers access to fisheries which in turn spur economic 
activity. Finally, our industry is extremely fragile. History has 
clearly proven that the recreational fishing industry is far more 
fragile than many of the stocks of fish that anglers pursue and MSA is 
charged with managing. The businesses in the recreational fishing 
industry cannot simply close their doors and wait until managers allow 
anglers to fish on rebuilt stocks again. Greater consideration must be 
given to the fragility of our industry when working to achieve 
conservation goals.
    What we are talking here is a political problem, not a conservation 
problem. The solution will only come from political action. There are 
currently two bills that have been introduced in the Senate and seek to 
amend MSA; S. 1520 and S. 1748. Notwithstanding some refinement, RFA 
supports S. 1520 and S. 1748, with S. 1520 being our preferred bill of 
the two. RFA offers the Committee comments on S. 1520 and has included 
them below. RFA supports S. 1520 over S. 1748 due to its broader 
geographic scope and issues it addresses and it being the bill with the 
best likelihood of moving through the Senate at this time. We look 
forward to seeing this bill move through the Senate in an expeditious 
manner.
    As written and if passed, S. 1520 would address specific needs of 
the recreational fishing industry. Historically, MSA has focused on 
commercial fishing and has mandated a commercial style management 
approach for the management of the Nation's marine fisheries. It is 
undeniable that this approach is the cause of many important fish 
stocks being rebuilt to historic levels of abundance. However, the 
consequence of this approach, particularly the use of annual catch 
limits, has had a deleterious impact to the recreational fishing 
industry. We believe S. 1520 takes a step in right direction by 
allowing recreational anglers to be managed different from the 
commercial fisheries so they too can enjoy the benefits of rebuilt fish 
stocks.
    The RFA offers the following comments to specific sections of S. 
1520. We would ask that these comments be taken into consideration and 
incorporated into S. 1520 during markup. In addition, RFA would support 
the language of S. 1520 being included in a larger MSA reauthorization 
bill if one is introduced.
    Section 101. RFA would not oppose any modification to section 
101(a) which would expand the geographic range to include the Mid-
Atlantic and New England regions. This section would charge the 
National Academy of Sciences (NAS) to provide guidance to the regional 
fishery management councils with regards to allocating fishing 
privileges which would be beneficial for the regional councils since 
they are the regulatory bodies that set allocations for federally 
managed species. This section merely advises that guidance be developed 
for allocation; it does not mandate allocation changes. While the Mid-
Atlantic and New England regions would benefit from their inclusion in 
this section, the RFA does not support amending the section if such 
changes would slow or derail the passage of the bill. Allocation of 
fish stocks between the commercial and recreation sectors is often a 
contentious issue. Guidance on allocation decisions is desperately 
needed due to recent judgments that ruled that National Marine 
Fisheries Service has a legal obligation to enforce allocations just as 
it does annual catch limits.
    Section 102. RFA supports section 102 as written. If implemented, 
this language would allow for alternative management measures in the 
recreational component of a fishery while the commercial sector would 
continue with traditional management approaches. Having access to such 
an approach would allow for a management style that would better 
accommodate the nature of the recreational fishery while taking into 
consideration and addressing the limitations of the recreational data 
collection programs. A very successful example of this type of 
management approach can be seen in the Atlantic Striped Bass fishery 
which utilizes annual quota based management for the commercial 
component of the fishery while utilizing fishing mortality targets for 
the recreational component.
    Section 103. RFA supports section 103 and provides the following 
justification. LAPPS, IFQ or catch shares have undeniable impacts on 
the resources and recreational fishing opportunities in mixed 
fisheries. RFA supports a temporary moratorium on new LAPPS in mixed 
fisheries and a thorough review to be conducted by the NAS on the 
comprehensive and long-term impacts of LAPPS on the resource, the 
fishing communities and any sectors or individuals not assigned quota.
    Section 104. RFA supports minor revisions to section 104 of S. 
1520. At a minimum, RFA supports amending (A)(i) by changing possible 
to practicable. Such a change is consistent with the findings of the 
NAS which recently published a report which found that rebuilding fish 
stocks as quickly as possible based on arbitrary time frames provided 
no additional long-term conservation benefits and results in 
unnecessary lost opportunities and negative socioeconomic impacts to 
fishing communities. This group of experts found rebuilding timeframes 
should incorporate some flexibility to accommodate the needs of the 
fishing industry. For this reason, we believe that the language in H.R. 
200 section 4 represents our preferred language with regards to 
rebuilding fish stocks. If such language cannot be included in S. 1520 
or another senate bill, RFA would support having language similar to 
that in H.R. 200 Section 4 be the preferred language rendered during 
conference.
    Section 105. Annual catch limits are particularly problematic in 
the recreational sector for two key reasons. First, when scientific 
information is poor or unreliable for a stock, setting the annual catch 
limiting is done with a considerable amount of uncertainty. Uncertainty 
leads to precaution which can result in a significant downward 
adjustment to an annual catch limit. Section 105 (a) addresses this 
issue. The second issue is the lack of an accurate and precise 
recreational data collection program that can monitor recreational 
harvest relative to an annual catch limit. As written, this issue is 
not addressed in section 105. The NAS recently conducted a multi-year 
investigation on the Marine Recreational Information Program (MRIP), 
the primary Federal data collection system used to estimate 
recreational landings. This report did not determine if MRIP was 
adequate for the implementation of annual catch limits in the 
recreational sector. MRIP was simply not designed for year to year 
catch data but for long-term, broad geographic scale trends on effort, 
participation and catch. Therefore, RFA believes it is essential that 
the recreational fisheries be granted some exemptions from the annual 
catch limit requirements. As cited above in the striped bass fishery, 
the recreational sector can operate in the absence of an annual catch 
limit, even in an extremely popular species like striped bass, and the 
stock can still meet and exceed long-term conservation goals. RFA 
supports the inclusion of an addition subsection (C) in 105 to read;

        105(a)(m)(2)(C) an annual catch limit that based on a range of 
        Allowable Biological Catch on an annual or multiyear basis 
        consistent with the confidence intervals of the primary data 
        collection programs and assessments used to monitor the sector 
        of a fishery that is measured by a survey-based data collection 
        system not designed to monitor annual catch limits or provide 
        guidance on in-season adjustments;

    To eliminate any legal inconsistencies, MSA 302 (h)(6) will also 
need to be amended and RFA offers the following suggestions to be 
included in S. 1520;

        (6) develop annual catch limits or a range of catch for each of 
        its managed fisheries that have an acceptable probability that 
        such limits will not result in overfishing the fishing level 
        recommendations of its scientific and statistical committee or 
        the peer review process established under subsection (g);

    Section 106. RFA supports the language in this section which would 
give states and state conservation agencies greater input on the 
issuance of exempted fishing permits. Exempted fishing permits can 
serve as a valuable tool to gather necessary information and advance 
management decisions. However, they should not be used to circumvent 
existing fishery management plans or the regional council decisions. In 
recent years, exempted fishing permits have been used as loopholes to 
advance unpopular agendas and allow commercial exploitation in areas 
closed for conservation purposes. Greater oversight and state level 
input is needed over the issuance of exempted fishing permits and we 
believe language in section 106 achieves that necessary oversight.
    Section 201. RFA supports the intent and language of this section. 
This section of the bill would improve cooperative data collection 
efforts and allow the greater use of non-governmental sources of 
information such as fishermen, fishing communities, universities and 
research institutions. Fishermen are often the first ones to observe 
changes in the marine resources and if enacted, this section of S. 1520 
would afford fishermen greater opportunities to contribute their 
information and data which could be useful for the assessment and 
management important fisheries. Under a careful review process, RFA 
believes greater sources of data will provide a more comprehensive view 
of the fishery resources and increase our capabilities to identify and 
respond to changes with the fisheries.
    Section 202. RFA would like offer a suggestion with regards to a(E) 
which deals with funding for the development of state partnerships to 
improve recreational data collection programs. RFA suggests adding and 
The Sportfish Restoration Fund after (15-U.S.C. 713c-3). The Sportfish 
Restoration Fund is a federally managed account that is funding by an 
excise tax on recreational fishing related products and a percentage of 
marine fuel. Using this money to improve recreational data collection 
through the advancement of federal-state partnerships is a productive 
and appropriate use of these funds.
Conclusion
    In closing, I would like to express my appreciation for the 
opportunity to discuss the importance and urgency of amending MSA. 
There has been roughly 10 years of debate on the issue and the problems 
have all been laid on the table. The recreational fishing industry is 
in a precarious situation and it cannot wait any longer. S. 1520 has 
been introduced in the Senate and represents a bill, notwithstanding a 
few modifications, which would address many of the issues negatively 
impacting the recreational fishing industry. I use this opportunity 
today to urge you to make MSA a priority, to take into consideration 
RFA's suggestions to refine S. 1520 and pass a MSA bill. Thank you.

    Senator Sullivan. Great. Thank you, Mr. Donofrio.
    Mr. Horton, the floor is yours.

    STATEMENT OF CHRIS HORTON, FISHERIES PROGRAM DIRECTOR, 
              CONGRESSIONAL SPORTSMEN'S FOUNDATION

    Mr. Horton. Thank you, Chairman Sullivan, Senator Peters, 
and members of the Subcommittee.
    My name is Chris Horton, and I'm the Senior Fisheries 
Program Director for the Congressional Sportsmen's Foundation. 
Established in 1989, CSF works with the bipartisan Members of 
the Congressional Sportsmen's Caucus, the 48 state legislative 
sportsmen's caucuses, and the Governors Sportsmen's Caucus on 
recreational angling and other sportsmen-related issues.
    I began my career as a fisheries biologist for a state 
natural resource agency. Prior to joining CSF in 2010, I was 
the conservation director for B.A.S.S., the largest angling 
organization in the world. I currently serve on the MPA Federal 
Advisory Committee, and I previously served on the Sport 
Fishing and Boating Partnership Council and the Board of the 
National Fish Habitat Partnership.
    I'm an avid angler who has been blessed with the 
opportunity to fish all around this great nation, including 
making the annual family pilgrimage to the Gulf of Mexico to 
fish for red snapper.
    I sincerely thank the members of this Subcommittee for the 
opportunity to speak to you today regarding the Magnuson-
Stevens Act. Recreational saltwater anglers are an important 
and significant component of our nation's marine fisheries. 
According to NOAA, there are 9 million saltwater anglers who 
take nearly 61 million fishing-related trips and who contribute 
$63 billion in sales impacts to our economy.
    However, as important as those numbers are, the role that 
anglers play as conservationists and our dedication to ensuring 
sustainable fisheries is often misunderstood or overlooked. It 
is important that this Committee understand that managing for 
better recreational fishing opportunities is not counter to the 
conservation goals of the Magnuson-Stevens Act, but, rather, 
complementary.
    During the 1940s, realizing that fishing license fees alone 
were not enough to restore fisheries resources, anglers in the 
sport fishing community lobbied Congress to impose an excise 
tax similar to the Pittman-Robertson Act for wildlife, to 
benefit fisheries and aquatic habitat restoration.
    The Federal Aid in Sport Fish Restoration Act, or better 
known as the Dingell-Johnson Act, was finally passed in 1950, 
which implemented a new 10 percent excise tax on rods, reels, 
and fishing tackle.
    In 1984, the Wallop-Breaux amendment to the Act, again led 
by anglers and sport fishing and boating industries, expanded 
that list of taxable items, and included a tax on motorboat 
fuels.
    Since 1951, these taxes generated more than $8.6 billion 
for our fisheries. When combined with recreational fishing 
licenses, the total funds anglers have willingly paid for both 
freshwater and marine fish conservation is around $27.3 
billion. This ``user pays-public benefits'' model is largely 
responsible for the abundant fisheries that we have today.
    However, even beyond their license fees and excise taxes, 
angling organizations, like the Coastal Conservation 
Association and countless others, often donate additional money 
and volunteer time to ensure healthy fisheries.
    Since its original passage in 1976, the Magnuson-Stevens 
Act has made significant progress in ending overfishing and 
rebuilding depleted fish stocks. However, it remains primarily 
a model for commercial fisheries, and fails to adequately 
address the significant socioeconomic, cultural, and 
conservation values of recreational fishing.
    For this reason, we support making a few minor adjustments 
to the Magnuson-Stevens Act, found in the bipartisan Modern 
Fish Act, or S. 1520, that facilitates better management of the 
recreational sector while still ensuring sustainability of our 
fisheries resources.
    For instance, we need workable management options. 
Currently, Federal recreational fisheries are primarily managed 
the same as commercial fisheries, with ACLs based on hard-pound 
quotas. This simply doesn't work well for the recreational 
sector. We need other tools in the toolbox that are more 
appropriate for the recreational component of the fishery.
    Whereas in the South Atlantic and Gulf of Mexico, most 
allocation decisions were made in the 1980s and 1990s based on 
catch data from that time. Things have changed in 30 years, 
though nearly all allocations have remained the same. 
Unfortunately, there is no good mechanism nor incentive to 
prompt a review of allocations by the councils.
    Finally, we need to incorporate more non-Federal data and 
data collection approaches into fishery management decisions. 
As good as MRIP may be for long-term trends over multiple 
species, it was never intended to be used for in-season 
management of individual species, especially in very short 
seasons. We need new approaches that allow the states, 
universities, and anglers to provide the solutions.
    In summary, recreational anglers were among the Nation's 
original conservationists and continue to be. We have always 
readily and personally invested in the long-term sustainability 
of our fisheries' resources. We need the changes to MSA found 
in S. 1520. They will not weaken the conservation principles of 
the law, but they would provide the necessary tools to manage 
recreational fisheries more appropriately and with the same 
level of emphasis as commercial fisheries.
    Thank you for your time, and I'll be happy to answer any 
questions.
    [The prepared statement of Mr. Horton follows:]

    Prepared Statement of Chris Horton, Fisheries Program Director, 
                  Congressional Sportsmen's Foundation
    Thank you Chairman Sullivan, Senator Peters and members of the 
Subcommittee. My name is Chris Horton, and I'm the Fisheries Program 
Director for the Congressional Sportsmen's Foundation (CSF). 
Established in 1989, CSF works with the bipartisan Congressional 
Sportsmen's Caucus (CSC), the largest, most active caucus on Capitol 
Hill. With nearly 300 Members of Congress from both the House and 
Senate, current Senate CSC Co-Chairs are Senators Jim Risch (R-ID) and 
Joe Manchin (D-WV), and Vice-Chairs are Senators Deb Fischer (R-NE) and 
Heidi Heitkamp (D-ND).
    Thirteen years ago, CSF extended the legislative network from 
Washington, DC to states across the country, establishing the 
bipartisan National Assembly of Sportsmen's Caucuses, which today is 
made up of 48 state legislative caucuses, and includes over 2,000 
legislators. Eight years ago, CSF established a bipartisan Governors 
Sportsmen's Caucus, which today includes 34 Governors and one 
Lieutenant Governor. Together, this collective force of bipartisan 
elected officials works to protect and advance hunting, angling, 
recreational shooting and trapping for the nearly 40 million sportsmen 
and women who spend $90 billion annually on our outdoor pursuits.
    An avid angler myself, I began my career as fisheries research 
biologist for a state natural resource agency. Prior to joining CSF in 
2010, I held the position of conservation director for B.A.S.S., the 
largest angling organization in the world. I currently serve on the 
Marine Protected Areas Federal Advisory Committee, and I have 
previously served on the Sport Fishing and Boating Partnership Council 
for the Secretary of Interior and on the board of the National Fish 
Habitat Partnership. Though perhaps most importantly relative to this 
hearing today, I'm an avid angler. In fact, my earliest memory as a 
child was fishing with my grandmother sometime around the age of 5. 
I've had the good fortune of fishing all around this great nation, from 
salmon and halibut in Alaska to mahi and sailfish off the coast of 
Florida. Of course, being from the south, our family makes an annual 
pilgrimage to the Gulf of Mexico to spend a week fishing for the 
infamous red snapper.
    As a recreational angler, I sincerely thank the members of this 
Subcommittee for the opportunity to speak with you today about the 
success and challenges of the Magnuson-Stevens Fishery Conservation and 
Management Act as you work to reauthorize the Nation's premier 
fisheries law. Recreational saltwater anglers are an important and 
significant component of our Nation's marine fisheries. According to 
the 2015 NOAA survey, there were 9-million saltwater anglers who took 
nearly 61-million fishing related trips and who contributed $63 billion 
in sales impacts to our economy--resulting in 440,000 jobs (both full 
and part time) in that year alone.
    However, as impressive and important as those numbers are to the 
nation, the role that anglers play as conservationists and our 
dedication to having sustainable fisheries for the future is often 
misunderstood or even ignored. It is important that the Committee 
understand and appreciate that managing for better recreational fishing 
opportunities is not counterproductive to the conservation goals of 
MSA, as some may lead you to believe, but rather complimentary to the 
goal of sustainability and conservation of our marine resources.
    Around the turn of the last century, our relatively young nation 
was beginning to realize that our once plentiful natural resources were 
not unlimited, and in fact were being overharvested, especially fish 
and wildlife populations. States began establishing natural resource 
agencies to help recover and manage fish and game populations for the 
benefit of the public. However, it soon became clear that license fees 
alone were not enough to adequately fund habitat restoration and 
management efforts. The hunting and firearms community stepped up, and 
with the help of Senator Key Pittman (NV) and Congressman Absalom 
Willis Robertson (VA), passed the Federal Aid in Wildlife Restoration 
Act in 1937. The Pittman-Robertson Act diverted an 11 percent excise 
tax on firearms and ammunition into a separate account, managed by the 
U.S. Fish and Wildlife Service, that is then administered back to the 
states for funding wildlife and habitat restoration efforts. Soon 
thereafter, anglers and the sportfishing industry began a campaign to 
have Congress implement a similar model for fish and aquatic habitat 
restoration. In 1950, the Federal Aid in Sport Fish Restoration Act, 
led by Senator Edwin Johnson (CO) and Representative John Dingell (MI), 
was passed and signed into law. The Dingell-Johnson Act implemented a 
new 10 percent excise tax on fishing rods, reels, related components 
and fishing tackle. In 1984, the Wallop-Breaux amendment to the Act, 
again led by anglers and the sportfishing and boating industries, 
expanded the list of taxable items to include marine electronics, 
trolling motors, import duties on fishing tackle, yachts and pleasure 
boats, and also added a motor boat fuels tax, significantly expanding 
the revenues apportioned back to the states for fisheries and aquatic 
conservation.
    From 1951 to 2016, these angler-supported taxes have generated more 
than $8.6 billion for fisheries and aquatic conservation. When combined 
with fishing license sales, the total funds anglers have willingly paid 
to ensure conservation of both freshwater and marine fish species is an 
astounding $27.3 billion. Known as the American System of Conservation 
Funding, this ``user pays--public benefits'' model is the lifeblood of 
the North American Wildlife Conservation Model, which is unique to the 
rest of the world and responsible to the abundant fisheries resources 
we have today. Again, all proudly paid for by recreational anglers.
    In addition to providing funding for state fisheries management, 
these funds support a vital component of fisheries conservation--
habitat restoration and enhancement. For example, the Alabama 
Department of Conservation and Natural Resource's Marine Resources 
Division used a portion of these funds to create the largest artificial 
reef system, primarily in Federal waters, in the United States. More 
than just fish aggregators, these artificial reefs, placed in the 
predominantly featureless landscape of sand and muddy substrates, can 
be extremely effective at increasing the biomass of reef fish 
populations.
    However, even beyond the license fees and excise taxes anglers have 
gladly supported, many will donate additional money and time to ensure 
our fisheries are healthy today and for future generations. A good 
example can be found with volunteers from the Coastal Conservation 
Association, the largest membership-based coastal fishing organization 
in the nation, who have donated countless hours on projects like 
building artificial reefs off Mississippi's Cat Island, planting 
seagrass in Florida's Indian River Lagoon or restoring marsh habitat in 
the Louisiana Delta. From a national perspective, CCA's Building 
Conservation Trust Fund has successfully leveraged member donations to 
put an additional $14 million towards nearly 40 projects to benefit 
fisheries sustainability. This is one of countless examples from 
throughout the country of anglers leading volunteer efforts to restore 
fisheries habitat and fish populations.
    Recreational anglers have long recognized that to have healthy fish 
populations to afford numerous encounters with fish and an enjoyable 
day on the water with family in friends, it is essential to properly 
manage and conserve the resource, not just for sustainability, but for 
abundance. That is why we have willingly invested, both money and time, 
in fisheries conservation for nearly a century. Concurrently, the more 
opportunities there are to access an abundant fishery, the more anglers 
will buy licenses, equipment, boats and fuel and perpetuate this vital 
funding mechanism for the long-term health of our fisheries resources.
    Since its original passage in 1976, the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA) has made progress in ending 
overfishing, rebuilding depleted fish stocks, protecting essential fish 
habitat and a variety of other improvements to the Nation's marine 
resources. No doubt, the health and abundance of our Nation's fisheries 
resources are much better now than they would have been without MSA. 
However, it remains primarily a model for commercial fisheries 
management and fails to adequately address the significant 
socioeconomic, cultural and conservation values of recreational 
fishing, as well as recognize that these are two distinct activities.
    Federal fisheries management under MSA is focused on treating 
fisheries resources as commodities, where the value of a fishery is 
predominantly tied to a price per pound. In contrast, state fisheries 
management is based more on the Public Trust Doctrine, where everyone 
owns the resource and should have an equal opportunity to enjoy that 
resource. Unlike the states, Federal managers are required by law to 
manage a fishery, in part, on the concept of maximum sustained yield 
(MSY), which by its very definition causes managers to decrease the 
abundance of a population and squeeze the most pounds out of a fishery 
while trying not to collapse it. Because of the inherent variability in 
their assessments that rely heavily on harvest estimates, they must 
include conservative buffers to keep from exceeding the overfishing 
limit. The fewer the fishermen in the fishery, the easier it is to 
achieve this goal. Conversely, states manage for a healthy population 
and a robust fishery in order to optimize access for fishermen, both 
commercial and recreational. From a species conservation, harvest 
sustainability, and overall public satisfaction perspective, the state 
approach is simply a better methodology for many fisheries.
    For this reason, we support making a few simple adjustments to MSA 
that allow our Nation's primary Federal fisheries law to truly 
recognize the value and significance of recreational fisheries, provide 
more tools for optimizing recreational fisheries management, while 
still maintaining and supporting the conservation goals of the Act. We 
believe the Modernizing Recreational Fisheries Management Act (S. 1520) 
or Modern Fish Act, provides the necessary adjustments to achieve these 
goals. A few examples include:

        Alternative Management--For most mixed-use fisheries, NOAA and 
        the Regional Fishery Management Councils (RFMC's) manage both 
        the recreational and commercial sectors using ACL's based on 
        hard-poundage quotas enforced in near real time. While this 
        management approach seems to work well with the relatively few 
        number of commercial fishermen whose catch can be accurately 
        counted and weighed, this approach does not work well for the 
        much larger number of recreational anglers whose catch is 
        estimated based on an often very small sample size and 
        extrapolated to another estimate of overall effort over a 
        longer period of time. This data uncertainty in the 
        recreational sector often leads to unnecessarily large buffers 
        and reduced opportunity for anglers. States successfully manage 
        recreational fisheries using a variety of methods that control 
        the rate of harvest, though very rarely do they use poundage-
        based quotas to manage angling effort. This provision of the 
        Modern Fish Act would clarify that NOAA and the RFMC's could 
        use management approaches more suited to the recreational 
        component of the fishery, while still adhering to the 
        conservation goals of MSA.

        Allocation Review--This provision of the Modern Fish Act would 
        establish a mechanism for periodic review of fishery 
        allocations in mixed use sectors in the South Atlantic and Gulf 
        of Mexico, as well as provide clear guidance on how allocation 
        decisions are made. Most allocation decisions were made in the 
        1980s and based on recent catch data at the time. Despite the 
        numerous other changes that have occurred within the fishing 
        industries and the fisheries management world in the decades 
        since, nearly all allocations have remained the same. This is 
        particularly problematic in the southeastern U.S., where 
        population growth and interest in offshore recreational fishing 
        have grown substantially in the last several decades. 
        Unfortunately, there currently is no mechanism to prompt 
        allocation reviews, and because reallocations are often 
        contentious, there is no incentive for Councils to adequately 
        evaluate whether an allocation shift is warranted based on the 
        current social, economic or environmental conditions.

        Better Data--While ``better data'' has been a universal request 
        for both the recreational and commercial sectors each time MSA 
        has been reauthorized, it has generally been to direct NOAA to 
        allocate more resources to the problem. However, the Modern 
        Fish Act looks to incorporate more cooperative, non-federal 
        data and data collection approaches into fishery assessments 
        and management decisions. For example, the Marine Recreation 
        Information Program (MRIP) is the only estimate of recreational 
        harvest used for stock assessments and determining if ACL's 
        have been exceeded. While MRIP is generally a good program for 
        evaluating trends over a relatively long period of time and 
        across a broad geographic area, it was never intended to be 
        used for in-season management of individual species, and 
        particularly not for determining in season closures for 
        recreational fisheries with extremely short seasons, as in the 
        case of red snapper in the Gulf of Mexico. For this reason, 
        each of the Gulf States have developed their own data 
        collection system to get better, more timely estimates of 
        angler harvest. Louisiana's LA Creel program is a prime example 
        of how a state agency, with the help of recreational anglers 
        who went to their state legislature and secured the necessary 
        funds, solved the problem. Unfortunately, neither the LA Creel 
        data, nor those of any of the other Gulf states, have been 
        certified by NOAA to be used in stock assessments. In addition, 
        there is an increasing level of interest and use among anglers 
        of angler logbook smartphone apps, such as iAngler. While 
        states like Florida have worked with the recreational fishing 
        community to incorporate data from these programs into their 
        management decisions, NOAA Fisheries has been resistant to 
        considering this emerging technology.

    In summary, recreational angles were among the Nation's original 
conservationists and continue to be so. Healthy, abundant fish 
populations have always been our goal, and we have been more than 
willing to personally invest in the long-term sustainability of our 
fisheries resources. The much-needed changes to the Magnuson-Stevens 
Act found in S. 1520 will not weaken the conservation principals of the 
law, nor does it pit recreational anglers against commercial fishermen. 
It would simply allow the law governing fisheries management in the 
United States to provide Federal managers and regional councils with 
the necessary tools to manage marine recreational fisheries more 
appropriately and with the same level of emphasis as commercial 
fisheries.

    Senator Sullivan. Great. Thank you, Mr. Horton.
    Mr. Friedrich, the floor is yours.

     STATEMENT OF ANTHONY ``TONY'' FRIEDRICH, RECREATIONAL 
               FISHERMAN, EASTERN SHORE, MARYLAND

    Mr. Friedrich. Thank you very much for the opportunity to 
be here today. My name is Tony Friedrich. I am a lifelong 
recreational fisherman currently residing on the Eastern Shore 
of Maryland. There has never been a single moment in my life 
where my heart wasn't firmly planted in the outdoors.
    I've sat on countless councils, advisory boards, and 
committees over the last 20 years. For almost 8 years, I was 
the Executive Director for the Coastal Conservation Association 
of Maryland. The fishermen I know care about conservation. I 
work tirelessly with them on habitat issues, forage species 
conservation, and improving scientific methods and practices.
    I've seen good and bad fisheries management decisions, and 
I've seen fish populations either recover or crash as a result. 
In my experience, those failures always stem from one problem: 
a failure to put the resource first. The task of reauthorizing 
Magnuson-Stevens is an incredibly noble endeavor. As we 
proceed, I just ask we remember these words: We don't inherit 
the Earth from our ancestors, we borrow it from our children.
    Prior to 1996, the passage of the Sustainable Fisheries 
Act, New England groundfish, red snapper, summer flounder were 
just a few of the 86 overfished species that were on the verge 
of disaster, but thanks to the law and the subsequent 
reauthorization in 2007, things started to slowly get better. 
Measures were put in place that set up annual catch limits on 
science-based initiatives that prevented overfishing, depleted 
stocks had rebuilding plans, and it restored them to 
sustainable levels.
    June 30, 2017, only 30 stocks were still on that list. It's 
really hard for me to think of another law that had that much 
impact in such a short period of time, yet legislative 
flexibility and recent decisions by the Secretary of Commerce 
on red snapper and summer flounder will likely allow 
overfishing and are a very serious concern.
    If you want to see the results of this kind of flexibility 
in action, you have to look no further than the Atlantic States 
Marine Fisheries Commission. Its management is not held to the 
same standards as MSA. They can ignore overfishing and are not 
required to rebuild overfished stocks, because striped bass 
right now are hovering just above the threshold where they'll 
be overfished, the spawning stock biomass.
    And striped bass on the Atlantic coast, which again are not 
managed under MSA, are a great example why sustainable limits 
are needed. In 1986, the stock was collapsing. East Coast 
anglers only made 300,000 trips. Rather than address the issue 
in a timely manner, ASMFC waited till the situation became very 
extreme and a moratorium was necessary. The stock did not get 
declared rebuilt until 1995. At that juncture, there were 5 
million trips by anglers. Fast forward to 2007, there were 10.5 
million trips by anglers. During that entire timeframe, the 
creel limit did not change. We don't need to kill more fish, we 
need access to abundant populations.
    Annual catch limits leave striped--the lack of annual catch 
limits, rather, leave striped bass very susceptible to 
overfishing. Annual catch limits allow managers to respond in a 
timely manner to changes in the fishery. Striped bass are 
managed by mortality rates, which is an alternative management 
measure many tout today as the way forward, but what it means 
is we can't compare our catch to a sustainable limit at the end 
of each year, we have to wait years for stock assessments to 
tell us how things are going. While we're waiting, we're still 
fishing at the same rates, leave striped bass in a situation 
where it takes years to acknowledge overfishing, and even 
longer to address it.
    If we want to support the $115 billion recreational 
industry and the 800,000 jobs it supports, we have to focus on 
stable and abundant fish populations that are managed by 
science-based catch limits for the benefit of the general 
public. It's not just striped bass that are in decline with 
ASMFC. American eel, American shad, horseshoe crab, tautog, all 
in trouble. Weakfish populations, they're so low that there may 
not be enough genetic diversity left in the stock to support a 
recovery. As a father, that kills me. I'll never sit on the 
beach on a full moon and wait for those tide runners to come in 
with my son. I'll never show him the fangs on those fish. I'll 
never show him the beautiful yellow color on the inside of 
their mouth. I'll never show him the purple hues on their back. 
They won't come back because of inaction. We knew what to do to 
save them, but we just kept catching them.
    Rather than pursuing a misguided flexibility, 
reauthorization presents all of us with an incredible 
opportunity. Fishermen I know want to improve protections for 
essential habitat, maintain adequate forage bases. They're 
interested in--they're not interested in removing annual catch 
limits. They know that ``flexibility'' is a euphemism for 
``overharvest.'' They're keenly aware that transferring 
management to states removes many of the safeguards from 
Magnuson-Stevens and opens the door to overfishing.
    We have a great--we have much great work that we can 
accomplish. Why do we want to break the things that are 
working? As fisheries collapse around the world, 89 percent of 
our domestic fisheries are not overfished. The Magnuson-Stevens 
Act is working. We can make it better. Managers need a funding 
source for better and more frequent stock assessments. We 
should look to improve data collection methods for the 
recreational sector. Data collection and overall performance of 
MRIP is being called into question. Anyone who calls that into 
question never had to deal with MRFSS. MRIP--MRIP is working.
    My solemn prayer is that I can convince you all that 
recreational fishermen are true conservationists. Our number 
one desire is to watch our children and grandchildren embrace 
the outdoor heritage that makes this country so unique.
    Thank you so much for letting me participate in this. I'm 
very grateful for the opportunity. And I look forward to any 
questions that you all have.
    [The prepared statement of Mr. Friedrich follows:]

    Prepared Statement of Anthony ``Tony'' Friedrich, Recreational 
                              Fisherman, 
                        Eastern Shore, Maryland
    My name is Tony Friedrich. I am a life-long recreational fisherman 
currently residing on the Eastern Shore of Maryland's portion of the 
Chesapeake Bay. From 2009 to 2016, I was the Executive Director of CCA-
Maryland. We advocated for the Chesapeake Bay TMDL from the EPA. We 
protected forage species because 70 percent of resident striped bass 
had mycobacteriosis from malnutrition. We were leaders for striped bass 
conservation and also lead the charge of reasonable speckled trout 
regulations. I've seen good and bad fisheries management decisions, and 
I've seen fish populations either recover or crash as a result. In my 
experience, those failures always stemmed from one problem--a failure 
to put the resource first. Often, these bad decisions were possible 
because of a lack of strong rules, or because political pressure 
prioritized more fishing now instead of the health of the fish stock. 
Recently, there's been more and more pressure to make it even easier 
for those bad decisions to happen. Decision-makers should resist these 
calls to weaken the Magnuson-Stevens Act, since their goal--your goal--
should be the same as mine: to make sure I leave this country's natural 
resources in better shape than I got them, so that my children and 
grandchildren can love the outdoors like I do. I've dedicated over 20 
years of my life to that.
Background
    My family came to this country and thrived because its abundant 
natural resources gave us food, freedom, and opportunity. In the mid 
1700s, my decedents sought refuge from the Seven Years War, and carved 
out a life in the marshes of Louisiana. The natural resources provided 
them a chance to live free and make a better life. You will never find 
people who care more for the natural resources of America. The land and 
sea gave them an opportunity to prosper.
    My first memories are fishing with a cane pole for bluegills at a 
farm pond in rural Tennessee. Since then, there has never been a single 
moment when my heart wasn't firmly planted in the outdoors. I tell time 
by the tide and understand the habits and needs of fish far more than I 
ever will understand humans.
    I am incredibly fortunate to have spent so much of my life working 
with fishermen to protect the natural resources we care about. I've sat 
on countless councils, advisory boards, and committees over the last 
twenty years and for almost eight years while I was the Executive 
Director of CCA-Maryland. Through CCA, I worked with large groups of 
recreational fishermen, listening to their concerns and acting on them 
through grassroots advocacy. From the Atlantic States Marine Fisheries 
Commission to the Mid-Atlantic Fishery Management Council, I used my 
influence to better the resource with the help of a small army of 
dedicated volunteers that believed in me and putting the resource 
first.
    The fishermen I know care about conservation. We worked tirelessly 
on habitat issues, forage species conservation, and improving 
scientific methods and practices. We broke ``the rules'' by working 
hand in hand with environmental groups. My philosophy was simple: if 
you put the fish first, everything else works out. Too often, you see 
people fighting over their slice of the pie, always wanting a bigger 
slice even it means taking it from someone else, hurting the resource, 
and ignoring, or worse, defaming, the best available science. I tried 
to help folks understand that if you make the pie bigger, we'd all get 
along. It's only through working together, bringing recreational and 
commercial fishermen, scientists and managers to the table, and making 
decisions that consider the long-term health of the resource, that we 
can all win.
    The National Marine Fisheries Service released a survey in 2013. 
The survey looked at the attitude and preferences of saltwater 
recreational anglers from every coast. Almost ninety percent of the 
anglers valued spending time with family and friends more than any 
other aspect of the sport. Eighty percent of those surveyed just wanted 
to catch fish. Importantly, less than forty percent wanted to fill 
their limits every time out. This falls directly in line with my 
experience with the recreational sector. The bulk of fishermen want to 
encounter fish during their trips. Harvesting these fish is far less 
important. We fish for the experience.
    So now you know who we really are. But, I sit here today to speak 
for the resource because it needs a voice. It needs a voice to remind 
decision-makers that things were far worse in the not so distant past. 
It needs a voice that says there are so many people in coastal 
communities that rely on a healthy resource. Frankly, there needs to be 
a voice of reason.
We've made progress towards sustainable fisheries, but that's now in 
        jeopardy
    Prior to 1996, and the passage of the Sustainable Fisheries Act 
(SFA), New England groundfish, red snapper, and summer flounder were on 
the verge of disaster. Pursuant to standards established by SFA, 86 
different species were declared overfished. But thanks to that law and 
the Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act passed in 2007 (Magnuson-Stevens Act, or MSA), 
things started to slowly get better. Measures were put in place to set 
up annual catch limits (ACL) based on science that prevent overfishing. 
Depleted stocks were put into rebuilding plans to restore them to 
sustainable levels. As of June 30, 2017, only 30 of stocks are still on 
the overfished list, and most of those are either highly migratory 
species or part of the New England groundfish stock.
    It is hard to think of another a law that has such a positive 
impact in such a short time frame. When you dig a little deeper, you 
begin to understand that MSA's robust system of standards and 
stakeholder participation empower decision-makers to make the right 
decisions. All too often lately, we hear complaints about how catch 
limits negatively impact the economy, and are unfair to recreational 
fishermen. But when stocks decline because of overfishing, businesses 
fail, communities suffer and there's less fishing for everyone.
    Gulf of Mexico red snapper and Mid-Atlantic summer flounder are 
somehow now the rallying cries for those who seek to weaken the 
Magnuson-Stevens Act. But the irony is, neither species would be 
available to catch if not for the catch limits and rebuilding plans 
required by the MSA.
    It is an accurate statement when people say that they have never 
seen more red snapper in the Gulf of Mexico. Red snapper stocks crashed 
in the 90s. It has been more than 50 years since the stock was truly 
healthy. The stock has recovered well in the past decade, but it still 
has a long way to go. And yes, the Federal red snapper season in the 
Gulf of Mexico is short, but that's not the fault of MSA. The 
recreational sector has consistently overfished red snapper. The 
average size of the fish is growing. State seasons take 70-80 percent 
of the recreational quota, leaving very little for the Federal season. 
As an example, Texas has a 365 day season with a four fish limit. Then, 
the states and some Gulf anglers get upset when the season in Federal 
waters is shortened. Instead of solving the problems of overfishing and 
long state seasons, people are attacking the National Marine Fisheries 
Service and MSA. In reality, everyone should be thanking them from the 
return of the iconic fish. The numbers tell the story.
    In 1990, red snapper landings were just slightly over 4 million 
pounds. By 2000, the landings increased to almost 10 million pounds. In 
2014, the landings were just short of 16 million pounds. We are 
watching a success story in the making. Red snapper spawning potential 
hasn't been this high since 1968. However, red snapper can live to be 
50 years old. The oldest fish are the most valuable to the resource. A 
5 year old red snapper produces 8x the eggs of a three year old and a 
10 year old produces 33x the eggs of a 3 year old. Since red snapper 
stocks are managed on spawning potential and snapper are long lived, 
rebuilding will take a while. Right now, the bulk of the population is 
about 10 years old. The numbers are rising but we have to be patient 
because that is what the biology of the fish demands.
    Likewise, summer flounder was chronically overfished at the end of 
the 20th century. I've seen that population ebb and flow over the last 
twenty years. Every single time we've taken cuts, we've seen 
improvement. In 2016, stock assessment updates indicate that fishing 
mortality exceeded the threshold by 26 percent. The spawning stock 
biomass is only 58 percent of the target and sits only 16 percent above 
the threshold. The overall biomass has been trending downward since 
2010. This has been driven by low recruitment and also illegally 
harvested flounder that may have resulted in large overages of the 
fisheries annual catch limit. New York and New Jersey caught 88 percent 
of the total quota in 2016. The two states totaled 4.771 million pounds 
while the coast wide quota is 5.42 million pounds. Science told us that 
drastic reductions in harvest are needed. New Jersey just went out of 
compliance with the Atlantic States Marine Fisheries Commission's 
summer flounder management plan. New Jersey fishermen created a 
narrative that reductions would destroy the industry. So, we have a 
state that has the lion's share of the fish and may now be 
overharvesting, too.
More flexible systems fail to manage sustainably
    We hear an awful lot from those who claim to represent the 
recreational sector about the need for ``flexibility.'' If you want to 
see flexibility in action, look no further than the Atlantic States 
Marine Fisheries Commission (ASMFC). ASMFC isn't held to the same 
standards as the eight regional councils established through MSA. ASMFC 
can ignore overfishing and is not required to rebuild overfished 
stocks. The results of this ``flexibility'' are much less impressive 
than fisheries regulated with annual catch limits and accountability 
measures.
    Striped bass on the Atlantic coast, which is not managed under MSA, 
is a good example for why sustainable limits are needed. In 1986, the 
stock was collapsing. East Coast anglers made only 300,000 trips. 
Rather than address the issue when the first signs of decline became 
apparent, ASMFC bowed to political pressures to do nothing, and waited 
until severe measures were necessary. A full moratorium was put in 
place in Federal waters, and several states closed their seasons as 
well. The stock started to recover, and was declared rebuilt in 1995. 
Immediately, the number of striped bass trips jumped to 5,000,000. By 
2007, the number of trips was a staggering 10,500,000. During that 
timeframe, the coast wide creel limit stayed at two fish at a 28, 
minimum size limit; the creel limit never changed. The lack of an 
annual catch limits leaves striped bass very vulnerable to overfishing. 
Annual catch limits allow the managers to respond more quickly to 
changes in the fishery. However, striped bass is managed by mortality 
rates, an ``alternative'' management measure many tout today as the way 
forward. But what it means is we can't compare our catch to a 
sustainable limit at the end of each season--we have to wait years for 
stock assessments to tell us how the stock is doing. While we are 
waiting, we are still fishing at the same rates. This leaves striped 
bass in a situation where it takes years to acknowledge overfishing and 
even longer to address it. Currently, striped bass numbers are 
declining again. The spawning stock biomass is hovering just above the 
threshold to be declared overfished. Trips have fallen to just over 6 
million. If we want to support the $115 billion recreational industry 
and the 800,000 jobs it supports, we should focus on stable and 
abundant fish populations that are managed by science-based annual 
catch limits and for the benefit of the general population.
    And it's not just striped bass that is in decline under ASMFC's 
more flexible management system. Weakfish populations are so low that 
there might not be enough genetic diversity left to support a viable 
stock.
    Weakfish were once a staple of the Chesapeake Bay. Every tackle 
shop had rows and rows of local lures called ``trout bombs'' lining the 
aisle. You could go out and have a reasonable expectation that you 
would catch weakfish from the mouth of the Potomac to north of the Bay 
Bridge. In 2002, the weakfish population dropped below the spawning 
stock biomass threshold. In 2009, a stock assessment was completed that 
showed weakfish population at 3 percent of an unfished stock. It took 
seven years to begin to address the plummeting population of weakfish 
under ASMFC. We kept the same creel and size limits in place during 
that time period knowing all the while that the population was in 
serious trouble. The years of inaction decimated the population to a 
point where draconian measures had to be implemented to save the stock. 
I'd much rather make minor adjustments to harvest on an annual basis 
rather than see a stock collapse. After all this, ASMFC still refused 
to take the advice of scientists and close the fishery. If they had 
taken this action, the stock might have recovered by 2020. Now, we 
don't know if it ever will.
    The case of spot is no different. Spot are managed on abundance and 
harvest metrics know as a TLA, not annual catch limits. The TLA 
(Traffic Light Analysis) is a precautionary management tool that 
identifies trends and suggests management options. It is not as 
effective as annual catch limits. Spot abundance is on the decline. The 
first ever coast wide stock assessment is currently under review. In 
the meantime, spot have become the number one bait for striped bass in 
the Chesapeake Bay. It is not uncommon for anglers to go out with 
hundreds of spot in their live wells. The TLA and stock assessment 
process lacks the regulatory strength and timely response necessary to 
account for trends in increased effort.
    Please, take it from me and the rest of the recreational anglers of 
the Chesapeake Bay, you don't want to use ASMFC as a model. American 
eel, American shad, horseshoe crabs, and tautog are also on the 
decline. ASMFC staff and scientists are top notch, but ASMFC as a 
governance body is not bound by MSA. There are no ACL's or 
accountability measures. They have plenty of flexibility. There is no 
legal authority to follow science even for setting rebuilding 
timelines. It doesn't work.
The science is sound and better than it has ever been, but there's room 
        for improvement
    Accurate and timely catch information is critical to making 
effective fisheries management decisions. For the recreational sector, 
that catch and effort data is provided by MRIP (Marine Recreational 
Information Program), a national program overseen by NMFS but in nearly 
all cases is implemented by states. While MRIP isn't perfect, it was 
recently reaffirmed as both legitimate and accurate by the National 
Academy of Sciences. Yet MRIP is being called into question by the same 
people asking for more flexibility. Anyone who remembers MRFSS (Marine 
Recreational Fisheries Statistics Survey) should embrace MRIP. Under 
MRFSS, phone numbers were taken from a phone book. The first question 
in the survey was ``Do you fish?'' Currently, under MRIP, every angler 
is issued a FIN (Fishery Identification Number) thus supplying managers 
with a database of actual fishermen.
    Gathering recreational data is hard. Recreational fishing involves 
large numbers of individuals fishing from many different locations, 
making it very difficult to estimate the number of fish caught. But 
MRIP is doing a decent job, according to the National Academy of 
Science: ``MRIP has made significant improvements in gathering 
information through redesigned surveys, strengthening the quality of 
data. Although many of the major recommendations from the 2006 report, 
``National Research Council. 2006. Review of Recreational Fisheries 
Survey Methods. Washington, D.C.: The National Academies Press. https:/
/doi.org/10.17226/11616.'' have been addressed, some challenges remain, 
such as incorporating technological advances for data collection and 
enhancing communication with anglers and some other stakeholders.'' 
We've come a long way from cold calls, and both the catch and effort 
data from MRIP has vastly improved. The system becomes more accurate as 
the number of surveys grows.
    With that said one of the key problems in getting more in-season 
data is that the state survey programs use vastly different 
methodologies and send their data to MRIP at inconsistent times. There 
is a significant calibration effort needed to make sure we aren't 
comparing apples to oranges, and this means the data coming out of MRIP 
is delayed. The one exception is the LA Creel program out of Louisiana, 
which uses the same design as MRIP but can survey with greater 
frequency. It is odd that critics of MRIP are broadly supportive of the 
LA Creel program. To improve MRIP, we should follow the advice of the 
National Academy of Sciences and improve communication, technology, and 
survey rates. In addition, state surveys could be improved and designed 
to better fit with MRIP, and all our data programs could be better 
funded. If recreational fishing is worth $115 billion and supports 
800,000 jobs annually, shouldn't we be funding it properly?
This is a chance to make things better for fisheries
    We have an incredible opportunity in front of us with a 
reauthorization effort. We have a chance to secure healthy marine 
environments for generations to come. The fishermen I know want MSA to 
be more robust. They aren't interested in removing annual catch limits 
and they know that ``flexibility'' is a euphemism for overharvest. They 
are also keenly aware that state management would remove many of the 
safeguards in MSA and open the door to overfishing; just look at New 
Jersey and summer flounder under ASMFC. We should embrace the 
opportunity to further protect our future. As fisheries around the 
world collapse, 89 percent of our domestic Federal fisheries are not 
overfished. The Magnuson-Stevens Act is working. But we can make it 
even better.
    Keep annual catch limits in place, don't allow for more 
flexibility, support angler-led innovation, and work within the system 
to improve and fund scientific research:

  <bullet> Keep annual catch limits and accountability measures--it is 
        the single most effective tool that fishery managers have had 
        over the last ten years. Ignore the rhetoric and look at the 
        numbers.

  <bullet> Managers and scientists need more funding, not less, for 
        better and more frequent stock assessments.

  <bullet> Implement better catch and effort data collection methods 
        for the recreational sector. Innovative, angler-led electronic 
        tools, like smartphone apps, show a great deal of promise.

  <bullet> Have an honest discussion about how to best protect critical 
        habitat areas like the Louisiana marsh, the Chesapeake Bay, and 
        the Everglades.

    Let's take a page out of Theodore Roosevelt's conservation ethos 
and do the hard things now so we can reap the benefits for generations 
to come. Let's not focus on next quarter's results, let's focus 
enabling the next generation to enjoy our natural resources. My solemn 
prayer is that I can convince all of you that recreational fishermen 
are true conservationists. Our number one desire is to watch our 
children and grandchildren embrace the outdoor heritage that makes our 
country so unique. In the end, we just want to watch them smile from 
ear to ear as they are reeling in a fish.
    Thank you for allowing me to participate in this process. I am 
forever grateful for this opportunity and look forward to ensuring my 
heritage for generations to come.

    Senator Sullivan. Thank you, Mr. Friedrich.
    And thank you, gentlemen, for your outstanding testimony.
    I am going to yield my time at the outset here, as I know 
Senator Inhofe has a time commitment. So I'm going to yield my 
time, and I'll come back with questions at a later round.
    But, Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman, that's very nice 
of you, and the Ranking Member, too.
    Something you just said kind of sparked me a little bit 
when you talked about the people who are most concerned are 
those users. There's somehow this mentality in Washington that 
the government, the Federal Government, has to make these 
things happen. We feel very strongly that people who are 
farmers or own their own land are more concerned about the 
conservation and the quality than government.
    Mr. Faulkner, years ago, back when I enjoyed life----
    [Laughter.]
    Senator Inhofe.--I was a builder/developer in South Padre 
Island, Texas. Now, I know Mr. Horton knows where that is, but 
you're probably somewhat familiar with that.
    Mr. Faulkner. Sure.
    Senator Inhofe. And, you know, there's this thought that if 
you're not from a coastal state, that somehow you don't have 
that close connection, but that's not true. Of course, I worked 
down there and I was down there virtually every week anyway, 
but also many companies. HydroHoist, in Oklahoma, is one of the 
largest in the world along the line of those products. And I 
know that Mick Webber started that thing from just almost 
nothing. So we have a lot of activity and a lot of interest in 
what happens down there on the coast.
    Now, this year, it took a cooperative agreement negotiated 
by multiple stakeholders, and I was here at the hearing, to 
lengthen the red snapper season for private recreational 
anglers in the Federal Gulf Coast waters. Well, the problem was 
that we went through a period of time up until about 2005 when 
we had a real problem with the number of snapper that are out 
there.
    Now, when that changed, it took--I'd like to have you 
succinctly highlight for this committee how punitive 
recreational fishing regulations and the uncertainty as to the 
length of a Federal fishing season negatively impact your 
business and what we're all here for?
    Mr. Faulkner. Thank you, Senator. Well, my answer is two 
parts. As a recreational fisherman myself, I think at times the 
uncertainty, certainly 3-day seasons or 9-day seasons, and it 
storms for 5 of those, is very limited, and it's unpredictable, 
and it just so much compacts your time out there that it's a 
mad race to go out there sometimes when it's not even safe seas 
to be out fishing. And I'm speaking predominantly on the red 
snapper. I think that's what you were referring to.
    Senator Inhofe. Mm-hmm.
    Mr. Faulkner. But I think the uncertainty also from the 
manufacturing side of it is our customers making a large 
investment in time for their family, and certainly financially, 
the uncertainty just isn't worth the risk if they're not going 
to be guaranteed some fair time to be out there to participate. 
And I think the word ``uncertainty'' is what's been the biggest 
problem over the last 10 years.
    Senator Inhofe. Yes, that is a problem.
    And, Mr. Horton, you commented your activity down in the 
area that you and I are both familiar with. And I think a key 
component of the Modern Fish Act is adapting Federal fisheries 
management and embrace recreational fishing as well as 
commercial fishing, something we've heard a lot about.
    I would ask you, do you think it's--have the states done a 
better job than the Federal Government?
    Mr. Horton. Yes, sir, I think so, and there are a number of 
reasons for that. Number one, the states tend to manage--states 
manage differently than the Federal Government in the fact that 
the states manage for population abundance and health because 
they're trying to manage for maximum access for the people. I 
mean, recreational anglers are essentially their customers, and 
so they want to make sure that we have access to healthy, 
abundant fisheries, whereas the Federal management tends to 
manage Federal fisheries more as really a commodity, and it's 
not--they don't manage it quite like a public trust resource.
    So access isn't necessarily--maximum access isn't the 
ultimate goal, maximum sustainable yield is the ultimate goal 
essentially, or optimal yield. So I feel like the states, from 
a recreational angler's perspective, and the models that they 
use to maximize access is more effective.
    Senator Inhofe. What I'd like to have all of you do is give 
some thought to how the Federal Government, if we're talking 
about making changes, not just in this Act, but in other Acts, 
to try to enhance what this is all about today. But give some 
thoughts to, what specifically is it that the Federal 
Government could learn from the states so that we can treat 
this not just as a one-shot thing, but come back here for other 
improvements in the future?
    Mr. Horton. Sure.
    Senator Inhofe. Yes. Hey, thank you very much for putting 
me in.
    Senator Sullivan. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    And thank you to each of our witnesses for your testimony 
today. I certainly appreciated hearing from each of you.
    Mr. Horton, I appreciated when you mentioned you have 
fished all across the United States. I hope the Great Lakes was 
part of that fishing expedition across the United States.
    Mr. Horton. Lake St. Clair is my favorite bass lake in the 
country.
    Senator Peters. All right. Good to hear that.
    [Laughter.]
    Senator Sullivan. And I'm assuming Alaska was in there, 
too.
    [Laughter.]
    Mr. Horton. Halibut fishing in the Kenai River. Yes, sir.
    [Laughter.]
    Senator Peters. Well, I'm very pleased that you were in 
Lake Michigan or in one of the Great Lakes. And St. Clair is 
not really one of the Great Lakes, but you can get to the other 
bigger lakes, too, as you continue to travel around. We are a 
coastal state as well in the fact that we have more miles of 
coastline than any other state except Alaska, but, of course, 
it's all fresh water.
    And also, Mr. Faulkner, I appreciated your comments on the 
boat industry. We have more boat registrations than any state 
in the country in the state of Michigan. So we are a state of 
boaters. We are a state of anglers. We love fishing.
    And I certainly appreciate all the comments of all of you 
that folks who enjoy fishing are also great conservationists. 
They realize that it's something to cherish. It is a sport that 
passes down to generation to generation. But you need fish in 
order to go fishing, which is a key aspect of it, and they full 
recognize that.
    However, over the last several years, the question is, you 
know, it seems like some of the larger membership groups that 
focus on fish conservation have stopped talking about ensuring 
abundance of fishery resources as a goal, a goal that seems to 
me, at least, to benefit everybody--the more fish you have, the 
better--and are now more focused on things like expanding a 
perceived lack of access to fish resources. And in many cases, 
it seems to me the lack of access grows directly out of a lack 
of abundance. You've got to have abundance first.
    Mr. Friedrich, I want to ask the question, why do you think 
this shift has occurred? Has it occurred? And why do you think 
that is occurring? And does it make more sense to be focusing 
on abundance?
    Mr. Friedrich. Thank you. Thank you very much for the 
question. You know, shifts occur for a lot of different 
reasons. The numbers that I quoted in my testimony are very 
real. From 1986, when striped bass populations were collapsing 
and there were only 300,000 trips, and then they hit a peak in 
population, and there were 10.5 million trips, and the creel 
limit never changed.
    As recreational fishermen, we're in it for the experience. 
I enjoy seeing, you know, dolphins go by my boat, or to see a 
bald eagle, and I really like catching fish. I really like it 
when I'm out there catching fish. If there are no fish to 
catch, I'm not going to go fishing, and that is true of all 
recreational fishermen. I have not measured my day on how many 
fish I can kill in so long I can't remember. We're more about 
the experience. And I think the numbers that you'll see: when 
fish populations are abundant, the economy benefits; when fish 
populations are not abundant, the economy does not benefit.
    We absolutely have to manage fish for abundance. We have to 
make sure that they have the habitat and the forage species 
necessary to increase the carrying capacity in any system to 
support that abundance. And, again, I think we have an 
incredible opportunity when we're taking a look at Magnuson to 
really make it stronger to support fisheries 50 years from now 
or 100 years from now.
    And, again, the only thing that we really want is to see 
our kids and grandkids smile when they're reeling a fish in. I 
don't want to tell my son that we can't go fishing because we 
can't catch those species until they recover. We all rely on 
this for our lives, our recreation, the boat builders, all the 
organizations that rely on healthy fisheries, that should be 
our focus, not weakening Magnuson, strengthening Magnuson.
    Senator Peters. And part of that focus that you reference 
in your testimony that we just heard, you also reference in 
your written testimony that we need to ensure adequate forage 
fish population?
    Mr. Friedrich. Yes, sir.
    Senator Peters. And I think you touched on some of the 
negative consequences when populations get too low. Why do you 
think forage conservation is so important? And do you think the 
kinds of policies that you have advocated for in the Mid-
Atlantic would be effective nationwide, something we should be 
considering?
    Mr. Friedrich. Yes, absolutely, and that's not a personal 
bias either. There's a little oily fish called the menhaden 
that pretty much lives from Maine to Florida. Several years 
ago, menhaden were at the lowest level of their abundance, 
about 8 percent of a virgin stock. It affected everything. 
Striped bass contracted mycobacteriosis, which is a wasting 
disease, 100 percent fatal, in aquaculture. We're still trying 
to figure out how many of them died from that. But they were 
malnourished. Ospreys had the lowest chick recruitments since 
DDT was taken off the market. Everything suffered.
    Weakfish, I mentioned weakfish, they're a soft grade fish. 
The natural mortality skyrocketed on weakfish because they're 
like little Snickers Bars to striped bass. So we are growing 
them to 11 inches, and they are disappearing because that 
biomass that comes down the coast is waiting at the mouth of 
Hudson Bay, Delaware Bay, Chesapeake Bay, for those young-of-
the-year menhaden to leave the estuaries when the water gets 
colder.
    It's very similar to the migration of the Serengeti, it's 
just underwater, so you all can't see it. But it's a very real 
thing. And when forage species are absent, other species become 
the forage. It takes 1,000 bay anchovies to equal one adult 
menhaden. OK?
    When we brought those menhaden back, it was just a 20 
percent reduction that we got. Mycobacteriosis was a thing of 
the past. Osprey recruitment recovered immediately. There's a 
slight uptick in the weakfish population, but we may have 
knocked them down so low that, like I said, they're never 
coming back. But you can't remove the keystone species of an 
ecosystem and expect everything to be OK. It's not going to be 
OK. It's probably the thing that I'm the most proud of, that 
one victory. In all the conservation victories that I did, it's 
the one thing that made the most difference.
    And living on the Eastern Shore, when I drove over here 
today, there were--I counted half a dozen schools of menhaden 
when I was driving over the Bay bridge, and I was watching 
birds feed on them, I was watching juvenile striped bass feed 
of them, everything, and it makes you feel good inside when you 
know you did something decent for the world.
    Senator Peters. Great. We appreciate that. Thank you.
    Senator Sullivan. Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Mr. Horton, how long have you been having 
this annual pilgrimage to fish red snapper?
    Mr. Horton. Prior to joining CSF in 2010, I worked for 
B.A.S.S., and we were based out of Orlando, Florida, at the 
time. So when we first moved there in 2005, I bought a bay 
boat. You take a boy from the hills of Arkansas and give him a 
saltwater environment to fish in, I went crazy and wanted to 
try to learn to catch everything.
    [Laughter.]
    Mr. Horton. So I started catching red snapper then. And 
since coming to work for CSF in 2010, 2011, I missed that year, 
but I've been down there every year since----
    Senator Wicker. What did you think when you heard about a 
72-hour season?
    [Laughter.]
    Mr. Horton. I knew--I had a suspicion that it was coming.
    Senator Wicker. We don't know what the season is going to 
be next year, do we?
    Mr. Horton. That's true. The variability is in question. I 
think a lot of folks may be surprised that we don't exceed the 
quota quite as much as what was originally thought, but----
    Senator Wicker. You know, I think if there was a little 
more certainty, Mr. Faulkner might be able to sell a few more 
boats.
    You know, I didn't ask this, Mr. Faulkner, but a couple of 
generations back, you've got to be somehow kin to William 
Faulkner, aren't you?
    Mr. Faulkner. You know, I'm not sure. I haven't reached any 
inheritance from it, so I don't guess I can claim much of that.
    [Laughter.]
    Senator Wicker. Not that close of kin.
    Mr. Faulkner. We lived in the same neck of the woods, 
though.
    Senator Wicker. That's absolutely true. And Mr. Faulkner 
wrote a book called ``Go Down, Moses,'' it had a bunch of short 
stories in it, and this was about hunting, not fishing, but 
young Isaac McCaslin sort of came of age during these short 
stories, and in one story entitled, ``The Old People,'' his 
cousin, McCaslin Edmonds is quoted as saying this, ``The earth 
don't want to just keep things, hoard them, it wants to use 
them again.'' And I think that's what you're saying and the 
other witnesses are saying about how recreational fishermen are 
conservationists because we know, along with Mother Earth, that 
we don't want to keep these things, we want to use them over 
and over. And so I appreciate what you and your fellow 
witnesses have done for conservation.
    You provide directly 300 jobs in Amory, Mississippi.
    Mr. Faulkner. Correct.
    Senator Wicker. Are you an Amory Panther?
    Mr. Faulkner. I am.
    Senator Wicker. OK, well, I was a Pontotoc Warrior back in 
the day.
    Mr. Faulkner. I know, up the road.
    Senator Wicker. I wasn't much of one, but I was there.
    Mr. Faulkner. Just up the road.
    Senator Wicker. But in addition to that, every dealership 
in these 28 states provides jobs, where they sell your boats. 
And congratulations on having such a wide range of buyers who 
like your product.
    Also, when you make a boat, there are folks making a living 
in Arlington Heights, Illinois; Collierville, Tennessee; Fort 
Smith, Arkansas, Mr. Horton; Litchfield, Illinois; and 
Limerick, Pennsylvania. Isn't that correct?
    Mr. Faulkner. That's correct.
    Senator Wicker. And so it's a part of this, that what we're 
talking about today is not only recreation and using our God-
given resources, but also providing jobs for Americans across 
this great land and not just in the coastal area.
    Mr. Faulkner, you mentioned uncertainty about access, 
uncertainty about fishing seasons, and we mentioned the 
notorious example of the 72-hour season. Now, that was expanded 
then to 39 weekend days, but we really don't know what that 
season is going to be next year, do we?
    Mr. Faulkner. No, sir.
    Senator Wicker. So if somebody is looking to buy a boat, 
and if red snapper is their thing, it's hard for them to 
decide, ``I want to fork over a considerable amount of money,'' 
if they don't know how much fishing they're going to be able to 
do. Is that correct?
    Mr. Faulkner. That's correct. And it's such a commitment, I 
mean, from the family side of it. Are we going to go to, you 
know, ballgames this year or are we going to make the 
commitment to that boat? We're going to go out and we're going 
to use that boat, and we're going to make a huge investment of 
our hard-earned money. And if we don't know if there's going to 
be a 3-day season or a 7-day season or a 37-weekend season, 
then there's a real good chance that that purchase isn't going 
to happen. And it certainly affects--affects us.
    Senator Wicker. Let me--Mr. Chairman, let me take that 
extra 60 seconds that Senator Peters took.
    Mr. Donofrio, you and Mr. Friedrich have a difference of 
opinion about the 2007 changes to the Act. You think it was a 
disaster, and he thinks it was quite the thing. So where is he 
wrong?
    Mr. Donofrio. Thank you, Senator. Well, the last 
reauthorization, with the terrible data system that we have in 
place, and as you probably realize, the House years ago when 
Chairman Saxton was on board and Chairman Gilchrest, they 
demanded that the ASMFC look into the data collection system. 
They were--they had like 2 or 3 years to fix it after the 
National Academy of Science came out with their report. I think 
it took them 10 years before they came out with another 
program.
    So they changed the MRFSS program to the MRIP, and all it 
is, is a crossdresser, it's the same program. They're not 
doing--they're not doing real-time intercepts. They're getting 
terrible data. It's meant for, as Chris said, it's just meant 
for trends. And so the ACLs, when they butt up against the bad 
data, it creates an overfishing definition that's not 
biological, it's statutory.
    So right now, for instance, we're tripping over certain 
species of fish. You're walking on them. It's unsafe for your 
dog to go swimming in the water. And yet we're overfishing on 
these fish, there are so many of them, because it's statutory 
in nature, not biological. That's what has to be fixed.
    And as I pointed in my testimony, Senator, the models for 
Mr. Faulkner's company, for Yamaha, for Viking, the companies 
we represent, their models won't allow us to catch the last 
fish. They'll be out of business. We'll have no employees 
anywhere.
    So we want conservation and long-term sustainability. We 
have to modernize the Act. It has to change with the times and 
the amount of fish that are available.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    Senator Sullivan. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman. Thank you for 
having this hearing. Everybody I think knows that climate 
change is having an effect on our fish populations, 
particularly where the fish live, not only their numbers, but 
where they can be found. And some of the effects of climate 
change have been to drive fish that once were a mainstay for 
Connecticut fishermen north, but Connecticut's fishermen are 
still governed by the same quotas and rules as if climate 
change and that migration of fish had never happened.
    We're dealing with a system that essentially is broken. 
Stocks of black sea bass, summer flounder, and scup have quotas 
that are outdated based on where the fish are. Essentially, 
Connecticut fishermen have been barred from catching 
economically sustainable quantities of fish in or near our 
state's waters.
    When fishermen haul a larger catch than their permissible 
quota, which happens often, the fishermen have to throw their 
excess overboard. That benefits nobody. It wastes food, it 
doesn't bring the fish back to life. By that point, the bycatch 
are often dead or near dead, and they're left to rot in the 
water. The dead discards are voluminous. I've heard and spoken 
to the fishermen. I don't know how many of you in your parts of 
the country are familiar with this phenomenon, but I suspect 
it's more than just Connecticut or New England, really New 
England.
    The Magnuson-Stevens Act, which is the relevant law here, 
requires the Department of Commerce to ensure fishery 
management plans adhere to national standards, including, 
``best scientific information available,'' to decide catch 
limits. And any management plan, ``shall not discriminate 
between residents of different states,'' and must allow quotas 
that are, ``fair and equitable.''
    So I have a very simple question: Do you think that the 
Councils currently use the best information available? To all 
of you. Yes, sir.
    Mr. Donofrio. No, Senator. And as you know, that NOAA is 
very protective of their science, called the best available 
science. And I'll give you a perfect example. There is a group 
in New Jersey, Save the Summer Flounder Foundation. They hired 
some of the best Ph.D.'s in the country, non-biased Ph.D.'s, to 
get a science on summer flounder. And if we did not go to 
Members of Congress to help get that through, NOAA didn't want 
to accept it. We had to actually fight them. We had to fight 
NOAA because if we got our--we had to get our Congressmen to 
actually do it. We had to get Senator Schumer, we had to get a 
bunch of people to actually--Members of Congress to actually 
tell NOAA to move that science forward because it's real 
science. And they hide under their science, and they're very 
protective of it, and that has to change.
    Senator Blumenthal. Any others of you have an opinion on 
this issue?
    Mr. Horton. Well, Senator, to your question about, Do you 
think the Councils use the best available science? And the 
Councils and NOAA fisheries in general, I would have to say, at 
least in the Gulf of Mexico's perspective, again, when it comes 
to the Marine Recreational Information Program in a season like 
red snapper, that's just literally days or weeks where the MRIP 
data collection process is basically 2 months at best before 
you can get the estimate back. There's no way to do in-season 
closures there.
    So the states, many of the sates, have developed their own 
data collection programs. Yet, unfortunately, MRIP is the only 
one still used in stock assessments right now. But the states 
are able, at least the Gulf states are able, to get much more 
timely information today.
    Senator Blumenthal. States have better information?
    Mr. Horton. When it comes to angler harvest data in the 
Gulf of Mexico, yes, sir.
    Senator Blumenthal. Which is not used because they're 
limited or limiting themselves to Federal information?
    Mr. Horton. Because NOAA Fisheries has yet to certify the 
state data collection programs to be used in stock assessments.
    Senator Blumenthal. I want to make one other point, which 
may not be of direct concern to this panel, but I think it's 
important to note. During a recent hearing, in fact, his 
confirmation hearing, Wilbur Ross was asked by me before his 
confirmation as Secretary of Commerce, about the serious trade 
imbalance between our country and foreign competitors on 
seafood.
    For all the seafood consumed in this country, only 10 
percent comes from the United States. Think of it for a moment. 
All the seafood that we eat, and we're eating more and more of 
it because it's touted as being healthful, only 10 percent of 
it comes from the United States. The other 90 percent comes 
from other countries. Those numbers are going in the wrong 
direction, not the right one, as the percentage of foreign 
seafood consumed in this country has been increasing over time.
    I raised this issue of fishing quotas with Wilbur Ross at 
his confirmation hearing, and he stressed his commitment to 
ensure that quotas, ``are allocated properly.''
    We're at the eight-month mark of this administration. We've 
heard nothing from the administration about this issue. I could 
ask you rhetorically if you want to comment on whether the 
administration is doing enough on this issue? I'm opening it to 
your comment if you have any.
    Mr. Friedrich. Can I take one step back before we take a 
step forward and just the previous question, if we feel that 
the Councils are privy to the best science in our states and 
doing a better job?
    Senator Blumenthal. Well, if the Chairman--I'm already over 
my time, so the Chairman has a right to cut both of us off at 
any time. So with his permission----
    Mr. Friedrich. I'm new here. Whatever anyone wants to do, 
I'll follow.
    Senator Sullivan. So if you can keep it brief, I think that 
would be fine.
    Mr. Friedrich. Thank you very much, sir. What you'll find 
is people tout LA Creel, which is Louisiana's answer to 
catching--to keeping count of how many red snapper they're 
catching. LA Creel is MRIP with more funding. They have more 
intercepts and more phone calls.
    So, again, if this is truly worth $115 billion a year and 
800,000 jobs, we ought to fund the heck out of MRIP because you 
can't--you can't say LA Creel is good and criticize MRIP. You 
can't do it. It's the same thing with more intercepts.
    That--to hop right into your second question, as far as the 
seafood, you know, there are trends, success stories, in 
Virginia with oyster aquaculture. It is a zero-carbon emission 
proposition. They are filtering the water as the oyster 
watermen are harvesting them. They are harvesting them either 
from floats. Cages are on the bottom. They are not using power 
dredges and damaging natural habitat.
    So we have answers sitting right in front of us. This is 
not salmon aquaculture where 400,000 of them swim out of a pen 
and infect all the native salmon and it's the end of the world. 
These are native Maryland and Virginia oysters, Chesapeake Bay 
oysters, that are being essentially farmed in their native 
habitat. And if you--I'll point to examples on St. Jerome's 
Creek in Maryland where the creek has actually changed. From 
them filtering the water where they're being harvested via 
aquaculture, it's not muck, it's now a sand bottom. And I have 
pictures of juvenile Nassau grouper in the Chesapeake Bay in 
the oyster cages. They're bringing life back. So it's kind of a 
win-win-win. We can get there.
    Senator Blumenthal. Yes, we're doing aquaculture in 
Connecticut as well.
    Mr. Friedrich. And you all have the opportunity to do 
seafood, you know, seaweed, everything. It's incredible what 
you all have in the ocean and what you all are able to do. We 
can get there.
    Senator Sullivan. Thank you, Senator Blumenthal.
    Senator Blumenthal. Thank you.
    Senator Sullivan. Thank you.
    I'm going to turn to a couple questions of my own here. 
First for all the panelists, you know, there has been, 
particularly the first three, but all of you really talking 
about recreational fishing and commercial fishing and the 
difference from one another in terms of their management needs. 
Can you--any of you want to speak to that issue? I know it's an 
important issue to a number of you, and it raised in each of 
your testimonies.
    Yes, sir, Mr. Donofrio.
    Mr. Donofrio. Thank you, Mr. Chairman.
    As you know, you know, NOAA manages us through the Councils 
in pounds. And for the commercial sector, that works well. You 
know, they have boxes of fish, they get to the dock, they count 
the boxes, and off they go. And we're managed in pounds. So 
what happens is let's say they do a stock assessment and they 
tell us we need to cut back a little bit. So in order to cut 
back a little bit, they go up in size. When you go up in size, 
what do you do? You go up in pounds. So it's a counterintuitive 
program that's in place for us. And this is why we have, you 
know, asked Senator Nelson and Senator Wicker to incorporate 
the alternative management in the Modern Fish Act because the 
Councils need other tools to manage us. And what works for the 
commercials don't necessarily work for us. And that's a good 
example of how counterintuitive that program is.
    Senator Sullivan. Yes. Any other thoughts on that issue, 
just the commercial-recreational management tools that, from 
your perspective, you see are different that we would need to 
address?
    Mr. Friedrich. There's never been a greater opportunity, as 
modern day, where recreational fishermen can step up to the 
plate and do their part. We can't sit on these panels and tell 
you all how bad things and how tough things are for us and then 
complain about the science and not step up and say, ``I've got 
a smartphone in my pocket, I'm going to put a little bit of the 
responsibility on my shoulders, and we're going to figure out a 
way where I can report more accurate numbers to the managers 
and the scientists.''
    The scientists are just doing their job. They're doing 
exactly what we tell them to do. And they're smart people. They 
deserve to be better funded, and they certainly don't deserve 
to be criticized. We have to step up to the plate.
    As Executive Director, CCA Maryland, we ran a trial program 
called Chesapeake Catch where--it was not successful, but the 
few times the first time you try something, it's successful. 
But it was a smartphone app where anglers could track the fish 
that they caught, and it would go directly to the Maryland 
Department of Natural Resources with the information that their 
biologists found most valuable.
    So, you know, I was taught from a very young age, sir, that 
you don't complain about something unless you have a solution 
for it. So my solution is, as a group, we step up to the plate 
and provide better data because those scientists are probably 
some of the best people you'll ever meet.
    Senator Sullivan. OK. Thanks, Mr. Friedrich. I want to make 
sure I get to some of the other witnesses here.
    Mr. Friedrich. Sure.
    Senator Sullivan. Mr. Faulkner, your point on the broader 
impacts to all the states I actually thought was a really 
powerful one, and it's not well recognized. Can you elaborate a 
little bit more on your supply network even beyond Mississippi 
and how the MSA legislation does or does not impact that?
    Mr. Faulkner. Sure. Well, again, the state of Michigan, 
Attwood Products, huge source of all types of marine supplies, 
and thousands of employees there are employed because of 
fishing boats, and particularly at this point in time, center 
console boats seem to be the growing--more growth, more 
percentage of growth, in the last 5 or 6 years. And these boats 
are now used more for family than just serious even 
recreational fishermen or tournament type fishermen. They're 
family boats that they will go out and they love to go and 
catch their two, you know, which is a pretty limited amount, 
but good that it is, red snapper. Then they use their boat for, 
you know, other recreational purposes. But that gives them the 
ability to go out and use their boat for other things.
    And then we just have a lot of suppliers. I would say there 
are hundreds of parts in a boat that are manufactured in so 
many states across the Union----
    Senator Sullivan. Yes.
    Mr. Faulkner.--and it's just huge for us to be able to have 
that access and to still conserve. If we don't have fish, 
obviously we won't have a need for a boat. So we are very 
conservation-minded, but a little more access and the local--
not local, more so the state governments and the state 
biologists are so in touch with that because it varies from 
even the--in the Gulf from the Florida coast to Louisiana.
    Senator Sullivan. Yes.
    Mr. Faulkner. And each one of those need different 
governance and limits.
    Senator Sullivan. Let me ask one final question.
    Mr. Horton, I'll ask you to respond, and if others want to 
touch on it.
    I touched on it in my opening statement. A lot of you have 
been focused on it. And that is the data management issues that 
exist today, how they impact recreational fisheries and how we 
can look at improving those, again relative to, you know, how 
we use that data management processes on the commercial side.
    Do you have a view on that, Mr. Horton?
    Mr. Horton. Well, certainly from the recreational 
perspective side.
    Senator Sullivan. Yes.
    Mr. Horton. Like I said in my testimony, MRIP, it's 
actually a really good model to estimate long-term trends over 
multiple species, but it's really--it doesn't provide the 
finite data for management for in-season closures to 
allocations and quotas, which is why it's very difficult to 
manage the recreational sector to a hard-poundage ACL because 
the estimates we get are months from the time that the fishing 
actually occurs. We don't know if we're overfishing or not, so 
we have to put conservative buffers.
    And, again, that goes back to the point that we need to 
look at other management alternatives where we're not 
necessarily looking at hard-pound quotas, but there are other 
things, the harvest rates, that so many states use for inland 
species. I mean, Florida uses a 35 percent SPR for spotted sea 
trout, and they've been able to maintain just with seasons and 
bag limits, they've been able to maintain above that threshold. 
And even sometimes the populations are going to fluctuate, 
sometimes they're going to go back up, and angling effort 
typically follows that cycle.
    But one of the things that--it's not just fishing pressure 
that puts pressure on populations. There are natural variances 
to recruitment in any given year, class coming into the 
fishery. So it's not always fishermen. So you will see 
variations up and down, but we can't count every fish that the 
recreational anglers fish. So we need a management model that's 
not a hard-pound quota that allows for some of that 
variability, still having a solid conservation threshold, 
because if it drops below 35 percent, Florida will take some 
action with their anglers. Their anglers all support it, that, 
yes, our population is in trouble. Whatever we need to do, shut 
the season down for 6 months, reduce our bag, increase the 
size, whatever it takes.
    Senator Sullivan. Well, thank you very much for that. 
Listen, I want to thank this first panel. Outstanding job, as 
we expected. I also want to remind the witnesses that the 
hearing record will remain open for 2 weeks, and Senators will 
be able to submit additional questions. And if you do get 
additional questions, we would respectfully ask you to try to 
respond to those as soon as possible.
    So I would like to dismiss the first panel. Thank you 
again. And invite the second panel up to begin your testimony 
as well. Thank you very much gentlemen.
    [Pause.]
    Senator Sullivan. OK. I would like to begin with our second 
panel. And I'm going to ask each witness to deliver a 5-minute 
oral statement. If you have a longer statement, we would be 
glad to include that written statement in the record.
    I want to welcome our second panel of witnesses. Starting 
from our left is Mrs. Lori Steele, Executive Director, West 
Coast Seafood Processors Association; Mr. Peter Andrew is a 
Board Member of Bristol Bay Native Corporation. In my opening 
statement, I talked about Alaska is the superpower of seafood. 
Almost 60 percent of all the seafood harvested in the United 
States comes from the waters of Alaska, and a lot of those come 
from Bristol Bay. Mr. Gregory DiDomenico--have I got that 
right, sir?--Executive Director of Garden State Seafood 
Association. And Captain William ``Bubba'' Cochrane, President, 
Gulf of Mexico Reef Fish Shareholders Alliance.
    Again welcome to our panelists.
    Ms. Steele, the floor is yours for 5 minutes.

         STATEMENT OF LORI STEELE, EXECUTIVE DIRECTOR, 
           WEST COAST SEAFOOD PROCESSORS ASSOCIATION

    Ms. Steele. Mr. Chairman, Ranking Member Peters, and 
members of the Subcommittee, thank you for this opportunity to 
share our perspective on the MSA reauthorization. I am 
confident that we can build on lessons learned from our past 
experiences to fulfill one of the Act's fundamental and 
original goals emphasized in National Standard 1, to prevent 
overfishing while achieving on a continuing basis the optimum 
yield from each fishery.
    On the West Coast, the conservation successes under the MSA 
have been significant. Almost all groundfish stocks overfished 
at some point in the last 15 years are now rebuilt, many ahead 
of schedule. Most fisheries are 100 percent monitored and fully 
accountable, and bycatch has been greatly reduced.
    However, the economic challenges that remain are even more 
significant. The non-whiting groundfish IFQ fishery is an 
economic failure. Regulatory constraints imposed by restrictive 
rebuilding requirements and lack of management flexibility 
preclude achieving optimum yield for many stocks. We harvest 
approximately 20 to 30 percent of our available non-whiting 
groundfish quotas, falling far short of meeting National 
Standard 1.
    Reforms are necessary to provide the Councils with more 
flexibility to achieve the Act's objectives while meeting the 
socioeconomic needs of communities. I'm certain that we can 
make significant progress toward this end with some relatively 
minor adjustments to an already successful Federal fisheries 
management framework.
    In general, we support many of the reform provisions 
contained in H.R. 200, and we hope the Subcommittee will 
consider these as well. First and foremost, we must provide 
more flexibility to the Councils. The current rebuilding and 
ACL requirements are too rigid to apply universally to all fish 
stocks. To start, we can eliminate the 10-year rebuilding time 
requirement, replace it with a biologically based foundation, 
and rely on our regional Councils to determine the optimal path 
to stock rebuilding.
    We support changing language in Section 304 of the Act from 
``possible'' to ``practicable'' in terms of rebuilding periods. 
The intent of this relatively simple change is not to allow 
fisheries managers unfettered permission to set harvest levels 
wherever they choose, but, rather, to allow them to better 
protect fishing communities without undermining conservation 
objectives. We support defining ``overfishing'' and changing 
the term ``overfished'' to ``depleted'' throughout the Act. 
This term ``overfished'' unfairly implicates the industry for 
stock conditions beyond our control.
    We also support adding a comprehensive definition to the 
term ``catch share'' in the Act. Especially important is the 
inclusion of processors in this definition. This would not 
mandate that harvesting shares be awarded to processors, but it 
is simply a recognition that in certain fisheries where there 
is heavy reliance on shoreside processing capacity, 
consideration can be given to this critical infrastructure when 
allocating fishing privileges.
    We strongly support the inclusion of language that will 
ensure consistent fisheries management under competing Federal 
statutes, including the National Marine Sanctuaries Act, the 
Antiquities Act, and the Endangered Species Act, with specific 
acknowledgement that the MSA is to be the controlling Federal 
statute to manage our fisheries. Our intent is not to 
circumvent these other laws, but, rather, to apply a proven, 
successful, transparent public process to managing our 
fisheries.
    Last, I would like to briefly mention S. 1520, the 
Modernizing Recreational Fisheries Management Act of 2017, 
which was recently referred to Committee. I believe that all 
fishery stakeholders must be accountable for their impacts on 
fishery resources, and we should resist any efforts to 
undermine these requirements.
    We have concerns that S. 1520 and its counterpart, H.R. 
2023, as drafted, could potentially subvert conservation by 
exempting private anglers from accountability measures with 
little Federal oversight or MSA consistency. These bills would 
also handicap the national Exempted Fishing Permit, EFP, 
process with an overly prescriptive set of requirements.
    Throughout 2016 and 2017, we have struggled mightily with 
NOAA to implement a critical EFP program to ease regulatory 
burdens and provide us access to healthy groundfish stocks on 
the West Coast. Why would we want to make that process harder?
    We are willing to work with this Subcommittee and other 
groups to seek improvements to ensure the long-term 
sustainability of fisheries resources for all stakeholders. We 
believe recreational and commercial fishing interests want what 
is best for their communities and that proper MSA reform is a 
necessary component.
    Thank you for holding this hearing today and for your 
intention to consider important MSA reform during this session 
of Congress. I'm happy to answer any questions that you or 
other members may have.
    [The prepared statement of Ms. Steele follows:]

        Prepared Statement of Lori Steele, Executive Director, 
               West Coast Seafood Processors Association
    Mr. Chairman, Ranking Member Peters, Members of the Subcommittee, 
thank you for this opportunity to share my perspective as we move 
forward reauthorizing the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA). My name is Lori Steele, and I am the Executive 
Director of the West Coast Seafood Processors Association (WCSPA). 
WCSPA represents shoreside processing companies and related businesses 
located in California, Oregon, Washington, and Alaska. Our member 
companies also have plants and distribution facilities in Texas, 
Hawaii, Nevada, Utah, Arizona, and Florida. WCSPA members process the 
majority of whiting and non-whiting groundfish landed on the West 
Coast, in addition to sardines, albacore tuna, Dungeness crab, pink 
shrimp, and other important commercial species. WCSPA processing 
companies range from literal ``mom and pop'' operations to some of the 
largest seafood companies in the United States employing thousands of 
workers in harvesting, processing, transporting, and distributing 
seafood across the country and throughout the world.
    Prior to working for the seafood industry, I spent 18 years working 
as a fishery analyst on the New England Fishery Management Council 
staff, following some earlier experience with the fishing industry in 
New England. I hold a Master's Degree in Environmental Management with 
a special focus on fisheries management, as well as Bachelor of Science 
Degrees in Marine Science and Biology. My career has allowed me to gain 
extensive experience with all aspects of the fisheries management 
process and given me a deep respect for those who work in the seafood 
industry. I understand the important issues facing the seafood industry 
in this time of increasing regulatory demands and competing interests 
for resources. I also understand the need to work proactively and 
collaboratively with the government and other stakeholders to address 
the challenges that lie ahead and to ensure success for the U.S. 
industry in the global marketplace. I am excited and honored to 
represent the industry as we move forward with reauthorizing this very 
important law.
    A substantial portion of my perspective regarding reauthorization 
of the Magunson-Stevens Act comes from my experience working for the 
New England Fishery Management Council from 1997-2015, the time period 
covering the last two MSA reauthorizations. I developed several of the 
Federal fishery management plans, subsequent plan amendments, 
environmental impact statements, and environmental assessments to 
address the Act's new mandates to end overfishing, rebuild fish stocks, 
establish annual catch limits, and ensure accountability for some of 
New England's fisheries. During this period, I experienced first-hand 
many MSA management successes and challenges--from policy to process, 
and from administration to regulation. My work experience instilled in 
me a great appreciation for the regional fisheries management process 
established by the MSA. The eight Regional Fishery Management Councils 
are the cornerstone of this process. We are incredibly fortunate that 
the original authors of the Act had the foresight to understand the 
unique challenges associated with managing our Nation's fisheries and 
to develop a regional approach to fisheries management that encourages 
collaboration and stakeholder participation.
    Based on my prior experience with the New England Council and 
currently with the seafood industry on the West Coast, I feel confident 
the next MSA reauthorization can build on lessons learned from our past 
experiences in order to truly fulfill one of the fundamental and 
original goals of the MSA, emphasized in National Standard 1, the Act's 
guiding principle--to prevent overfishing while achieving, on a 
continuing basis the optimum yield from each fishery. From its 
beginning, the MSA has conserved, protected, rebuilt, and sustained 
marine resources in the U.S. Exclusive Economic Zone (EEZ). As we move 
forward with this next reauthorization, we have an opportunity to 
better conserve, protect, and sustain the people, the economies, the 
culture, and the communities that rely upon healthy and abundant 
fisheries.
    The 2006 MSA reauthorization focused on ending overfishing 
immediately, ensuring accountability, rebuilding stocks as quickly as 
possible, and reducing fishing capacity through limited access 
programs, all with increased reliance on science in the decision-making 
process. The standards for conservation, rebuilding, management, and 
data collection set forth in the MSA apply to all federally-managed 
stocks. Yet, the juxtaposition of insufficient data for many stocks 
with requirements to account for scientific uncertainty in the quota 
setting process has resulted in robust precautionary buffers and yields 
well below optimum yield, oftentimes at the expense of our seafood 
industry, our fishing communities and our Nation.
    On the West Coast, the conservation successes we have experienced 
under the MSA are significant and far-reaching--almost all groundfish 
stocks that were overfished at some point in the last 15 years have 
been declared rebuilt, most fisheries are 100 percent monitored and 
fully accountable, and bycatch has been significantly reduced across 
all fisheries. Just this year, bocaccio and darkblotched rockfish were 
both declared rebuilt, well ahead of schedule.
    However, the economic challenges that remain in the West Coast 
groundfish fishery are even more significant than the conservation 
gains we have made. The non-whiting groundfish fishery, managed under 
an Individual Fishing Quota (IFQ) program, is truly an economic 
failure. When the groundfish fishery was rationalized and the IFQ 
program was implemented in 2011, the industry was promised increased 
fish harvests, year-round fishing and increased profitability. The IFQ 
program was projected to benefit both fishermen and processors, enhance 
industry employment, and provide a consistent supply of groundfish to 
the American consumer. Instead, we are facing an economic disaster in 
the West Coast groundfish processing sector. Since 2011, between 20 to 
30 percent of the non-whiting groundfish annual catch limits (ACLs) are 
harvested in any given year. Feast-or-famine delivery of West Coast 
groundfish under the IFQ program has led to uncertainty, periods of 
facility shutdowns for shoreside processors and an inability to 
prosecute our groundfish business plans. Following this, key employees 
have left our workforce and moved away from coastal communities to seek 
more consistent employment elsewhere.
    The West Coast groundfish fishery and the management system that 
supports it are falling far short of meeting National Standard 1. 
Arguably, the management system is also failing to meet National 
Standard 5 (efficiency in the utilization of resources, without 
economic allocation as its sole purpose), 7 (minimize costs and avoid 
unnecessary duplication), and 8 (account for the importance of fishery 
resources to fishing communities and provide for sustained 
participation of those communities).
    National Standard 1 clearly sets up the ultimate challenge for 
fisheries managers--to achieve sustainability in terms of both the 
health of living marine resources and the well-being of the communities 
that depend on them. Some see this fundamental goal of the Magnuson-
Stevens Act--achieving both biological health and economic prosperity--
as a dichotomy; I see it as an absolute necessity and the recipe for 
success. This goal should be the primary focus of the next MSA 
reauthorization. Changes can be made in the MSA to provide the Councils 
with more flexibility to design management systems that better meet the 
standards set forth in the Act while also better meeting the 
socioeconomic needs of regional fisheries and fishing communities.
    Over the long-term, achieving optimum yield from our fisheries on a 
consistent basis will require sustaining fishing and processing jobs 
that can support coastal economies for generations to come. I am 
certain that we can make significant progress towards this end with 
some relatively minor adjustments to an already effective and 
successful fisheries management framework established under the 
Magnuson-Stevens Act.
    In general, we support some of the changes to the Act currently 
proposed in H.R. 200 and we offer the following specific comments and 
recommendations for the Subcommittee on Oceans, Atmosphere, Fisheries, 
and Coast Guard to consider as the Senate begins its MSA 
reauthorization efforts.
Flexibility in Rebuilding Fish Stocks
    First and foremost, providing more flexibility should be the 
fundamental element of any changes to the requirements set forth in the 
MSA. The addition of provisions that would increase flexibility with 
respect to stock rebuilding would improve the ability of Fishery 
Management Councils to achieve management objectives. Flexibility is 
absolutely necessary for Councils to address the unique and often-
changing circumstances that arise between fish stocks, fishing sectors, 
fishing communities, and regional ecosystems. If there's one key lesson 
to be learned from the last two MSA reauthorizations, it is that 
regional fishery managers benefit from having more tools in the 
toolbox, and flexible, adaptable options for implementing them.
    The current rebuilding requirements and ten-year rebuilding time 
frame mandated in the MSA are simply too rigid to apply universally to 
all federally-managed fish stocks. We have learned that in the case of 
stock rebuilding, one size does not fit all. Mixed stock and 
multispecies fisheries in particular are incredibly complex to 
understand and manage; we've experienced this on the East Coast and the 
West Coast. Stocks within a multispecies complex can have very 
different life histories and growth rates. Some stocks may be more 
vulnerable to environmental influences, while others may be more 
resilient in the face of changing ocean conditions. In New England, 
factors other than fishing have clearly affected the ability of some 
fish stocks to recover, perhaps even in the complete absence of 
fishing. There is little ability to predict and/or control 
environmental changes that may be key drivers in rebuilding progress 
for some of these stocks. Yet, the current requirement to adhere to an 
arbitrarily-defined rebuilding period assumes that current stock size, 
stock size targets, and rebuilding trajectories can be determined with 
some degree of certainty, which is clearly not the case.
    On the West Coast, more than 90 groundfish stocks are managed under 
a complicated management system that utilizes an IFQ program to 
allocate ACLs for more than 30 of these species to the trawl sector. 
Regulatory constraints imposed by restrictive rebuilding requirements 
and lack of flexibility in the management system preclude opportunities 
to fully utilize optimum yield for many stocks. We also face problems 
with choke species in the groundfish fishery--species with ACLs low 
enough to constrain the harvest of other target species. Oftentimes, an 
individual allocation of a choke species to a fisherman will be too 
small for that fisherman to even utilize it for bycatch when trying to 
access other important species. As a result, entire fishing trips may 
be forgone for fear of a ``lightning strike'' tow of a restricted 
species, and ultimately, the catch of all species in the multispecies 
fishery is reduced. This situation is in direct contradiction with 
National Standard 1 as well as the goals and objectives of the Pacific 
Fishery Management Council's trawl catch share program.
    For all of these reasons, we support increasing flexibility for 
rebuilding fish stocks to better ensure sustainable fisheries and 
fishing communities, and to provide the Councils with more avenues for 
addressing the needs of fishing communities. This can be accomplished 
in the MSA reauthorization by eliminating the 10-year time requirement 
for rebuilding fisheries, replacing it with a biologically-based 
foundation, and relying on our regional fisheries management process 
(i.e., the Councils) to determine the optimal path to stock rebuilding. 
The 10-year rebuilding requirement has long been considered to be 
completely arbitrary but was touted by the environmental community as 
the gold standard. However, the National Academy of Science concluded 
in their 2013 report titled ``Evaluating the Effectiveness of Fish 
Stock Rebuilding Plans in the U.S.'' that the pre-set 10-year 
rebuilding requirement was indeed arbitrary and harmful, thus ending 
the debate. It is time to replace this requirement with more 
scientifically valid metrics.
    We support adding language in the Act to: allow rebuilding plans to 
take into account environmental factors and predator/prey 
relationships; require a schedule for reviewing rebuilding targets and 
progress being made towards those targets; and allow consideration of 
alternative rebuilding strategies including harvest control rules and 
fishing mortality rate targets. Another helpful provision that would 
provide flexibility would allow a Regional Council to terminate a 
rebuilding plan for a stock that was initially determined to be 
overfished when updated science determines the stock is no longer 
overfished. Again, these provisions are consistent with the best 
available science and generally reflect a common sense approach based 
on the lessons we have learned through the last two MSA 
reauthorizations.
    We support changing language in Section 304 of the Act from 
``possible'' to ``practicable'' in terms of rebuilding periods. This is 
a relatively minor change that will help us make major strides towards 
improved implementation of the Act to help protect fishing communities 
without undermining conservation objectives. The interpretation of the 
MSA rebuilding requirements and the application of this language have 
affected West Coast fisheries, highlighted by the 9th Circuit Court 
ruling in NRDC v. Daley in 2002. Ruling on this case contesting the 
harvest levels set for the 2002 West Coast groundfish fishery, the 
Court said the following:

        ``Section 1854 contains two significant mandates that constrain 
        the Agency's options in adopting a rebuilding plan for an 
        overfished species. First, the time period must be ``as short 
        as possible,'' although the Agency may take into account the 
        status and biology of the overfished species and the needs of 
        fishing communities.''

    The practical effect of this ruling is that when selecting a 
rebuilding time frame, catch levels may be set at levels that are 
barely above economic devastation for fishing communities in order to 
rebuild in as short a time frame as possible. However, under a more 
flexible approach, an incremental amount of harvest could be allowed 
while the species rebuilds, thereby still achieving rebuilt status 
within a reasonable timeframe. The Pacific Fishery Management Council 
faced a situation like this in 2013 with rebuilding plans for two 
rockfish stocks. At that time, allowing 30-mt increase in the ACL of a 
single rockfish species while achieving rebuilt status in December of 
that year (vs. January of that same year) would have provided for 
another few hundred tons of associated rockfish landings. While the 
dockside landed value of those fish may not have been viewed as 
significant, the indirect value was enormous: having more incidental 
species available would have provided additional opportunity for 
commercial, sport, and tribal harvesters to access abundant stocks of 
fish that currently go unharvested due to the choke species effect. In 
turn, local vessels would have had another few weeks on the water, 
processors would have had longer seasons, consumers would have had more 
healthy domestic seafood--all without any risk to the status of the 
rebuilding rockfish species. Yet, the interpretation of the law 
required selection of a rebuilding time that would be as short as 
possible, not as short as practicable.
    Simply changing this terminology in the MSA would provide Councils 
much needed flexibility and the option to choose between several 
rebuilding scenarios to achieve specified conservation and management 
objectives, not just the shortest and most harmful to fishing 
communities. This change could benefit coastal communities without 
undermining any conservation and stock rebuilding objectives. The 
intent of this change is not to allow fisheries managers unfettered 
permission to set harvest levels wherever they choose; rather, it would 
allow them to exercise some reasonable judgment so they could, for 
example, allow a fish stock to be rebuilt in December rather than 
January, which were the choices available for canary rockfish in the 
above example.
    We support modifications to requirements for annual catch limits 
(ACLs) to allow regional Fishery Management Councils to consider 
ecosystem changes and the needs of fishing communities when 
establishing catch limits. In light of changing environmental 
conditions, and the role of the environment in fisheries recruitment, 
these considerations certainly make scientific and common sense.
    We support adding language to allow ACLs for multispecies stocks/
complexes to be set for multiple years. This change would essentially 
codify NOAA's related recommendations in the National Standard 1 
guidelines, as we understand the issue. We believe flexibility should 
be provided to establish multiyear periods in which an overall catch 
limit could be set, but annual harvest could fluctuate based on fishing 
conditions, market conditions, weather, water temperature, or any of 
the other variables that affect fisheries harvest. If the best 
available science and the management/monitoring systems can support 
this approach, we see no reason to specify that harvest levels must be 
set each and every year.
    We support defining overfishing and changing the term overfished to 
depleted throughout the Act. This is a simple yet very important change 
that more accurately characterizes stock condition, which is most often 
based on a number of factors, not solely on fishing mortality. The term 
overfished is perceived negatively and can unfairly implicate the 
industry for stock conditions resulting from other factors like 
pollution, coastal development, and changing ocean conditions. We also 
support changes to the Act that would require the Secretary, in the 
annual Status of Stocks Report, to distinguish between stocks that are 
depleted or approaching a depleted condition due to fishing, and those 
meeting that definition as a result of other factors. We support the 
separation and clarification of these terms and the requirement to 
differentiate sources of mortality when projecting stock status and 
setting ACLs.
Defining Catch Shares
    We support adding a comprehensive definition of the term ``catch 
share'' to the Act. H.R. 200 proposes language to define a ``catch 
share'' as any fishery management program that allocates a specific 
percentage of the total allowable catch for a fishery, or a specific 
fishing area, to an individual, cooperative, community, processor, 
representative of a commercial sector, or regional fishery association 
established in accordance with section 303A(c)(4), or other entity. 
Especially important is inclusion of ``processors'' in this definition. 
Though this inclusion does not mandate that harvesting shares be 
awarded to processors, it represents a continual recognition (along 
with recognition of cooperatives and communities), that in certain high 
volume fisheries where there is a heavy reliance on shore side 
processing capacity, investment and marketing capability (such as 
Atlantic mackerel and pelagic squids, Alaska and Pacific groundfish), 
consideration can be given to these critical elements of the 
infrastructure when allocating fishing privileges.
Fishery Disaster Requests
    We support requiring timely decisions by the Secretary in 
circumstances when fishery disasters are requested. It is unlikely that 
anyone would argue that the fishery disaster assistance program set 
forth in the MSA has worked as it was originally intended. Recently on 
the West Coast, Governor Brown requested a fishery disaster declaration 
for our California Dungeness crab and Rock crab fisheries. This request 
was made to the Secretary of Commerce on February 9, 2016 but the 
Secretary of Commerce announced the official disaster declaration on 
January 18, 2017, almost a full year after the request was made. We 
should be able to do better than this for our fishing communities when 
fishery disasters strike.
    Therefore, we suggest adding language to the Act requiring the 
Secretary to make a formal determination within 90-days of receiving an 
estimate of the economic impacts from the entity making the request. 
Additionally, the Secretary should be required to publish the estimated 
cost recovery from a fishery resource disaster no later than 30 days 
after making the formal determination.
Consistency with Other Laws
    We strongly support the inclusion of language that will ensure 
consistent fisheries management under competing Federal statutes, 
including the National Marine Sanctuaries Act of 1972, the Antiquities 
Act of 1906, and the Endangered Species Act of 1973 (ESA)--with 
specific acknowledgement that the MSA is to be the controlling Federal 
statute.
    If restrictions on the management of fish in the U.S. Exclusive 
Economic Zone are required to implemented as a result of an ESA 
recovery plan--to address fisheries management in a marine monument or 
national marine sanctuary--the restrictions should be developed and 
implemented under the authorities, processes, and timelines mandated by 
the MSA. To be clear, our intent is not to undermine or circumvent 
these other laws but instead, to apply a proven, successful and public 
process to manage fisheries. The MSA provides for rigorous scientific 
analysis and clear documentation of management decisions. The Council 
process provides significant opportunities for public comment through a 
number of meetings and public hearings. Following Council decision-
making, regulatory actions by NMFS are guided by the Administrative 
Procedures Act and allow for transparent public participation. The 
Councils, their advisors, the public, and NMFS have a full set of 
economic and environmental data available before decisions are made, 
with trade-offs fully recognized.
    Making modifications to fisheries to address overlapping Federal 
statutes through the MSA process will ensure that required regulations 
are developed through a transparent and public process that encourages 
stakeholder participation. This approach will also increase efficiency 
by streamlining our management systems and administrative/regulatory 
processes. Given current financial constraints, any unnecessary 
duplication of analyses or extra administrative steps in management 
processes must be minimized, and sources of unnecessary cost, delay, 
and uncertainty must be avoided.
Modernizing Recreational Fisheries Management Act of 2017
    I would also like to briefly address a few issues related to S. 
1520, The Modernizing Recreational Fisheries Management Act of 2017 
that was recently referred to the Committee. America's commercial 
fishermen make their living under the most comprehensive conservation 
rules in the world. Under the MSA, all seafood harvested in the United 
States is required to be sustainably managed under strict limits 
designed to prevent overfishing. While many provisions of the MSA are 
successful, much of the domestic commercial fishing industry continues 
to struggle for survival as a result of certain unnecessarily 
burdensome provisions that should be improved in the current 
reauthorization process. In light of this present situation, we cannot 
ignore legislation that would potentially change the MSA in a way that 
could disadvantage the commercial fishing industry.
    First, S. 1520 contains provisions that could potentially allow the 
private recreational angling industry to circumvent the rigorous 
fisheries management requirements of the MSA that are strictly applied 
to commercial fishing activities. The section titled ``Alternative 
Fisheries Management'' would allow the private recreational angling 
industry to be managed using undefined ``alternative fishery management 
measures . . . including extraction rates, fishing mortality targets 
and harvest control rules,'' in the absence of accurate estimates of 
recreational catch and discard mortality. This could subvert the 
conservation accountability standards set forth in the Act by exempting 
certain stakeholders from the important accountability measures 
associated with Federal fisheries management. Any resulting quota 
mismanagement by the recreational sector that is almost certain to 
happen would cut directly against commercial and charter stakeholders.
    Second, a provision contained in the ``Recreational Data 
Collection'' section would allow individual states to receive Federal 
funding and collect recreational harvest data, potentially giving 
individual states an inordinate amount of control over recreational 
harvest estimates beyond state waters absent Federal oversight. 
Furthermore, funding for these activities would come from NOAA's 
Saltonstall-Kennedy Grant Program, a program originally intended by 
Congress to fund commercial fisheries research and product development 
that is already underfunded and over-subscribed.
    Third, Section 106 of S. 1520 would handicap the national Exempted 
Fishing Permit (EFP) approval process with an overly prescriptive set 
of requirements that to us appears designed to undermine the process. 
In 2016 and through this year as well, we struggled mightily with NOAA 
to implement a critical EFP program to help ease regulatory burdens in 
our West Coast groundfish fishery--why would be want to make the 
process even harder and far less nimble? If enacted, this provision 
will be damaging to commercial fisheries around the Nation. EFPs are a 
critical component to cooperative research, gear development, 
conservation engineering, and data collection. The use of EFPs should 
be encouraged, and we are very concerned that the provisions in this 
bill do quite the opposite.
    Last, and perhaps most disturbing and precedential is the clear 
intent of this legislation to create and fund an initiative leading to 
reallocation of quotas from commercial to recreational sectors in the 
Gulf and South Atlantic regions in the section titled ``Process for 
Allocation Review of Mixed-Use Fisheries.'' This provision is 
completely unnecessary as NOAA and the Regional Councils are already 
charged to examine and address allocation issues on an ongoing basis.
    Rather than press for the one-sided and potentially harmful changes 
embodied in S. 1520, we ask this Subcommittee to work with the 
commercial fishing and seafood industries on legislation that will 
improve the MSA and continue to ensure the long-term sustainability of 
our fisheries resources for all stakeholders. We believe that 
recreational and commercial fishing interests want what is best for 
their communities, and that proper MSA reform is a necessary component.
    Thank you, Mr. Chairman, Ranking Member Peters, and Members of the 
Subcommittee for holding this hearing today and for your intention to 
consider important MSA reform during this session of Congress. We look 
forward to working with this Subcommittee and your staff to support the 
passage of fair, balanced legislation that will fulfill the intent of 
the Magnuson-Stevens Act. I am happy to answer any questions that you 
or other Members of the Subcommittee may have.

    Senator Sullivan. Great. Thank you, Ms. Steele.
    And, Mr. Andrew, I think you win the award for coming the 
furthest to testify, so thank you for doing that. And the floor 
is yours.

   STATEMENT OF PETER ANDREW, JR., BOARD MEMBER, BRISTOL BAY 
                       NATIVE CORPORATION

    Mr. Andrew. Quyana, Mr. Chairman and Ranking Member. My 
name is Peter Andrew, Jr. I live in Dillingham, Alaska. As the 
good Senator said, I've been a commercial fisherman all of my 
life. I'm a subsistence user. Bristol Bay is in Southwest 
Alaska. I'm also the president of our local utility. I serve on 
American Seafoods' Advisory Board. And I'm the Board of 
Director of the Bristol Bay Seafood Development Association.
    The Magnuson-Stevens Act, by enhanced opportunities for 
local fishing fleets, by allowing Federal and state governments 
to work together, has been of great benefit to the people of 
Bristol Bay. I've experienced this firsthand. In 1971, my 
brother, when I was 9 years old, took me out fishing because I 
was worth some gear. And in 19--and back then, there was hardly 
any fish to catch. And then after enactment of the Magnuson-
Stevens Act some years later, the stocks in Bristol Bay started 
to rebound. What was happening was offshore interception was 
happening, and after this Act was enacted, it substantially 
changed the lives of many fishers that live in Bristol Bay.
    Our success continues today. This summer, another 
historical run. Overall, this year, our commercial fishermen 
caught, processed, and shipped more than 39 million pounds 
around the world. What's more, despite the significant increase 
in supply and prices paid to fishermen, the prices continue to 
increase. In fact, we had 17 days, many of those days, 17 
continuous days of over a million sockeye caught, and many of 
those days exceeding 2 million. While we can always improve, 
2017 was another bumper year for us.
    As it has for 130 years, our fishery will produce jobs, 
sustain our communities for generations, as long as it's 
properly managed, and when necessary, protected. No wild salmon 
fishery in the world comes close to matching the productivity 
of Bristol Bay. Bristol Bay reliably provides 50 percent of the 
world's sockeye salmon production. Bristol Bay brings billions 
of dollars annually to our local, state, and national economies 
and supports over 20,000 jobs: catching, processing, delivering 
our salmon to market.
    The economic importance of the fishery extends well beyond 
Bristol Bay, in particular, significant to the West Coast of 
the states of Washington, Oregon, and California. Consumers, 
increasingly aware of the healthy attributes of wild salmon 
versus farmed salmon are now seeking our wild salmon product. 
Bristol Bay and its fishermen benefit from the reputation that 
precedes them.
    As important as commercial fishing is to our people, so is 
subsistence. I brought a nice little jar here that I may share 
with one of your members there. It defines our culture----
    Senator Sullivan. Well, I love that. I get a lot of it. 
It's fine. I will make sure that I share it with my Senator 
colleague from Michigan here.
    Mr. Andrew. Thank you.
    Senator Sullivan. It's the great Alaskan wild salmon.
    Mr. Andrew. OK. Also, it defines our culture as well, as 
you are well aware of it, Mr. Chairman. Commercial sport 
fishing and subsistence fishing are two pillars of the fishing-
based economy in Bristol Bay.
    The third is the quantity and quality of our amazing fish 
attract thousands of visitors each year where they stay in 
lodges, hire guides, buy supplies, while participating in a 
bucket list trip. Sport fishing in Bristol Bay watershed 
accounts for approximately $60.5 million in annual spending. 
Roughly 37,000 sport fishing trips were taken on the Bristol 
Bay region. The sport fishing activities directly employ over 
850 full-time and part-time workers. Bristol Bay, it is a true 
mecca of sport fishing men and women. It's phenomenal.
    The tourism--forgive me--the sport fishery in Bristol Bay 
benefits many who live in the region, including BBNC and its 
10,000 shareholders. Recognizing the importance of tourism to 
the region, BBNC has made substantial investments in lodges 
throughout the Bay, thus, enhancing opportunities for local 
employment as well as opportunities to share culture and the 
incredible environment with the people around the world.
    What an experience this year was. We had another huge 
record run. It's just unbelievable. Boats were sinking. People 
couldn't take their net fish and so on.
    Our fishery is robust, healthy, because of strict 
compliance with proven science-based management model, 
protection of pristine watershed conditions, and I would add a 
robust and transparent Federal and state fisheries management 
process.
    This week, we are celebrating this invaluable resource here 
in D.C. with the Alaska Wild Salmon Day, featuring the bounty 
of our region.
    Chairman Sullivan, as you appreciate the uniqueness of 
Bristol Bay, and we are pleased to give you BBNC's Fish First 
Award this year for your work on salmon issues.
    Senator Sullivan. I'm very honored. Thank you.
    Mr. Andrew. BBNC and the people of Bristol Bay put fish 
first and are proud to have a delegation that knows and 
understands the philosophy, too.
    In conclusion, the Bristol Bay--the people of Bristol Bay, 
we now live in--we know we live in one of the most incredible 
places on earth, if well managed, can sustain for thousands of 
years into the future. Ted Stevens knew this and also Warren 
Magnuson. I'm glad that 4 decades later, we still have an 
Alaskan Senator, a Washington Senator, on this Committee 
championing the values inherent to the Magnuson-Stevens Act 
that allows our Bristol Bay salmon to be successful.
    Thank you for the opportunity, Senator.
    [The prepared statement of Mr. Andrew follows:]

         Prepared Statement of Peter Andrew Jr., Board Member, 
                     Bristol Bay Native Corporation
Dear Members of the Committee:

    Thank you very much for inviting me to testify today. My name is 
Pete Andrew Jr. and I live in Dillingham, Alaska. I am on the Bristol 
Bay Native Corporation's (BBNC) Board of Directors, a commercial 
fisherman, and a life-long subsistence user from Bristol Bay in 
southwest Alaska. I have served as a BBNC Director since 2006, as chair 
of the Finance Committee and I am a member of the Legal & Policy, 
Government Services Operations, Executive, and Nominating Committees. I 
am president of the Nushagak Cooperative (electric utility) board of 
directors and serve on the American Seafood Community Advisory Board 
and have served on the Board of Directors of the Bristol Bay Regional 
Seafood Development Association.
    I am a life-long commercial and subsistence fisherman in Bristol 
Bay. I first commercial fished in 1971 when I was ten years old, 
working with my older brother on his 32, Bristol Bay gillnetter named 
the Cuddy Shark. In 1977 my father gave me my own permit, nets and a 
22, skiff to start my own operations. Since then I have owned several 
boats, and currently captain the Lucky Bear, with crew from Togiak and 
New Stuyahok..
    I have experienced first-hand the immense economic and cultural 
value of the Bristol Bay fishery. As you can see in the pictures 
attached to my testimony, fishing is essential to our lives in Bristol 
Bay. It is something I am passing to my children and want to pass to my 
grandchildren (see attch. A). Just as I did, my children's livelihoods 
are based on commercial fishing in Bristol Bay.
    My family is similar to many families in Bristol Bay. We have kept 
our strong ties to the Bay and its incredible wild salmon. We take 
increasing advantage of educational and other opportunities, available 
to us because of the strong foundation provided to Bristol Bay by its 
incredible 130 year old sustainable commercial salmon fishery. This 
fishery will produce jobs and sustain our communities for generations 
so long as it is properly managed and, when necessary, protected.
    This week, we are celebrating this invaluable resource here in 
D.C., with an Alaska Wild Salmon Day featuring the bounty of our 
region. Chairman Sullivan, we know you appreciate the uniqueness of 
Bristol Bay and we're pleased to give you BBNC's ``Fish First'' award 
this year for your work on salmon issues. BBNC and the people of 
Bristol Bay put fish first, and we are proud to have a delegation that 
knows and understands that philosophy too.
    I'm here to talk about the direct effects of the Magnuson-Stevens 
Act (MSA) management approach on salmon fishing. Pursuant to the MSA, 
the North Pacific Fishery Management Council developed a fishery 
management plan for salmon. With respect to Bristol Bay and many of 
Alaska's other salmon fisheries, the Council defers to the State of 
Alaska for direct management of the fishery, thus supporting Alaska's 
escapement-based management approach. This is a good example of 
federal-state cooperation in the management of a critical ocean 
resource. And the example has extraordinary results as seen in the 
strength of Bristol Bay's salmon run and ability to meet management 
goals year after year.
    My testimony focuses on the importance of the Bristol Bay economic 
engine--the pristine salmon fishery--and the need to protect this 
immensely important economic and cultural resource. First, I describe 
the world-class Bristol Bay fishery; second, I speak to the strong 
economy that relies on the fishery; and third, I conclude with the 
importance of protecting, preserving, and properly managing this world-
class fishery.
Bristol Bay Fishery--A Historic Run for the World's Largest Salmon 
        Fishery
    Bristol Bay provides about 50 percent of the world's sockeye salmon 
production. This year saw one of our strongest salmon runs in history, 
with more than 56 million salmon returning to our waters (see attch. 
B). Our salmon runs were so strong this year that, remarkably, on 
seventeen days this season, our commercial fishermen caught and 
processed more than one million fish per day.
    No wild salmon fishery in the world matches the productivity of 
Bristol Bay. Overall, this year our commercial fishermen caught, 
processed, and shipped more than 39 million salmon around the world. 
What's more, despite a significant increase in supply, prices paid to 
fishermen actually increased. While we can always improve, 2017 was a 
true bumper year for us.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    What we experienced this year is not a product of chance, but 
rather of our careful management and stewardship of this sustainable 
resource. Our fishery is robust and healthy because of a strict 
compliance with the proven escapement-based management model and 
protection of the pristine watershed conditions.
    The people of Bristol Bay take great pride in the region's 
fisheries. In February of 2011, after two years of engaging community 
members in 27 communities, the people of Bristol Bay drafted the 
``Bristol Bay Vision Statement'' (excerpt below). This collective 
vision exemplifies the central importance of salmon to all aspects of 
our lives--cultural, economic, recreational and more.
    The success of the commercial fishery is due in no small part to 
the fishermen who sustainably managed the salmon fishery for millennia. 
The current generation is committed to preserving and managing our 
salmon fishery for generations to come.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The people of Bristol Bay have a clear vision for the future. That 
vision is based on the fact that we are a salmon-based community and 
economy, and the vision is founded on a fish-first policy.
Bristol Bay Economics--Commercial Fishing, Sportfishing, and Tourism
    Bristol Bay brings in billions of dollars annually to our local, 
state and national economies, and supports over 20,000 jobs catching, 
processing, and delivering our salmon to market (see attch. C). The 
economic importance of the fishery extends well beyond Bristol Bay and 
Alaska, and is particularly significant to the West Coast States of 
Washington, Oregon, and California. Every summer over 7,000 commercial 
fishermen fish in Bristol Bay and this provides essential income and 
additional jobs to watershed residents. The University of Alaska 
Institute of Social and Economic Research found the Bristol Bay salmon 
fishery has a total economic output, or sales value, of $1.5 billion 
across the United States (see attch. C).
    Consumers, increasingly aware of the healthy attributes of wild 
salmon versus farmed salmon, are seeking our wild salmon products. 
Bristol Bay and its fishermen benefit from the reputation that precedes 
them.
    Commercial and subsistence fishing are two pillars of the fishing-
based economy of Bristol Bay. Sportfishing is the third, and the 
quantity and quality of our amazing fish attract thousands of visitors 
to our region each year, where they stay in lodges, hire guides, and 
buy supplies while they participate in bucket list trips. By one 
estimate, sportfishing in the Bristol Bay watershed accounts for 
approximately $60.5 million in annual spending. Roughly 37,000 sport-
fishing trips were taken to the Bristol Bay region. These sport-fishing 
activities directly employ over 850 full-and part-time workers. Each 
year, these fishermen come to Bristol Bay to catch trophy rainbow 
trout, all five species of Pacific salmon, Arctic grayling, and many 
other species of fish found in our waters. It is a true mecca for 
sportfishing men and women.
    The tourism generated by the sportfishery in Bristol Bay benefits 
many who live in the region, including BBNC and its over 10,000 
shareholders. Recognizing the importance of tourism to the region's 
sustainable economy and ability to provide economic stability in the 
region, BBNC has made substantial investments in tourism. BBNC's 
investment in Mission Lodge several years ago opened the doors for a 
thriving tourism sector at BBNC. And the recent purchase of Katmailand, 
Inc., which includes the Brooks Lodge and Grosvenor Lodge concessions 
in Katmai National Park, and Kulik Lodge on Nonvianuk Lake, will 
provide opportunities for employment for the people in our region as 
well as opportunities to share our culture and incredible environment 
with people around the world.
Conclusion--Protecting, Preserving, and Managing Bristol Bay's World-
        Class Fishery
    Bristol Bay supports a salmon fishery that is the economic and 
cultural foundation of Bristol Bay. The Magnuson-Stevens Act, by 
allowing cooperative management between the Federal and state 
governments, has played a prominent role in the successful management 
of that resource. As a result, this year, like many years in the past, 
tens of millions of fish returned to the Bay and were available for 
harvesting by the region's fishermen.
    The people of Bristol Bay know we live in one of the most 
incredible places on earth that, if well-managed, can sustain us for 
thousands more years into the future. Ted Stevens knew this, as did 
Warren Magnuson. I am glad that four decades later, we still have an 
Alaska senator and a Washington senator on this committee championing 
the values inherent in the Magnuson-Stevens Act that allows our Bristol 
Bay salmon fishery to be so successful. Thank you for the opportunity 
to testify today.
                              Attachments
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Sullivan. Great. Thank you very much, Mr. Andrew.
    Mr. DiDomenico.

STATEMENT OF GREGORY P. DiDOMENICO, EXECUTIVE DIRECTOR, GARDEN 
                   STATE SEAFOOD ASSOCIATION

    Mr. DiDomenico. Mr. Chairman and Ranking Senator, Mr. 
Peters, I want to thank you for taking such a serious interest 
in our issues. They're very important to us, and I'm going to 
try to do my best on behalf of our members from the Garden 
State Seafood Association to tell you the four most important 
topics.
    First is NOAA's interpretation and implementation of the 
2006 Magnuson amendments are threatening the viability of the 
domestic seafood industry. Second, our access to traditional 
and productive fishing grounds are being altered by marine 
monuments, sanctuaries, marine protected areas, and national 
ocean policy. Number three, the struggle of fisheries 
management with estimating recreational fish mortality. Number 
four, the potential for the unfair implementation of catch 
shares.
    The domestic seafood industry has suffered since the 2006 
Magnuson amendments. NOAA's interpretation was designed to be 
precautionary, and its implementation risk-averse. The most 
significant application of this policy is scientific 
uncertainty. In place is a systematic erosion of the founding 
principle of the Magnuson-Stevens Act to such an extent, we 
have lost our ability to achieve optimum yield on a continuing 
basis. Optimum yield is no longer possible. The result, 
diminished opportunities, inefficiencies, and, quite frankly, a 
waste of a natural resource.
    There are solutions. We support eliminating the 10-year 
time-frame for building overfished fisheries and replacing it 
with a strong science-based flexible approach. We support 
substituting the term ``overfished'' with ``depleted.'' In some 
cases, ``depleted'' much better characterizes the situation 
with a particular stock. We support expanding the existing ACL 
exemptions for short-lived species to include species with a 
unique life history. We support an amendment from annual catch 
limits for transboundary stocks.
    Second, and, quite frankly, most timely, a well-
orchestrated effort is underway using the Antiquities Act, the 
National Marine Sanctuaries Act, the National Ocean Policy, to 
reduce fishing access in regions across this country, both 
coasts. We are extremely disappointed by the prior 
administration's establishment of the Northeast Canyon and 
Seamounts National Marine Monument designation and the 
resulting fishing prohibitions. We have every reason to believe 
that a network of marine protected areas will be designated 
from the Gulf of Maine to the Gulf of Mexico.
    We are looking for your help. How can you help? We need 
this Committee to make sure that the dominant regulatory 
authority is the Magnuson-Stevens Act. It should, of course, 
achieve goals, conservation goals, with some of these other 
entities, but, quite frankly, we need to have it as the 
statutory authority over marine sanctuaries, marine monuments, 
and the requirements of the Endangered Species Act.
    Number three, the inability of fisheries management to 
control and estimate recreational fishing mortality. This 
situation continues to plague numerous fisheries around the 
Nation, including red snapper, black sea bass, and summer 
founder. The most serious impact is its effect on stock 
assessments. Recently, it's been estimated that the 
recreational fishing mortality may be and may have been four 
times higher in the Mid-Atlantic than previously expected. The 
result is a perpetual state of uncertainty for all 
stakeholders.
    The resulting controversy has consumed regional councils in 
the Magnuson debate for years, and has resulted in several 
bills over the last few congressional sessions, including the 
current one. We feel strongly Senate Bill 1520, the Modernizing 
Recreational Fisheries Management Act, is an attack on the 
management process and a clear path toward exempting 
recreational fishing from the same accountability measures that 
are required of the commercial fishing industry.
    But with all that said, there are solutions that we can 
support. We recognize the negative impacts on the recreational 
industry. We can support funds being made available to the 
states to transfer the responsibilities of accounting and 
reporting, but we hope and would ask that they do not raid the 
national Saltonstall-Kennedy program set aside for commercial 
fishing.
    We can support alternative management for recreational 
fisheries only if they are consistent with the current MSA 
requirements, and clear Federal management authority and 
oversight is maintained. But we cannot support any changes that 
attempt to solve the lack of recreational accountability by 
reallocating the resource from the commercial industry or 
provide any exemptions to annual catch limits to the 
recreational industry.
    I just would like to take 30 seconds. I know I'm reaching 
the time limit. I would like to say one thing about catch 
shares. We're asking for only one thing for this Committee to 
do and to understand. Currently, there is no referendum 
required to place a catch share in a region on a group of 
fishermen who have dedicated their lives to a particular 
fishery. They do not get a vote or a say whether or not catch 
shares would be implemented into their fishery.
    Now, 10 years ago, Magnuson amendments made it perfectly 
clear that quota decisions would be out of the realm of the 
industry, it would be strictly for the SFCs and the councils to 
decide. If that's true, then why not at least let the industry 
be involved in the management?
    Thank you very much.
    [The prepared statement of Mr. DiDomenico follows:]

    Prepared Statement of Gregory P. DiDomenico Executive Director, 
                    Garden State Seafood Association
    Mr. Chairman, Ranking Member Peters, Members of the Subcommittee, I 
appreciate the opportunity to appear before you today to discuss our 
concerns and recommendations related to maintaining commercial fishing 
access to healthy Atlantic Ocean resources. For the record, my name is 
Greg DiDomenico and I serve as the Executive Director of the Garden 
State Seafood Association (GSSA). Our Association represents commercial 
fishermen, commercial fishing dock operations, shore-based seafood 
processors and associated seafood businesses in New Jersey. GSSA staff 
and its members are involved in all aspects of the fishery management 
process. Our members occupy advisory panel seats on management 
councils, participate in cooperative research and have a healthy 
respect for the ocean environment.
    We believe there are four main threats to the domestic fishing 
industry that are consistent with the concerns of this Subcommittee. 
They are as follows: (1) the status of the implementation of the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA), 
specifically the 2006 Amendments which were interpreted to be overly 
precautionary and limit management flexibility; (2) the growing efforts 
of the environmental industry to curtail commercial fishing access via 
use of the Antiquities Act, National Marine Sanctuary designations, and 
marine planning created pursuant to the National Ocean Policy; (3) the 
chronic inability to estimate and manage recreational fishing 
mortality; and (4) the potential for unfair implementation of catch 
shares.
(1) MSA 2006 Amendments
    The 2006 Amendments and their subsequent implementation 
fundamentally altered the way domestic fishery resources are managed. 
The core concept was to separate fish politics from science. Those new 
provisions focused on ending overfishing immediately, developing 
accountability in both recreational and commercial fisheries, 
rebuilding stocks as quickly as possible and reducing fishing capacity 
through defining limited access programs--all in the context of a more 
intensive reliance on science in the decision-making process.
    Since 2006, the U.S. seafood industry has lost access to robust 
fishery resources from the application of overly-precautious 
interpretations of the Act by attempting to rein in a changing marine 
environment on an annual basis or within a decadal timeframe. The 
result has been that a founding principle of the Act has been eroded to 
the extent where we have lost our collective ability to ``achieve 
optimum yield on a continuing basis'' in our region.
    While the rigid nature of annual adjustments of quotas may have 
reduced or eliminated overfishing of some directed fisheries, an 
outcome that we certainly support, in many cases it has also led to 
significant underfishing of other stocks. This is due primarily to the 
domestic seafood industry being subjected to a seemingly repetitive, 
precautionary application of risk-averse management culminating with 
significant unpredictable quota reductions stemming from wildly 
fluctuating estimates of scientific uncertainty.
    In 2009, and again in 2016, NOAA revised the National Standard One 
Guidelines (NS1G) requiring the Regional Fishery Management Councils 
(RFMCs) to consider both scientific and management uncertainty when 
setting quotas. Many of these recommendations we strongly support, such 
as the application of a mixed stock exception to the Act's annual ACL 
requirement in certain cases, and the authorization for Optimum Yield 
(OY) to be expressed qualitatively in data poor situations. 
Unfortunately, National Standard Guidelines are just ``guidelines'' and 
not law.
    We offer the following recommendations to this Subcommittee for 
consideration in this current reauthorization:
Flexibility In Rebuilding Fish Stocks
    We support flexibility in rebuilding fish stocks and eliminating 
the 10-year time-frame for rebuilding overfished or depleted fisheries 
within a particular time period, replacing it with a biologically-based 
alternative.
    We support rebuilding plans that can take into account 
environmental factors and predator/prey relationships. In addition, a 
rebuilding plan must be required to include a schedule to review 
Fishery Management Plan targets and progress, including the option to 
use alternative harvest control rules and F-rates that are MSA 
compliant.
    We also support clarifying that a rebuilding plan may be terminated 
if it is determined the stock status determination was incorrect and 
the allowance that an emergency rule/interim measure period may be 
increased to 1-yr (from 180 days) with an option to extend for an 
additional 1-yr period.
Modifications To Annual Catch Limit Requirments
    MSA reform could provide Regional Fishery Management Councils 
(RFMC) with increased flexibility in setting annual catch limits (ACL). 
The ACL requirement would be retained in the Act but the RFMCs could 
consider changes in ecosystem and economic needs of the communities 
when setting these limits. In light of changing environmental 
conditions, these additions make scientific and common sense.
    We strongly support expanding limitations to ACL requirements for 
`special fisheries' by expanding the existing 12 month life history 
limitation to include species with unique life history characteristics. 
We believe butterfish, for example, should fit this proposed ACL 
exemption as a species that exhibits a short life history, an extremely 
high natural mortality rate, and highly uncertain, variable survey 
indices to such a degree that we cannot make accurate stock predictions 
for management purposes.
    The Act currently provides an exemption from the ACL control rules 
for stocks managed under international agreements but does not address 
species that are truly trans-boundary in nature where there is only an 
informal agreement (or no agreement) in place. We support expansion of 
these extra-territorial considerations.
    For example, in the case of Atlantic mackerel, scientific evidence 
has indicated the stock distribution is shifting into Canadian waters. 
Unfortunately, the U.S. has no formal trans-boundary sharing agreement 
and Canada takes what they can harvest before a U.S. ACL can be 
specified. In this instance, unilateral U.S. management actions 
pursuant to MSA do not affect rebuilding or end overfishing but 
disadvantage our fishermen and weaken the U.S. negotiating position.
    We support defining ``Ecosystem Component Species'' as a non-
target, incidentally harvested species identified by a regional council 
that is not depleted or likely to become depleted in the absence of 
management measures. This will provide additional flexibility in 
allocating directed fishery resources by the RFMCs when minor 
incidental catches are involved. We also support the clarification that 
ACLs can be established for up to three years, which codifies NOAA's 
related NS1 guideline recommendations.
Distinguishing Between Overfished and Depleted
    We support redefining the term ``overfished'' from the MSA and 
substituting the newly defined term ``depleted''. This change would 
allow a differentiation between stocks that are depleted or approaching 
that condition due to fishing and those meeting that definition as a 
result of other factors. The Secretary must also state for each 
identified fishery whether they are the target of directed fishing. We 
support the separation and clarification of the two terms and the 
requirement to differentiate sources of mortality when projecting stock 
status and setting ACLs.
(2) The threat of the Antiquities Act, National Marine Sanctuary 
        designations, and marine planning created pursuant to the 
        National Ocean Policy
    One of the most serious threats to commercial fishing and consumer 
access to a sustainable supply of seafood is the loss of access to 
traditional fishing grounds. It appears to our industry that a well-
orchestrated effort is being made under the Antiquities Act, National 
Marine Sanctuary Act (NMSA), Endangered Species Act (ESA), and the 
National Ocean Policy (NOP) to reduce fishing access in regions across 
the country.
    What occurred during the most recent flurry of monument 
designations is exactly what we are concerned about.
    This came in the form of a ``top down'' approach facilitated by the 
prior Administration and supported by multinational environmental 
organizations that did not take the input of the affected industry 
seriously. The result was the establishment of the Northeast Canyon and 
Seamounts Marine Monument, the first ever on the east coast. Despite 
the concerns raised by local and Federal officials, the New England 
Fishery Management Council, and the fishing industry the designation 
closes traditional fishing areas and phases out commercial fishing from 
these areas that supports a fishing economy of roughly $75 million 
annually.
    The Antiquities Act provides no basis for learned discourse, no 
scientific, economic, or social analysis; it is whatever the President 
says it is. The use of the Antiquities Act to create Marine National 
Monuments and manage fisheries is a true top-down, dictatorial approach 
which is frequently championed by big-bucks environmental groups in 
which the public, including the fishing community, who is directly 
affected has little to no voice.
    Generally, we believe the preferred solution for many of these 
place-based conservation issues is a collaborative MSA-driven process 
that provides clear, justifiable science-based conservation benefits 
while ensuring future commercial fishing access. Our preferred option 
for protecting sensitive habitat areas is through the established MSA 
process.
    An excellent example of how this process can work is the coral 
habitat amendment managed by the Mid-Atlantic Fishery Management 
Council (MAFMC) in October 2015.
    The MAFMC finalized an amendment to protect coral habitat in 13 
deep water canyons in the region pursuant to their MSA authority. The 
Council used a considerate approach that brought together many 
disciplines and backgrounds which yielded the best possible results for 
all stakeholders and for these sensitive and unique habitats. We are 
hopeful any future protections will be similarly and carefully vetted 
with the fishing industry which has the applied experience and 
technical capabilities to inform conservation. Without an adequate 
process developed through the regional management councils the result 
will be inadequate protections from a lack of knowledge resulting in 
needless burdens on the fishing industry.
    Regarding the National Ocean Policy (NOP), we are concerned about 
its implementation and potential to impact access to natural resources 
and Federal fishery management plans under the MSA. Though widely 
touted by the prior Administration and leading agency officials as 
merely a sharing of data to inform ocean planning that will not lead to 
any new regulations, the details suggest something more insidious. This 
uncertainty has created concerns throughout the regulated community, 
including the GSSA, who have written to Congress in a unified manner to 
bring attention to these issues.
    It is unclear to our industry how the NOP can possibly achieve its 
stated goals of, among other things, coastal and marine spatial 
planning, ecosystem-based management, regional ecosystem protection and 
restoration, and resiliency and adaptation to climate change and ocean 
acidification--absent the creation of new regulations to control human 
behavior.
    We are already starting to see the emergence of a nexus to a 
regulatory regime with such concepts as ``pre-certification'' approval 
requirements for all federally-permitted activities which technically 
include an MSA-driven fishery management plans and amendments. Since 
these NOP regional plans are just now coming online, it is unclear to 
us what the practical impacts will be and what other requirements and 
``concepts'' will be revealed in the coming months. We are concerned 
that once we see the true extent of NOP implementation it will be too 
late to address the core issues.
We offer the following recommendations:

    This Subcommittee could finally clarify that the MSA is the 
controlling statute in regard to Federal fisheries management. By using 
the MSA process to develop regulations instead of the National Marine 
Sanctuary Act, the ESA, NOP or the Antiquities Act, we will ensure that 
at least when it comes to fishing there will be thoughtful and thorough 
analysis and the opportunity for public comment.
    We also request a prohibition of the establishment of a Marine 
National Monument anywhere in the exclusive economic zone before 
certain steps are taken, including getting approval from the governors 
of affected states. More specifically we support a prohibition of the 
establishment of a Marine National Monument in the EEZ of the entire 
United States.
    We request this Subcommittee conduct formal oversight of the 
National Ocean Policy, including a detailed review of its impacts on 
all federally permitted activities (including MSA plans and amendments) 
as well as its funding sources.
(3) The chronic problem of estimating recreational fishing mortality
    Since the 2006 Amendments to MSA our fisheries management system 
has struggled to complete and implement a proper accounting system for 
recreational catch and discards. In 2006 the National Research Council 
began a critical review of the Marine Recreational Information Program 
(MRIP) and its results were finalized in 2017. Clearly, work must 
continue to complete implementation of the MRIP. The significant delays 
in successfully implementing MRIP are in our opinion inexcusable and 
have resulted in serious management inefficiencies and precipitated 
stakeholder infighting.
    The Mid Atlantic Council has also conducted a peer review of the 
new MRIP survey and the results are not yet available. We believe one 
possible outcome could prove that that estimates of recreational 
harvest may be 4 times higher than previously thought.
    The potential impact of the new survey results on stock assessments 
will vary but may be severe. For example, it is possible that it may 
trigger overfishing designations of several stocks or result in 
assessments that reveal higher population size and lead to increases in 
acceptable biological catch levels.
    Unfortunately, some of these outcomes could have a severe impact on 
all stakeholders. We are also concerned this process will be used to 
reallocate fishery resources as a potential solution.
    So far, what is missing from the ongoing discussion is what happens 
if recreational mortality was 4 times higher over the last 10 years? 
Who is responsible for this? What was the impact of that higher 
mortality, especially for stocks currently under a rebuilding plan? 
Lastly, what will be the justification for any new allocations? I do 
not believe there should be any reward for overfishing. The obvious 
inequities could be forced upon the commercial fishing industry and 
ultimately the consumer.
We offer these recommendations:
    We can support Federal funds being made available to the States to 
transfer the responsibilities of accounting and reporting of 
recreational fisheries provided the programs are MSA compliant and the 
funding does not come from the national Saltonstall-Kennedy (S-K) 
Program.
    We can support alternative management for recreational fisheries 
only if they are consistent with the current MSA requirements and clear 
Federal management authority and oversight is maintained.
    We support Congress mandating completion and full implementation of 
the MRIP as soon as possible.
    However, we cannot support any changes that attempt to solve the 
lack of recreational accountability by reallocating the resource from 
the commercial industry or by providing any exemptions to annual catch 
limits.
(4) Catch Share Programs
    While we are not interested in dismantling existing catch share 
programs or removing the option entirely from the management system we 
are strongly in favor of the addition of an inclusive, transparent 
referendum requirement for future catch share programs being added to 
the MSA. Such a provision is contained in H.R. 200.
    The opposition to the NOAA Catch Share Policy runs strong in the 
Mid-Atlantic Region. This opposition is firmly rooted in concerns over 
the top down approach that has seriously and negatively impacted 
fisheries around the country. In addition, is has become very clear to 
Mid-Atlantic fishermen that the process is tainted by environmental 
organizations who do not have the best long term interests of the U.S. 
commercial fishing industry in mind.
We offer these recommendations:
    We request this Subcommittee considering including a referendum 
requirement for all future catch share programs in a manner similar to 
that included in H.R. 200. Specifically, that any future catch share 
program in the Gulf of Mexico/New England/South Atlantic/Mid Atlantic/
Pacific shall have a fully-informed majority vote referendum by 
participating fishermen.
(5) Industry Concerns on the ``Modernizing Recreational Fisheries 
        Management Act of 2017''
    I would also like to address a few issues related to S. 1520 ``The 
Modernizing Recreational Fisheries Management Act of 2017'' that was 
recently referred to the Committee. Simply put, commercial, for-hire 
and private anglers should each be held accountable for their impacts 
on our Nation's fish resources. We must resist changes to the law that 
could be interpreted to remove this accountability. Our commercial 
fishermen operate in a complex world of monitoring, reporting and are 
under strict limits designed to prevent overfishing and quota overages.
    S. 1520 contains a provision that could potentially allow the 
private recreational angling industry to circumvent their share of the 
fisheries management requirements and oversight that are applied to 
commercial fishing activities. This includes the use of undefined 
``alternative fishery management measures.'' If it were made clear that 
these measures were required to be MSA-consistent then our concerns 
would be greatly reduced.
    Another provision in S. 1520 would permit individual states to 
receive Federal funding and collect recreational harvest data, 
potentially giving individual states an inordinate amount of control 
over recreational harvest estimates. This may be helpful but two issues 
must be addressed. First, the funding for these programs would come 
from NOAA's Saltonstall-Kennedy Grant Program, a program originally 
intended by Congress to fund commercial fisheries. Secondly, it is 
unclear if the collection methodology would be peer-reviewed and 
required to meet MSA standards.
    Finally, the always-present issue of reallocation by the 
recreational sector is also included in S. 1520. Clearly, the intent 
here is to create and fund an initiative that could lead to 
reallocation of quotas from commercial to recreational sectors in Gulf 
and South Atlantic regions. Not only are we strongly opposed to this 
provision, it is also completely unnecessary as NOAA finalized its 
national reallocation policy in the spring of 2017 and tasked the RFMCs 
to implement the policy within 3 years, or as soon as possible.
(6) Council Voting Structure in the GARFO Region
    We request this Subcommittee consider the addition of a provision 
from H.R. 200 to specify that reciprocal voting rights be established 
for existing council ``liaison'' positions between the New England and 
Mid-Atlantic RFMCs. While fishermen in the Mid-Atlantic region do not 
wish to dismantle the long standing, MSA-established council 
membership, fishermen in New England have made requests to change that 
membership. Since the provision in H.R. 200 establishes limited 
reciprocal voting rights, but does not disrupt current council 
procedures, there is general agreement about this provision between 
fishermen in the two areas. This solution will facilitate enhanced 
coordination between the two Councils.
    Thank you for this opportunity to testify today and for the 
Subcommittee's interest in our marine issues in the Greater Atlantic 
Region.

    Senator Sullivan. Thank you for that testimony.
    Captain Cochrane, the floor is yours.

STATEMENT OF WILLIAM ``BUBBA'' COCHRANE II, PRESIDENT, GULF OF 
            MEXICO REEF FISH SHAREHOLDERS' ALLIANCE

    Mr. Cochrane. Chairman Sullivan, Ranking Member Peters, and 
members of the Subcommittee, my name is Bubba Cochrane, and I'm 
a commercial fisherman from Galveston, Texas. I'm the President 
of the Gulf of Mexico Reef Fish Shareholders' Alliance and the 
Vice President of Gulf Wild Seafood brand.
    I've fished my entire life. I own and operate my own 
commercial fishing boat using hook-and-line to catch reef fish. 
I spend over 100 days a year fishing and another 15 to 20 days 
attending meetings of the Gulf of Mexico Fishery Management 
Council, and traveling to Washington to speak to you, your 
staff, and other decisionmakers.
    My 14-year-old son, Connor, who is probably watching this 
hearing right now when he should be doing his homework, loves 
to fish and will someday take over my business. I'm here today 
to represent my organization, Gulf commercial fishermen, the 97 
percent of Americans who access fresh fish by purchasing it in 
restaurants, grocery stores, and fish markets that we supply, 
and my son, Connor. We have an obligation to pass on something 
truly sustainable to him and others like him.
    A number of witnesses today complained that Magnuson-
Stevens is not working. My business and ability to provide for 
my family depends on healthy fish stocks. I am here today to 
ask that we work together to support Magnuson-Stevens and 
safeguard the gains made since its last reauthorization. And 
I'm here to tell you that Magnuson-Stevens is a success story, 
your success story.
    Magnuson-Stevens is working. Fishing is profitable. Fish 
stocks are rebuilding. More anglers are able to go catch fish. 
And American seafood consumers have year-round access to 
sustainably harvest fish. Forty-one stocks have been rebuilt 
since 2001, and the number of stocks on the overfishing and 
overfished lists remains near all-time lows.
    Some groups say that quota and catch limits don't work for 
recreational fishermen. This is simply not true. Between 2010 
and 2016, recreational fishermen in the Gulf of Mexico 
successfully caught up to 96 percent of their gag grouper quota 
without exceeding the recreational catch limits. Some groups 
say that IFQs are not suitable for mixed-used fisheries, such 
as Gulf red snapper.
    As someone whose business depends on IFQs, I would like to 
provide some facts. IFQs saved the red snapper fishery in the 
Gulf of Mexico. Before the IFQs were implemented, we fished at 
derby. We were fishing on 2- to 3-pound fish, and many times 
discarded more than we landed. We fished in dangerous weather, 
and some boats never made it back to port.
    Since the red snapper IFQ, things have gotten much better, 
quotas have increased, and price has come up, discards are way 
down, and the red snapper we're catching are much larger than 
what we caught before the IFQ. I can now stay home when it is 
blowing 35 knots because I can spread out my quota throughout 
the year, and I have more control over my business, and I've 
learned that sustainability and profitability go hand-in-hand.
    Thanks to Magnuson-Stevens' science-based conservation 
requirements and the commercial IFQ program, the red snapper 
quota for all fishermen in the Gulf has nearly tripled in the 
last 10 years from 5 million pounds to nearly 14 million 
pounds. Clearly, the commercial IFQ has not harmed recreational 
fishermen. And let me stress that accountability, fishing 
within the rules, not exceeding harvest limits, timely 
reporting of catch, and proper monitoring have been key to the 
success. This is our success, as it is yours.
    Yes, it's true that the Federal recreational red snapper 
season has shrunk in the Gulf, and I understand that private 
anglers want a longer Federal red snapper season. However, as 
the U.S. Department of Commerce admits, bypassing conservation 
measures and science-based management will result in the 
recreational sector substantially exceeding its annual catch 
limit and delay rebuilding the stock by as many as 6 years. We 
support the Gulf States and Federal Government working together 
to develop a sustainable, accountable, science-based solution 
to the Gulf of Mexico private angler fishing challenges.
    Red snapper is a critical species for Gulf commercial 
fishermen. Since recreational fishermen already take home 80 
percent of the most popular fish in the Gulf, including 
overwhelming majorities of amberjack, king mackerel, and 
triggerfish, even if the Federal red snapper fishing season 
cannot be as long as they want, recreational fishermen can fish 
for these other species in Federal waters.
    On a final note, I want to reiterate that red snapper are 
our public resource, and commercial fishermen provide public 
access to millions of consumers who cannot afford to catch it 
themselves. From the businessman in Detroit to the teacher in 
Denver to the nurse in Indianapolis, commercial fishermen give 
them the opportunity they deserve to enjoy some of the best 
seafood the world has to offer.
    Magnuson-Stevens is more--is about more than just Gulf red 
snapper. It's also about Alaskan halibut, New England codfish, 
and Georgia grouper. Magnuson-Stevens is about Florida charter 
fishing businessmen, the California recreational fishermen, and 
the South Dakota family that has just as much right to order a 
red snapper fillet off the menu as I do.
    We all have an obligation to protect the fisheries and the 
fishery recoveries we've experienced under the last 10 years of 
Magnuson-Stevens. We owe it to the next generation, like my 
son, Connor, to pass on a natural resource legacy that ensures 
sustainable public access for future generations of Americans.
    Thank you. And I'll be happy to answer any questions.
    [The prepared statement of Mr. Cochrane follows:]

    Prepared Statement of William ``Bubba'' Cochrane II, Commercial 
 fisherman, Galveston, Texas; and President, Gulf of Mexico Reef Fish 
                         Shareholders' Alliance
    Chairman Sullivan, Ranking Member Peters, and distinguished members 
of the Subcommittee--thank you for the opportunity to address you today 
regarding the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act.
    My name is Bubba Cochrane and I'm a commercial red snapper 
fisherman from Galveston, Texas. I also run a federally permitted 
charterboat and fish recreationally when I have the time. I have the 
honor to serve as the President of the Gulf of Mexico Reef Fish 
Shareholders' Alliance--the largest organization of commercial reef 
fish fishermen in the Gulf, and I'm the Vice President of Gulf Wild--
the only brand of seafood in the country that's fishermen-built, 
conservation-based, and fully-traceable.
    I've fished my entire life. I started out recreational fishing with 
my father and then began working on a local charterboat. From there, I 
worked my way onto a commercial fishing boat in 1990 and eventually 
saved enough money to start my own business. I now own and run my own 
commercial fishing boat--the Chelsea Ann (named after my daughter) 
using hook and line to catch red snapper and other reef fish in the 
western Gulf. I spend over 100 days a year on the water and another 15 
to 20 days attending meetings of the Gulf of Mexico Fishery Management 
Council and traveling to Washington to speak with you, your staff, and 
other decision makers.
    My fourteen year old son Connor (who's probably watching this 
hearing right now when he should be doing his homework) loves to fish 
and will someday take over my business when I retire . . . but not 
until he graduates. I'm here today not just to represent my business, 
my organizations, the Gulf's commercial fishermen, or the 97 percent of 
Americans that get their access to fresh fish by purchasing it in 
restaurants, grocery stores, and fish markets that we supply. I'm here 
for Connor--he is the next generation of commercial fisherman because I 
feel-an obligation to pass on something truly sustainable to him and 
others like him.
    America has set the gold standard for sustainable fisheries because 
of our commitment to science-based management. The Magnuson-Stevens Act 
is the system's bi-partisan backbone and it is something we should all 
be proud of. I am truly honored to call myself an American fisherman 
and to have the opportunity to have a voice in this process.
    Magnuson-Stevens is working. Fishing is profitable, fish stocks are 
rebuilding, more anglers than ever before are able to go catch plenty 
of fish with their kids and grandkids, fishing communities are 
resilient, and American seafood consumers have year-round access to 
wild, sustainably-harvested fish and shellfish. Under Magnuson-Stevens, 
forty one stocks have been rebuilt since 2001 and the number of stocks 
on the overfishing and overfished lists remains near all-time lows. 
Combined, U.S. commercial and recreational saltwater fishing generated 
$208 billion in sales and supported 1.6 million jobs in 2015.
    A number of the people who spoke before me told you that Magnuson-
Stevens is failing, and some even claimed that it has had ``devastating 
impacts.'' But nobody else here today--maybe with the exception of Bob 
Zales--makes their living on the water. My livelihood depends on 
healthy fish stocks. My ability to feed my family and send my kids to 
college hinges on there being fish to catch. I've taken time off the 
water to be here today to impress upon you that we must work together 
to support Magnuson-Stevens and safeguard the gains made since the last 
reauthorization. And I am here to tell you that Magnuson-Stevens is a 
success story--your success story.
    You've heard from some that Magnuson-Stevens needs to be changed to 
allow ``more flexibility.'' But when it comes to science-based fishery 
management, flexibility is a slippery word, especially when it means 
making an end-run around conservation. Make no mistake about it: 
extending rebuilding timelines in the name of flexibility would be a 
step away from science. Remember, the 10 year rebuilding requirement 
people complain about already has built-in flexibility. Take Gulf red 
snapper for example--we're currently 12 years into a twenty seven year 
rebuilding plan. Atlantic halibut have a 50 year rebuilding plan, and 
some rockfish species on the west coast have a 70 year rebuilding plan. 
These plans are stretched to the limit--stretch any more and they might 
just snap.
    You've also heard that quotas don't work for recreational 
fishermen. This is simply not true. Between 2010 and 2016, recreational 
fishermen in the Gulf of Mexico successfully caught up to 96 percent of 
their gag grouper quota without exceeding the recreational annual catch 
limit. The Gulf of Mexico Headboat Collaborative Pilot Program 
successfully took more than 200,000 anglers fishing in 2014 and 2015 
and through a combination of real-time reporting and quota management, 
succeeded in staying within its quotas. And starting in 2016, 
Louisiana's LA Creel program has successfully used weekly landings 
estimates to monitor and enforce a self-imposed red snapper quota for 
state waters recreational fishermen. Quotas are working for the 
recreational sector all across the Gulf.
    It wouldn't be a fisheries-related hearing without the individual 
fishing quota--or IFQ--programs coming up. As someone whose business 
depends on IFQs, I'd like to take a moment to provide some facts. IFQs 
are one type of catch share program. Two of the 16 catch share programs 
in the United States are in the Gulf of Mexico--the red snapper and 
grouper/tilefish IFQs. Together they generate over $50 million in 
direct fishing revenue. Alaska leads the way with six catch share 
programs (the most in any region) that generate over $980 million in 
direct revenue.
    IFQs saved the red snapper fishery in the Gulf. Before the IFQ was 
implemented, we fished a derby--we went as hard as we could for the 
first ten days of every month and dumped a lot of fish on the dock for 
very low prices. The stock was crashing and we all knew it, but we had 
to make a living. We were fishing on 2-3 pound fish and many times 
discarded more than we landed. We fished in weather we shouldn't have, 
and some guys never came home.
    I put every dollar I had into my fishing business when we were 
developing the red snapper IFQ program in the Gulf. I was ``all in.'' 
Failure was not an option for me or my family.
    Since the IFQ, things have gotten better--quotas have increased, 
the price has come up, discards are way down, and the red snapper we're 
catching are twice as large as the ones we caught before the IFQ. I now 
have the opportunity to stay home when it's blowing 35 knots because I 
can spread out my quota throughout the year. I have more control over 
my business.
    I've figured out that sustainability and profitability can--and 
do--go hand in hand. The stock assessments prove this. The 2009 stock 
assessment update, the 2013 assessment, and the 2015 assessment update 
all confirm that overfishing has finally ended and there are more red 
snapper in the Gulf of Mexico today than there have been in decades.
    Thanks to the science-based conservation requirements of Magnuson-
Stevens and a fully accountable commercial IFQ program, the red snapper 
quota for all fishermen in the Gulf has nearly tripled in the last 10 
years. Commercial, charter, and recreational fishermen had a 5 million 
pound quota in 2008 and today we're all fishing under a quota that's 
nearly 14 million pounds. Clearly, the commercial IFQ program has not 
harmed recreational fishermen. And let me stress that accountability, 
fishing within the rules, not exceeding harvest limits, timely 
reporting of catches and proper monitoring, has been key to our 
success. This is your success as well.
    Yes, it's true that the Federal recreational red snapper fishing 
season has shrunk in the Gulf, and I'm sensitive to that. The 
recreational red snapper catch limit increased by 120 percent from 
2008-2014, compared to a 623 percent increase in recreational landings 
per day during that same time period. As a result, the recreational 
season continues to shorten so that recreational fishermen stop 
overharvesting this species. I appreciate the recreational point of 
view of wanting more access, but rolling back conservation measures and 
ignoring science-based management is only going to slow down, stop or 
even reverse the rebuilding process altogether. As it is, the U.S. 
Commerce Department admits that this year's recreational season 
extension will, and I quote, ``necessarily mean that the private 
recreational sector will substantially exceed its annual catch limit'' 
and that, quote, ``this approach may delay the ultimate rebuilding of 
the stock by as many as 6 years.''
    Commercial fishermen and the federally permitted charter boat 
community in the Gulf support improving management for private anglers, 
but it must be done in a sustainable and accountable manner. We can 
achieve this by doubling down on data collection and accountability, 
and by using the existing flexibility in the Magnuson-Stevens Act to 
come up with creative solutions. We continue to support the Gulf States 
and Federal government working together to develop a viable, long-term, 
science-based solution to the red snapper challenges in the Gulf of 
Mexico for private angler fishermen. But let's be clear, as our 
population grows the number of private anglers and seafood consumers 
will continue to increase every year. Fishery managers must be mindful 
of this fact when developing a solution but must also understand that 
taking away quota from the commercial and charter boat sectors won't 
solve the problem.
    Red snapper is a critical species for Gulf commercial fishermen, 
since recreational fishermen already take home 80 percent of the most 
popular fish species in the Gulf, including overwhelming majorities of 
amberjack, red drum, speckled trout, king mackerel, and triggerfish. 
Even if the Federal red snapper fishing season could not be extended,, 
private anglers can fish in Federal waters for these species or for red 
snapper in state waters during longer state seasons, including in my 
home state of Texas where recreational fishermen fish for red snapper 
year round Commercial fishing for red snapper started in the Gulf in 
the 1880s. Red snapper is part of our heritage and our history and, as 
a commercial, federally-permitted charter, and recreational fisherman 
myself, I want to be sure it is available for generations to come.
    On a final note, I want to reiterate that commercial fishermen like 
me provide American seafood consumers with access to domestic 
sustainably-harvested snapper and grouper 365 days a year. Red snapper 
are a public resource, and commercial fishermen provide public access 
to millions of consumers who cannot afford to go catch it themselves. 
From the businessman in Detroit to the teacher in Denver to the nurse 
in Indianapolis--commercial fishermen give them the access they deserve 
and the opportunity to enjoy some of the best seafood the world has to 
offer.
    Magnuson-Stevens is about more than just red snapper in the Gulf of 
Mexico--it's about halibut in Alaska, it's about codfish in New 
England, and it's about grouper in Georgia. Magnuson-Stevens is about 
the charter fishing businessman in Florida who wants more 
accountability and the recreational fisherman in California who values 
conservation. And Magnuson-Stevens is also about the family in South 
Dakota that has just as much right to order a red snapper fillet off 
the menu as I do.
    The Gulf's fight is everyone's fight. It's a fight to put the long-
term supply of fish first, to commit to science-based management, to 
insist on accountability across all sectors, to invest in the future 
generation, and to ultimately defend the pillar of our Nation's 
fisheries--the Magnuson-Stevens Act.
    We--the nation's fishermen, seafood suppliers, seafood-consuming 
public and Congressional leaders--have an obligation to protect the 
gains we've made and the recoveries we've experienced under the last 
forty years of Magnuson-Stevens. We owe it to ourselves, our fishing 
communities, and the next generation like Connor to pass on a natural 
resource legacy that ensures sustainable seafood and sustainable public 
access for all Americans for today and future generations.
    Thank you; and I'm happy to answer any questions you have.

    Senator Sullivan. Thank you, Captain Cochrane.
    And I want to thank all the panelists for their outstanding 
testimony.
    Let me begin with just a very basic question. It's the 
focus of this and the other hearings. From your perspective, 
and I'll just ask each of you to provide a brief answer here, 
what are the one or two things that we can do in the Congress 
in this reauthorization to help improve our fisheries 
management system, from your perspective?
    I'll start with you, Ms. Steele.
    Ms. Steele. Thank you. I think that the one thing that 
Congress can do in this reauthorization is focus any changes in 
the law on the fundamental and original goal of this law, which 
is to achieve optimum yield, finding the balance between 
biological health and economic prosperity. That can be done 
through providing flexibility in both the rebuilding 
requirements and the ACL provisions in the law. In the interest 
of time, I'll just refer you to our written testimony, which 
has several suggestions along those lines.
    Thank you.
    Senator Sullivan. Great.
    Mr. Andrew, any thoughts on that question, basic question, 
reauthorization top priorities?
    Mr. Andrew. I think that the Alaska model is an excellent 
model to maybe take a good hard look at, giving trust to the 
state of Alaska to manage for sustained yield. As far as 
fisheries, the North Pacific Management Council, science-based, 
really looks good. So, as you know, as well as I do, the 
fisheries are very healthy in our state, and we're very 
thankful.
    Senator Sullivan. Yep. Thank you.
    Mr. DiDomenico.
    Mr. DiDomenico. Well, I'll be as brief as possible on a 
difficult topic. What--what----
    Senator Sullivan. Top priorities.
    Mr. DiDomenico. Yes. What we're asking for is this 
Subcommittee to have very, very direct and clear intent to be 
added to the Magnuson-Stevens Act. We--as I said earlier, we 
had suffered over the last 10 years because of the 
interpretation of the last time this law was reauthorized. I 
would suggest that the 10-year timeframe absolutely have some 
added flexibility to it. We're not the only ones saying that. 
National Academy of Science has admitted that it's arbitrary.
    Continued rebuilding flexibility that's science-based in 
other contexts of the law, admitting the difference between 
depleted and overfished, expand the short-lived exemptions for 
certain fisheries, some that are very--of great interest to us, 
and exempt transboundary stocks from ACLs.
    Thank you.
    Senator Sullivan. Captain Cochrane.
    Mr. Cochrane. Well, I'd be more interested to say what not 
to do, and I would hate to see any reauthorization roll back 
the conservation efforts that Magnuson has been successful 
with. And I'll also say that when it comes to data collection 
and the science, I think that, you know, we could possibly 
solve some recreational problems with coupling that better with 
the technology.
    I think one of the witnesses earlier was talking about 
using a smartphone to report your landings. And every 
recreational fisherman I talk to, the biggest problem they have 
with the numbers that are coming in on their landings is, ``Who 
asked me how many fish I caught?'' And I've never talked to a 
recreational fisherman that wasn't willing to be accountable.
    Senator Sullivan. Right.
    Mr. Cochrane. And then earlier questions asking that the 
recreational sector not be held to the same standards as the 
commercial, I think that's an unfair advantage, and I don't 
think it would get them or us anywhere.
    Senator Sullivan. Let me--I'm going to ask Mr. Andrew a 
couple more parochial questions since you traveled all this 
way, and you're one of my constituents.
    2017, as you mentioned, saw near record sockeye salmon run. 
What was the total number?
    Mr. Andrew. Thank you, Mr. Senator, I mean, Congress--geez. 
I'm so nervous, I could--explain five times.
    Senator Sullivan. No, you're doing great.
    Mr. Andrew. Mr. Chairman, I think this year's total numbers 
are probably pushing about 62 million escapement and harvest, 
from one----
    Senator Sullivan. That's remarkable. One salmon run. That's 
the biggest salmon run in the world.
    Mr. Andrew. Yes.
    Senator Sullivan. Let me ask, in terms of--one of the 
things that you've mentioned--you note the economic impact of 
the Bristol Bay fisheries. One of the concerns that I share I 
believe with you and many others in the region are the number 
of permits issued to non-Alaskans. Is there a way to reverse 
the trend of permits leaving Alaska's communities?
    Mr. Andrew. I think today the majority of the permits that 
are issued in Bristol Bay are owned by state residents, but 
watershed residents, there's a little bit of a shift, I guess, 
but through the Magnuson-Stevens Act, it created Bristol Bay 
Economic Development Corporation. There are some programs 
within that, within BBEDC, that help local fishermen to 
purchase permits, help fishermen with leases, and so on, to get 
into--to get these younger fishermen into the fishery. So it's 
a very successful model, and I hope that it will work. As you 
know, we're getting older.
    [Laughter.]
    Senator Sullivan. We are indeed.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Again, thank you to our witnesses, for all of you, for 
excellent testimony as we sort through a very complex issue 
here to do what we can that's best for the fishing industry and 
for a very important resource for our country.
    Mr. Andrew, I just want to start by saying I appreciated 
learning about Bristol Bay because actually I had the privilege 
of being on the Coast Guard icebreaking tug Bristol Bay, which 
operates out of Detroit in the Great Lakes, a part of our 
icebreaking fleet there. And when I go back there, I'm going to 
be able to tell them a whole lot about the name ``Bristol Bay'' 
and why this is such an important operation. But thank you for 
sharing that, very interesting. And thank you for, on short 
notice, coming here, a very, very long way.
    Captain Cochrane, the first question is for you. We 
certainly know that fisheries are facing a very changing 
environment right now, as climate change is changing water 
temperatures, we've got changes in chemistry, some of the 
science related to this is complicated. And for your son to 
take over the business someday when he gets done with his 
homework and graduates from school, that he's working on right 
now, this could require quite a bit of long-range planning to 
figure out how we maintain the sustainability of this fishing 
stock.
    My first question is, you know, you've spent an awful lot 
of time out on the water, you mentioned over 100 days per year. 
What changes have you noticed when you go out there? What do we 
need to know? What sort of changes in the environment as you go 
out fishing?
    Mr. Cochrane. Well, fortunately, red snapper are very, very 
resilient. And, you know, we have our own challenges in the 
Gulf with other things like dead zones and things like that 
that could interact with the fisheries. But as far as climate 
change and water temperature, I couldn't really identify any 
definite--definite changes as of, you know, right now. What the 
future holds, you know, definitely is something different. 
Everything is going to change, you know, no matter how subtle 
and no matter how long. I think that we are in store for some 
type of change.
    I will say that--and this might not have anything to do 
with climate change, but it seems that in Galveston, where we 
have a lot shallower shelf and it takes longer to get out to 
deep water, that it appears that the inshore fishing for the 
red snapper that we mostly target is moving further and further 
offshore without any real significant explanation. I mean, 
there are so many snapper out there, you would think they would 
be right off the beachfront, but for some reason they're not.
    And I've been fishing my whole life, and I've never seen 
red snapper fishing so good, but I've also never seen it so 
much further than it normally would be. And it's probably more 
the depth of the water, not how far, because further down the 
coast, they haven't really been seeing that, but the deeper 
water is closer, you know, down, say, towards Rockport or 
Corpus Christi.
    Senator Peters. Mm-hmm. Right. And I'll continue, Captain 
Cochrane. Several folks have called for more flexibility in 
fisheries management, which we've heard over and over again. 
Just last October, NOAA issued an update to the National 
Standard 1 guidelines to help some more tools in the toolbox, 
given fisheries management flexibility that many have asked 
for. What reactions have you seen to this update and the 
flexibility that it provides?
    Mr. Cochrane. Well, the big question is, What kind of 
flexibility are they talking about? Are they talking about 
eliminating ACLs or--you know, it just depends on what kind of 
flexibility, you know, we're talking about. I think it's 
important to use--like using Magnuson and its conservation 
science-based management to work with flexibility instead of 
the flexibility working around that.
    Senator Peters. OK. Well, and many of you have raised the 
scientific uncertainty or issues related to scientific 
management.
    Ms. Steele, you raised the issue caused by insufficient 
data and scientific uncertainty. From your perspective, how can 
we best fill in these gaps to address the problems that you 
mentioned in your testimony?
    Ms. Steele. Well, I think that the best way to fill in the 
gaps is to support the collection of data within the framework 
of the law. We've experienced--I've seen in my experience many 
situations that are data-poor or lacking in terms of data to 
make management decisions, yet the decisions have to be made. 
And what we've done in the past, instead of trying to exempt 
ourselves from the law or trying to get some sort of exemption 
to deal in other ways with those issues, is worked within the 
confines of the law to try to improve the science and provide 
the best available science to the councils to make decisions.
    I think that the framework in the Magnuson Act provides for 
that, and we just need to do a better job of managing our 
fisheries with the best available data under this framework.
    Senator Peters. Would anyone else like to comment? I know 
all of you have mentioned scientific uncertainty or the need 
for more science. Any ideas from the panel here, please?
    [No response.]
    Senator Peters. Any? No? OK. Very good.
    Thank you.
    Senator Sullivan. I think I'm going to ask a few more 
questions here. I think Senator Cantwell might be on the way, 
and if so, just give me a heads-up on that.
    But, Mr. Andrew, let me go back to another question. This 
is a little more concerning--actually, I wish Senator Cantwell 
was here to hear the question, but, you know, we have concerns. 
We obviously value the Alaska wild salmon, it's the best salmon 
on the planet, and the biggest runs on the planet, the best 
tasting on the planet, relative to GMO seafood or farm-raised 
fish. As you know, earlier this year, there was a fish farm in 
Washington State that had a net failure resulting in a spill of 
Atlantic salmon into the ecosystem.
    Can you provide some insights into what a spill like this 
could do or potentially do to the wild fisheries that are so 
prominent? And, again, I think, you know, in many ways, the 
most revered in the world like we have Alaska, and what your 
concerns are for the community and, you know, the viability of 
the Bristol Bay fishery?
    Mr. Andrew. Thank you, Senator. Quite honestly, I mean, 
I've had 24 hours to prepare for this testimony, so I am just 
running just a little bit behind regarding that. But, yes, in 
western Alaska, every single river that is in Bristol Bay 
produces wild salmon. And so I think that there's a predatory 
threat that would be--that would make us worry a lot. Also, the 
market factor of wild stocks. You know, there's a whole gamut 
of things that I can't really pinpoint at this time.
    Senator Sullivan. Well, we're going to continue, from this 
Committee's perspective, to continue to monitor those kind of 
situations. You know, there are always these assurances, ``Oh, 
don't worry, there won't be a mix,'' in terms of a different 
kind of farm-raised and wild salmon, but, you know, that seems 
to have happened, and I certainly have some concerns about it. 
I know a lot of our fellow Alaskans do as well. So we will 
continue to monitor that.
    Mr. DiDomenico, I want to--just two points that you raised 
that I'd like to just touch on. We had a previous hearing 
actually related to the use of the Antiquities Act over the MSA 
that a lot of us have concern. And I agree with your 
assessment, that the main management tool needs to be the MSA, 
not the other provisions that weren't supposed to manage 
fisheries. You know, most witnesses over the last three 
different hearings that we've had have all said what you have 
said, yes, the Act needs some tweaks and some adjustments, but 
it's working well.
    And I agree fully that we should not be looking as the main 
management tools of America's fisheries acts that, to be 
honest, weren't designed to bring in the science, bring in the 
data, that you are all talking about with regard to the MSA and 
how important that is. So I appreciate you highlighting that in 
your testimony.
    I would also like you to just dig a little bit deeper on 
the issue that's come up a couple times in testimony today on 
the importance of terms like ``depleted'' versus 
``overfished,'' and why you believe, or others on the panel 
think, that that should be altered as we look in the 
reauthorization of the MSA. Why is that a priority of yours?
    Mr. DiDomenico. Well, as so many people have already said, 
you know, the variable nature of these fisheries, I believe, 
are much more, I guess, susceptible to those fluctuations from 
environmental conditions or just natural fluctuations than 
harvest.
    Senator Sullivan. Yes.
    Mr. DiDomenico. And why would you not just label a fishery 
or a stock ``overfished'' when you know that the condition of 
the stock has nothing to do with removals?
    Senator Sullivan. So you're just trying to be more 
accurate. You're essentially saying that ``overfished'' is a 
term that can be used, and sometimes it's accurate, we know 
that that's a fact, but other times it's being used in a way to 
describe situations where it's not accurate.
    Mr. DiDomenico. It could very easily trigger a rebuilding 
plan for issues outside of, you know, U.S. fisheries and U.S. 
waters. There could be--we've got many pelagic fish. We've got 
a whole host of fish that range from outside the jurisdiction 
of U.S. waters. Why would you penalize U.S. fishermen for 
something that's happening somewhere else?
    Senator Sullivan. Great. Let me ask one final question. I 
believe Senator Cantwell is on her way, so we'll leave this 
open.
    Ms. Steele, you've had kind of a unique perspective on the 
MSA from different kind of regional fisheries approaches. Do 
you think the MSA, in its current form, provides enough 
regional flexibility? And that's certainly one of the things 
that we're trying to do on this panel, looking at not only 
Alaska and other places, but on the East Coast, in the Gulf. Do 
you believe it provides enough regional flexibility to apply 
conservation and management measures that can match the needs 
and challenges of each geographically unique area, or does 
something need to be more--to be done on that?
    Ms. Steele. I certainly think that's the intent of the Act, 
and I certainly support that. I do think that we can do more to 
provide the regional councils with the flexibility and the 
tools essentially that they need to be able to manage to the 
needs of the ecosystem and their regional areas.
    I worked in New England. Now I work on the West Coast. I've 
seen it in both situations. And the councils--the regional 
council process is a really wonderful vehicle for addressing 
fisheries and ecosystem issues. I think that what we need to do 
is, as Mr. DiDomenico mentioned earlier, is provide the 
Councils with more flexibility to be able to--and, I'm sorry--
to clarify the intent with respect to the flexibility provided 
to the Councils. I think that can be done with clarifications 
like changing ``possible'' to ``practicable'' and things like 
that to make sure that the Councils have the flexibility to 
make the decisions and tailor the rebuilding plans and 
management measures to meet the needs of not only their 
fisheries, but the communities that depend on them.
    Senator Sullivan. So those are the priority legislative 
fixes that you would have from your association's perspective?
    Ms. Steele. Yes. Flexibility for the rebuilding timeframe 
as well as flexibility in the development of annual catch 
limits, all within the confines of the conservation objectives 
of the plan.
    Senator Sullivan. Thank you.
    Mr. Andrew, is there anything more? You know, we had this 
great run, but we actually saw that there was some processor 
capacity issues in Bristol Bay. Is there anything that we need 
to be looking at that can help us address some of those 
challenges? Which in some ways are good challenges to have, 
right? You have a very big run, a stable high price. But what 
could we be doing in that regard? And are there any things that 
you think we should be looking at in this legislation?
    Mr. Andrew. That was actually going to be my question: What 
a great problem to have.
    Senator Sullivan. That's right.
    Mr. Andrew. But, yes. I mean, a lot of things are not--you 
can't plan for everything.
    Senator Sullivan. Right.
    Mr. Andrew. And certain situations happen at certain 
processors that just make processing difficult. It may be 
employee-based, it may be mechanical, and so on. I know that 
probably several of them had issues in those areas. But 
competition is always good. And, you know, if there was a 
situation that would could allow more competition, it would be 
great for the region and for the fishers. But in Nushagak, 
where I predominantly fished this year, we had foregone 
harvests, which means fish that--the number of fish that 
escaped into the region above and beyond the escapement level 
was in excess of 6 million.
    Senator Sullivan. Wow.
    Mr. Andrew. So that was 6 million fish that could have been 
harvested that was foregone. In other words, it just padded the 
number of spawners.
    Senator Sullivan. Yes.
    Mr. Andrew. So maybe in 5 years there's going to be another 
huge run. Who knows? But I'm not a scientist. I've been a 
catcher all my life.
    Senator Sullivan. Great.
    Well, listen, I want to thank the panel again, the 
witnesses, for the outstanding testimony here. And like I did 
with the last panel, I want to remind all of you the record for 
this hearing will remain open for an additional 2 weeks. During 
this time, we may have other Senators from the Committee who 
could not make it here, or others who have questions, 
additional questions. They may submit questions for the record, 
and upon receipt, we would respectfully ask the witnesses to 
submit their written answers to the Committee as soon as 
possible.
    I want to thank all of you again for appearing today. This 
hearing is now adjourned.
    [Whereupon, at 4:40 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Prepared Statement of Captain Robert F. Zales II, President, 
             National Association of Charterboat Operators
    Chairman Sullivan, Ranking Member Peters, and Members of the 
Subcommittee, I appreciate the opportunity to speak with you today 
about the Magnuson-Stevens Fishery Conservation and Management Act 
(Magnuson-Stevens Act). My name is Robert F. Zales, II and I am 
President of the National Association of Charterboat Operators (NACO). 
NACO is a non-profit 501 (c) (6) Association providing the voice 
representing recreational for hire charter boat owners and operators 
across the United States. Our members own and operate the platforms 
providing the opportunity for anglers to fish recreationally.
    We are acutely aware of the devastating impacts of the last 
reauthorization of the MSA to fishermen, their families, supporting 
businesses, and fishing communities by the increasing loss of JOBS. The 
requirements of the MSA are overly restrictive and require arbitrary 
rebuilding timelines based on no science. Congress mandated a new 
recreational data system be provided by January 2009. Your mandate was 
ignored by the NOAA/NMFS as we still do not have the new data system 
today.
    Some laud the 2007 reauthorization as the reason for many species 
recovering from over fishing and being overfished. The facts are that 
most of the species that have fully recovered or almost recovered, such 
as Gulf and South Atlantic red snapper, Gulf gag grouper, Gulf and 
South Atlantic king and Spanish mackerel, South Atlantic black sea 
bass, East Coast summer flounder, striped bass, West Coast coho salmon 
and ling cod, and others are due to the 1996 reauthorization as they 
were on their way to recovery prior to the 2007 reauthorization. While 
the 2007 reauthorization can be credited with ending over fishing of 
many species due to the required complete closure of fishing for many 
species it is also responsible for the severe negative economic and 
social impacts to anglers and small family businesses and their local 
fishing communities. The severe and unwavering restrictions of the 2007 
reauthorization have created many conflicts between stakeholders and 
the Federal government which have led to many States moving to take 
over management off their respective coasts through proposed 
legislation and other efforts.
    The 2007 arbitrary requirements to end over fishing and rebuild all 
over fished stocks as a one size fits all management style has almost 
eliminated the recreational fishery. Adding new acronyms such as ACLs 
(allowable catch limits) and ACTs (acceptable catch targets) that 
mandate all fishing stops when reached creates unscientific buffers 
that prevent any fishery ABC (allowable biological catch) from ever 
being reached. As an example, in the Gulf of Mexico the SSC (scientific 
and statistical committee) sets the ABC during each stock assessment. 
This is the level of harvest that can be obtained and the stocks 
maintain sustainability. The Gulf Council then sets the OFL (over 
fishing limit) at a percentage of harvest below the ABC to ensure the 
ABC is not exceeded. This management style was created by the 1996 
reauthorization. The 2007 reauthorization mandated more restrictive 
measures and resulted in establishing an ACL which further reduced what 
could be harvested and went further establishing an ACT that further 
restricts harvest. When the percentage of the buffers is added together 
the allowable harvest of red snapper in the Gulf is reduced by an extra 
50 percent, meaning maximum sustainable yield will never be achieved. 
We suggest eliminating the use of the unscientific buffers or at least 
allowing no more than a 5 percent buffer for each acronym.
    The 2007 reauthorized MSA also provided unrestricted power to the 
SSCs by mandating any SSC recommendation of ABC to not be exceeded by a 
council. Prior to 2007 a council could recommend exceeding the 
recommended ABC based on updated information during public discussion. 
Since 2007 any new information from any source that indicates an ABC 
could be increased cannot be done. The councils should be provided the 
ability to increase a recommended ABC should new and updated data be 
provided.
    Currently the MSA requires ``best'' available science be the only 
science and information to be considered for a stock status. We 
recommend the use of any and all science and also anecdotal information 
from fishermen and others to be considered in stock status 
determination. Many times fishermen can provide important information 
on the historical and previous stock status that a computer model can 
never do. In addition we fully support the replacement of the term 
``overfished'' to ``depleted'' as in some cases fishing is not the 
problem in reduced stock abundance.
    Catch shares have no place in any recreational fishery whether in a 
recreational for hire charter or headboat fishery or private 
recreational fishery. Catch shares do nothing to improve fisheries they 
are simply a tool to reduce fleet capacity, eliminate jobs, and 
eliminate access and opportunity. While catch shares may have a place 
in some commercial fisheries, any effort to implement such should be by 
a required referendum that allows all permit holders to have an equal 
vote in the process. Allowing the NMFS to determine who can and cannot 
vote and the use of any type of weighted vote should never be allowed. 
Look to the commercial red snapper and grouper fisheries in the Gulf of 
Mexico as classic examples as to why. Inter sector trading of catch 
shares between recreational and commercial fisheries should be forever 
prohibited. Preventing Federally Permitted recreational for hire 
vessels from fishing their respective state waters when the EEZ is 
closed should be eliminated. Rule 30B in the Gulf of Mexico is an 
example and should be rescinded.
    Each Region should have the flexibility to manage the species under 
their responsibility for the best benefit of their stakeholders. 
Management is not and should never be a one size fits all style as 
every species, every area, and every user is unique. A reauthorized MSA 
should ensure managers have the ability do what is best for their 
region. They should be able to use management systems that are not 
quota based, especially for recreational fisheries and for stocks that 
have a large percentage of recreational harvest. It is a fact that 
recreational fisheries cannot be managed in the same way as commercial 
fisheries. Stock assessments and scientific models must be adapted to 
better assess recreational harvest and social behavior. Governmental 
management requirements alter recreational fishing behavior which 
alters catch.
    Using different management systems and moving away from quota based 
management will allow the councils to manage recreational fisheries 
with fixed seasons over a specific number of years. An example is, 
setting a summer flounder recreational season for a specified length of 
time for each of 3 years will provide for stability in the region. The 
harvest can be measured by new and improved data systems such as a web 
based reporting system or catch card system that can be adapted to the 
web. By establishing multiyear seasons everyone can plan, the angler, 
the supporting small family businesses, the communities, and 
management. Providing anglers with the flexibility to fish when they 
want during a fixed season vs. mandating they fish within a short 
number of days will provide no more harvest than fishing for a short 
period. Allowing anglers to fish when they want allows them to select 
the days they want to go and to select the days they spend with family 
and friends doing other activities and should the weather be bad on 
some days they can fish others.
    As I stated above our vessels are the platforms providing anglers 
the opportunity to recreationally fish. As such we, as owners and 
operators, should not have a separate quota and should not be forced to 
operate under any type of catch share program. People hire us for our 
expertise and knowledge of knowing where fish live and how to catch 
them. Our customers are the anglers who catch and keep the fish and 
should be considered recreational while fishing under fixed seasons and 
bag and size limits. We fully support establishing seasons, bag and 
size limits, and allowing the regional councils to use various 
management systems to do so. The current system of quota based 
management for all recreational species under the overly restrictive 
management measures utilizing unscientific based buffers called ACLs 
and ACTs to keep harvest from reaching the OFL prevent management from 
achieving maximum sustainable yield, an important objective of 
Secretary of Commerce Ross. In our fisheries the buffers and the 
requirements to end fishing when reached restrict our ability to meet 
MSY. This type of management is responsible for the continued shortened 
fishing seasons and creating the angler mad rush to fish under such a 
short season and anger toward management.
    Allowing the regional councils to utilized different types of 
management measures such as mortality based systems where properly 
designed cooperative independent research programs to determine stock 
status will allow for multi year fixed seasons to be adjusted a minimum 
of every 3 years. Such a multiyear system of management will provide 
for stability in fishing by allowing for a fixed period of access which 
provides opportunities. Requiring a bench mark stock assessment on 
important species every 3 years will allow managers to adjust the 
future 3 year system up, down, or status quo depending on the previous 
removals and the ability of the stock to continue sustainability.
    All know that recreational data continues to be a critical issue 
that causes uncertainty in the data resulting in overly conservative 
and restrictive management measures and affects the assumed status of 
stocks, especially in fisheries that have high recreational use. I have 
been involved for over 30 years in working to help design and improve 
recreational data. While some efforts have helped and the data systems 
are a little better, much work remains. I have proposed a simple web 
based system that utilizes a dedicated website, required reporting, the 
ability to use any smart device, computer, fax, or phone, and the 
ability to ensure everyone reports. Such a system coupled with improved 
and expanded dockside surveys will allow all recreational for hire 
charter and headboats as well as private recreational anglers to report 
their activity and catch every day. This will improve the effort to 
collect real time data thus improving the ability to track harvest 
sooner and keep seasons open.
    In previous testimony by Chris Oliver, NMFS AA, he accurately 
provided the economic impacts of both commercial and recreational 
fishing to the country. Both are significant and prove that access to 
enjoy and use our fishery resources is extremely important and 
management must be allowed the flexibility to ensure access to our 
fisheries so opportunities abound.
    Currently there are several proposed bills to improve the MSA. 
Those we fully support and suggest merging the best parts of both are 
H.R. 200 introduced by Representative Young, H.R. 2023 introduced by 
Representative Graves and others, and S. 1520 introduced by Senator 
Wicker. These bills contain similar provisions and we suggest by 
incorporating the best of them will go far toward dramatically 
improving the MSA and allowing our fishing industries to grow and 
prosper while continuing to conserve and improve the sustainability of 
our stocks.
    Mr. Chairman, this concludes my testimony. Again, I truly 
appreciate the invitation and opportunity to provide you and the 
subcommittee with this information. I will be pleased to respond to any 
questions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Chris Horton
    Question 1. Angler-Supported Taxes and Aquatic Conservation: Your 
written testimony describes efforts to establish and expand angler-
supported taxes on various types of fishing and boating gear. The 
amount of money you described coming from these taxes and being put 
toward fisheries and aquatic conservation is significant.
    What are the impacts of conservation measures supported from the 
$8.6 billion generated through the taxes you described in your written 
testimony?
    Can you share some of the conservation successes that have been 
supported through these taxes?
    Answer. It is significant in that these taxes and angler license 
fees, collectively known as the American System of Conservation 
Funding, have largely funded efforts to restore critical fisheries 
habitat, reintroduce extirpated fish species or supplement recruitment-
limited fish populations through state fish hatchery systems, conduct 
research on fish population dynamics, develop state fisheries 
management plans, conduct routine monitoring and harvest adjustments 
necessary to maintain and enhance fish populations, and to construct 
and maintain access areas for America's anglers and boaters.
    While there are thousands of examples of conservation success 
stories across the Nation funded by the Sport Fish Restoration and 
Boating Safety Trust Fund (SFR) program, a likely familiar example for 
Senator Peters can be found in the fisheries of Lake Michigan. Like so 
many of our natural resources in the late 1800s and early 1900s, 
popular fish species in Lake Michigan were subjected to commercial 
overexploitation to the point of collapse. Some species, like lake 
sturgeon, were thought to have been extirpated from Lake Michigan 
entirely. Likewise, by the mid 1950s, lake trout had been virtually 
eliminated as well. In a 1990 Michigan Department of Natural Resources 
(MI DNR) report entitled Review of salmon and trout management in Lake 
Michigan, the authors state, ``We believe that the disappearance of the 
lake trout in Lake Michigan was a direct result of overfishing and sea 
lamprey predation.'' While the Great Lakes Fisheries Commission became 
a key partner in reducing sea lamprey predation, MI DNR managers made a 
paradigm shift and started managing the Lake's fisheries resources for 
recreational fishing first, and commercial fishing second. This 
resulted in the restoration of fish populations, like lake trout and 
lake sturgeon, through supplement stockings from state fish hatcheries, 
habitat restoration and protection, and more intensive population 
monitoring and harvest rate management--all of which were predominately 
funded by angler license fees and excise taxes on their equipment.

    Question 2. Sport Fish Restoration and Boating Safety Trust Fund: 
Mr. Horton, your testimony cited the Sport Fish Restoration and Boating 
Safety Trust Fund in regards to the recreational and boating 
manufacturer industries' contributions to fisheries conservation. The 
Trust Fund provides grant monies to the States to support various 
important efforts, including fish conservation, within their own 
waters. It does not, however, have very much impact on fisheries 
conservation conducted under the Magnuson-Stevens Act.
    Given that, what is the Congressional Sportsmen Foundation and 
other groups in your coalition advocating for to improve fisheries 
conservation under the Magnuson-Stevens Act?
    Answer. This is an excellent question that highlights the 
unfortunate misunderstanding by many Members of Congress and some 
environmental organizations as to the fundamental importance of 
recreational angling to fisheries conservation. Through the Sport Fish 
Restoration and Boating Safety Trust Fund (SFR) and angler license 
fees, we provide the base funding, or a significant portion thereof, 
for all fisheries management--including federally managed species. 
Since I am most familiar with fisheries management in the Gulf of 
Mexico, I will address the statement and question from this 
perspective, though the same holds true for states all along our 
Nation's coasts.
    There are many examples of how SFR funds benefit federally managed 
species. One of which is improving upon the first leg of the fishery 
management stool--habitat. Good habitat is essential to healthy 
fisheries, and while NOAA Fisheries focuses relatively little attention 
on improving habitat, the states spend a considerable amount of angler 
funded effort and resources improving and protecting habitats that 
benefit a variety of species, including those under the jurisdiction of 
regional fishery management councils. For example, low profile 
artificial reefs constructed by the states using SFR dollars, both in 
state and Federal waters all along the Gulf Coast, benefit reef fish 
species directly. SFR funding also supports habitat restoration and 
enhancements in vital nearshore and inshore nursery rearing areas 
through projects like oyster reef establishments and coastal marsh 
restoration. These projects provide critical juvenile habitat for not 
only species directly managed under Federal management plans, like some 
grouper and snapper species, but also support healthy forage bases 
(menhaden, mullet, shrimp, crabs, etc.) that are important to all 
federally managed species.
    Another leg of the fishery management stool is the people who 
participate in the fishery. Again, the taxes generated through the SFR 
program and angler license fees supported all five Gulf states 
developing more accurate angler harvest data collection programs to 
supplement MRIP's inability to adequately estimate recreational harvest 
in relatively short Federal seasons, like red snapper. In addition to 
funding better angler surveys, enforcement of fishing regulations of 
federally managed species in state waters is primarily paid for by the 
SFR program and angler license fees.
    In addition, the SFR and angler license programs provide Federal 
managers with the critical data needed to understand the third leg of 
the management stool--the fish. For example, the Florida Fish and 
Wildlife Conservation Commission's (FWC) Fish and Wildlife Research 
Institute (FWRI) Marine Fisheries Research program conducts a number of 
studies (e.g., tagging projects to look at stocks distribution, 
abundance, and connectivity) as well as broad scale data collection and 
stock assessment programs with SFR funding. Examples of federally-
managed species benefiting from the data collection and stock 
assessment funded with Florida's SFR dollars include gag grouper, red 
grouper, red snapper and hogfish, among others. Likewise, Texas uses 
SFR funds for fisheries independent sampling such as Gulf trawls, 
longline and vertical line sampling, along with other fishery-
independent surveys in the bays and estuaries, all of which provide key 
biological information for stock assessments and ecosystem approaches 
to fisheries management in the Gulf.
    In summary, to truly understand the importance of the SFR program 
and angler license fees to managing all three legs of the fisheries 
management stool in the above examples, in 2017 the state of Texas 
alone used $3.9 million of SFR funding, combined with another $7.8 
million in angler license dollars, to address the management needs of 
Gulf of Mexico fisheries, including federally managed species. While 
funding levels will vary by state and their number of license buying 
anglers, recreational anglers provide significant funding for marine 
fisheries conservation, both in state and Federal waters.

    Question 3. Forage Fish Management: My understanding is that the 
Morris Deal report, which articulating a number of the recreational 
industry's policy priorities related to the Magnuson-Stevens Act, 
included a conservation pillar related to the management of forage 
fish. Management of these important fish was not addressed in the 
Modern Fish Act. Do you still believe enhanced forage fish conservation 
remains an important issue for Federal managers to address?
    Answer. Yes. We support the Regional Councils review and 
identification of forage fish stocks that should be covered in fishery 
management plans based in part on the value of the forage fish stock 
for predator stock health, reproduction and growth. In fact, the 
Subcommittee has recently been provided with language to that effect 
that would be supported by CSF, other recreational angling 
representatives and the sportfishing industry.

    Question 4. Federal versus State Management of Fisheries: You 
describe philosophical differences between Federal and state-level 
management of fisheries, in your written testimony. Can you clarify how 
a fishery that provides its maximum sustained yield year after year 
would not be a healthy population and a robust fishery?
    Answer. Another excellent question, since there is a common, 
misinformed belief that managing for Maximum Sustainable Yield (MSY) is 
the epitome of fisheries management. However, for most species, 
managing for MSY is actually the antithesis to a healthy, robust 
fishery. The concept of MSY stems from the commercial sector's goal to 
efficiently remove fish from a population. Basically, the premise of 
MSY management is to cut the population down to the size where there 
are just enough breeders to maintain the population indefinitely and is 
thus considered ``sustainable''. In fact, if a new species were 
discovered, managers would first try to cut the population by roughly 
half to get to MSY. This produces the highest yield per recruit that 
can maintain the population. It also reduces or eliminates any density 
dependent factors that decrease spawning potential, essentially trying 
to maximize recruitment. It does not optimize size or age structure, 
which is typically important in defining healthy, balanced populations. 
The forestry equivalent would be converting old growth timber, with 
high wildlife values, to a much higher yield pine plantation with much 
lower wildlife values.
    The below pyramids highlight how managing to MSY can truncate the 
population potential.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Rather than managing for maximum harvest under the MSY model, 
recreational anglers would prefer to be managed for maximum encounter 
rate, which is more in line with the premise of Optimal Yield (OY), 
with the ``yield'' being abundant fish of all sizes in the population 
to provide encounters and an enjoyable fishing experience--not 
necessarily harvest. Unfortunately, the Gulf Council has often used OY 
and MSY interchangeably. A good example is with king mackerel in the 
Gulf. Although the commercial sector harvests their quota every year, 
the recreational sector leaves much of our quota in the water. While 
there have been discussions to reallocate more king mackerel to the 
commercial sector in the name of maximizing the economic benefits to 
the nation, or OY, recreational anglers argue that we are achieving OY 
because of the opportunity created by leaving fish in the water. When 
most of the easily accessible reef fish seasons are closed, king 
mackerel are readily available for anyone who just wants to enjoy a day 
on the water with family and friends catching fish. Those trips for 
king mackerel, regardless if any harvest occurs, result in a 
significant economic value to the Nation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                       Anthony ``Tony'' Friedrich
    Question 1. Changing Environment: Your written testimony 
highlighted the importance of conservation and ``putting fish first''. 
With the recent hurricanes, we are hearing about record warm ocean 
water and impacts on weather, but we are not hearing about how warm 
ocean water and changing ocean chemistry are impacting fisheries. How 
do changing conditions in the environment, like increases in water 
temperatures, affect fish stocks?
    Answer. There are multiple effects of climate change on fish, 
including impacts to prey availability, increasing low oxygen zones, 
and a host of others. The warming of ocean waters is already having a 
profound effect on the distribution of marine organisms, especially 
fish. Marine species respond to changing temperatures by changing their 
geographic distribution and depth range. In response to warming, 
normally temperate species are moving to higher latitudes, either due 
to active migration or due to changes in productivity of local 
populations.\1\ Studies have documented the worldwide shift of fish 
toward the poles and to deeper water as they seek cooler water.\2\ In 
addition to shifting stocks in response to temperature changes, one of 
the important ways in which fish population productivity is affected by 
climate change is through impacts on recruitment success.
---------------------------------------------------------------------------
    \1\ Anne B. Hollowed et al., Projected Impacts of Climate Change on 
Marine Fish and Fisheries, 70 ICES J. Marine Sci. 1023, 1027 tbl. 1 
(2013) (citing Pierre Petitgas et al., Anchovy Population Expansion in 
the North Sea, 444 Marine Ecology Progress Series 1 (2012)).
    \2\ See, e.g., Richard D. Norris et al., Marine Ecosystem Reponses 
to Cenozoic Global Change, 2 Sci. 492 (2013); Malin L. Pinsky et al., 
Marine Taxa Track Local Climate Velocities, 13 Sci. 1239 (2013).
---------------------------------------------------------------------------
    The effects of warming oceans can both provide new opportunities 
and burden traditional fisheries.
    Black sea bass produce larger year classes if young-of-the-year 
fish encounter warm, saline waters at the edge of the continental 
shelf, where they spend their first winter.\3\ Recent warming off the 
northeast coast produced a very large 2011 year class, and reportedly a 
dominant 2015 year class as well.\4\ As a result, recreational anglers 
in northeastern states are encountering, and harvesting, more black sea 
bass than they did in the past.
---------------------------------------------------------------------------
    \3\ Northeast Fisheries Science Center, 2017, 62nd Northeast 
Regional Stock Assessment Workshop (62nd SAW) Assessment Report, (US 
Dept Commer, Northeast Fish Sci Cent Ref Doc 17-03, 822 p. Available 
from: National Marine Fisheries Service, 166 Water Street, Woods Hole, 
MA 02543-1026, or online at http://www.nefsc.noaa.gov/publications/, 
p.5
    \4\ Mid-Atlantic Fishery Management Council, Summer Flounder, Scup 
and Black Sea Bass Monitoring Committee Webinar Meeting Summary--Black 
Sea Bass, July 24, 2017, available at https://static1.squarespace.com/
static/511cdc7fe4b00307a2628ac6/t/597b66d87131a590b17806
b3/1501259484291/Tab08_BSB-Specifications-Review.pdf
---------------------------------------------------------------------------
    In Massachusetts, the northernmost state with an established black 
sea bass fishery, anglers landed about 59,000 black sea bass in 2001. 
That number increased to 105,000 fish in 2006, 195,000 fish in 2011 and 
392,000 fish in 2016.\5\ While some of that increase is attributable to 
Federal fisheries managers' successful rebuilding of the black sea bass 
stock pursuant to Magnuson-Stevens, much of it, particularly over the 
past decade, is undoubtedly due to the effects of warming water, both 
over the continental shelf and in the inshore waters of southern New 
England.
---------------------------------------------------------------------------
    \5\ Personal communication from the National Marine Fisheries 
Service, Fisheries Statistics Division, October 6, 2017.
---------------------------------------------------------------------------
    Cod, on the other hand, are suffering from New England's warming 
seas, which may be making it more difficult to rebuild the badly 
overfished cod stocks. There is research suggesting that warming waters 
has decreased the number of certain copepods, a type of zooplankton on 
which larval cod feed, in the Gulf of Maine, and that the loss of such 
copepods has negatively impacted the number of cod recruited into the 
population.\6\ Other research conducted in the Gulf of Maine has found 
that there is a strong correlation between rising water temperatures 
and declining cod recruitment,\7\ with the disruption of the food web 
again the probable cause. The impacts of warming waters have 
complicated the fishery management process, reducing the effects of 
regulatory measures intended to rebuild cod stocks and rendering the 
species far less available to anglers.
---------------------------------------------------------------------------
    \6\ Friedland, Kevin D., et al, ``Thermal habitat constraints on 
zooplankton species associated with Atlantic cod (Gadus morhua) on the 
U.S. Northeast Continental Shelf,'' Progress in Oceanography, Vol. 116, 
Sept. 2013, pp. 1-13.
    \7\ Pershing, Andrew J., et al, ``Slow adaptation in the face of 
rapid warming leads to collapse of Gulf of Maine cod fishery,'' 
Science, Vol. 350, Issue 6262, November 2015, pp. 809-812

    Question 2. Changing Environment: What can we do to better manage 
and continue to make sure we ``put the fish first'' under these 
changing conditions?
    Answer. In the Mid-Atlantic and New England, I support efforts to 
ensure that councils are coordinating when stock cross council 
jurisdictions. Stocks are already shifting and we need to adapt.
    In addition, NMFS has taken steps to further the use of ecosystem-
based fishery management (EBFM) approaches. For example, the agency has 
an EBFM Policy and Road Map. Ecosystem-based management is achievable 
under existing law, and for more than a decade numerous experts have 
been recommending a shift to an ecosystem approach.\8\ Congress has 
acknowledged the importance of an ecosystem-based fishery management 
approach, requiring the Secretary of Commerce in the last two Magnuson-
Stevens Act reauthorizations to develop recommendations and identify 
needs for a successful transition.\9\
---------------------------------------------------------------------------
    \8\ See, e.g., Joint Ocean Comm'n Initiative, From Sea to Shining 
Sea: Priorities for Ocean Policy Reform 6 (2006), Pew Oceans Comm'n, 
America's Living Oceans: Charting a Course for Sea Change, at x (2003); 
U.S. Comm'n on Ocean Policy, An Ocean Blueprint for the 21st Century 63 
(2004).
    \9\ 16 U.S.C. Sec. 1882 (2012); Magnuson-Stevens Fishery 
Conservation and Management Reauthorization Act of 2006, Pub. L. No. 
109-479, Sec. 210, 101 Stat. 3575, 3617 (2007); Sustainable Fisheries 
Act, Pub. L. No. 104-297, Sec. 207, 110 Stat. 3559, 3612 (1996) (prior 
to 2007 amendment).
---------------------------------------------------------------------------
    Some Councils are taking concrete steps to adapt management for 
current and future impacts of climate change. For example, the North 
Pacific and Pacific Regional Fishery Management Councils have used 
Fishery Ecosystem Plans (FEPs) to catalog and assess ecosystem 
considerations, including increasing climate change impacts, alongside 
traditional FMPs.
    Another way to ``put fish first'' is to use new and innovative 
tools to protect forage species, to learn more about age and size 
distribution of managed stocks, and to evaluate management strategies 
to ensure managers are protecting key stocks while fulfilling 
management objectives. We also need to protect fish habitat from 
destructive fishing practices and other damaging human activities to 
ensure that fish have safe places to breed, feed, grow, and take 
shelter. And we need to conserve forage fish, the primary food source 
for many larger fish species that support U.S. fisheries.
    Councils are already doing some very innovative things that suit 
their particular needs, and I'm encouraged to see this innovation 
continue.

    Question 3. Access to Fisheries: The issue of public access to 
fisheries was raised during the hearing due to short fishing seasons, 
closures of fisheries, and variability in fishing seasons between 
years. Many of these measures curtailing access occur because fisherman 
are exceeding annual catch limits.
    What can be done to better maintain consistent access to 
recreational fisheries and support confidence in the recreational 
fishing industry?
    What examples do you know of where public access and conservation 
were balanced effectively and what policies made those situations a 
success?
    Answer. There is probably nothing as difficult as managing a 
recovering fishery. Even when the population is still well below 
managers' target, fish abundance is greater than anglers' have 
previously experienced, and such abundance draws more anglers into the 
fishery, resulting in higher recreational landings and, 
counterintuitively, to more restrictive regulations at a time that fish 
appear to be becoming more abundant. That seeming contradiction leads 
to angler discontent, which is then exacerbated when various ``anglers' 
rights'' organizations and industry trade groups make irresponsible 
statements about the Federal fishery management system being 
``broken.''
    The solution to such problem is evasive. As stated, the primary 
cause is angler overharvest, the result of too many anglers, or at 
least too many angler trips, directed at too few fish to sustainably 
support the fishing pressure. However, in each fishery, the exact 
causes differ, and one solution will not fit all.
    Of all the recreational fisheries in the United States, none 
exemplify this problem more than Gulf of Mexico red snapper, and none 
better illustrate the problems that fishery managers confront. On one 
hand, the red snapper population is rebuilding well, although because 
the snapper is a long-lived, late-maturing species, the population 
wasn't expected to fully recover until the early 2030s. On the other 
hand, the increasing abundance, after a period when the spawning stock 
had declined to extremely low levels, has resulted in a sharp increase 
in angler success; recreational fishermen are now catching more and 
larger red snapper than they have ever before in their lifetimes. Such 
success results in the entire recreational quota, which constitutes 49 
percent of the overall annual catch limit, being caught in a very short 
time. The situation is made worse by states which establish far more 
liberal state-waters regulations than those in force in Federal waters. 
For example, while Federal regulators originally established a 3-day 
season, 16-inch minimum size and 2-fish bag limit, Texas anglers, 
fishing in state waters, enjoy a 365-day season, 15-inch minimum size 
and 4-fish bag. Although other states' rules are more restrictive, they 
remain liberal enough that managers predicted that 80 percent of all 
red snapper caught in 2017 would be landed in state waters.
    Thus, while the recreational community criticizes Federal fisheries 
managers for the ever-shortening length of the Federal red snapper 
season, the problem is actually caused by the states. Because red 
snapper are managed as a single stock throughout the Gulf, and fishing 
mortality represents an aggregate of all red snapper harvested, whether 
in state or Federal waters, when the states adopt longer seasons and 
other more liberal regulations, they compel the National Marine 
Fisheries Service to compensate by adopting a short Federal season, in 
an effort to keep landings within the recreational catch limit. That 
effort often fails as a result of too many fish being landed in state 
waters, which then leads to even more restrictive regulations in the 
following season.
    In such situation, the only way to provide anglers a greater 
opportunity to fish for red snapper in Federal waters is to convince 
the states, either through argument or the coercive provisions of 
Magnuson-Stevens,\10\ to conform their regulations to the Federal 
standard. Without such state cooperation, Federal managers have no 
viable means to provide a longer Federal season while preventing 
overfishing and continuing to rebuild the stock.
---------------------------------------------------------------------------
    \10\ Magnuson-Stevens provides that if a fishery is predominantly 
prosecuted in Federal or international waters, and a state takes 
actions that ``substantially and adversely'' frustrate the National 
Marine Fisheries Service's ability to carry out its fishery management 
plan, NMFS may preempt state management authority within state waters. 
16 U.S.C. 1856(b). Such provision would clearly be applicable to the 
recreational red snapper fishery in the Gulf of Mexico, although 
invoking it is probably politically impracticable.
---------------------------------------------------------------------------
    When stocks have already been rebuilt, the problem is easier due to 
a greater abundance of fish. We have seen that first-hand in the Mid-
Atlantic, where six consecutive years of below-average recruitment 
caused summer flounder abundance to decline, but remain abundant enough 
that a modest increase in the size limit and modest decrease in the bag 
limit allowed the season to remain open throughout most of the 
traditional harvest period. Although such measures were heavily 
criticized by some organizations who were unwilling to accept any 
additional strictures at all, and partially frustrated when the 
Secretary of Commerce overturned the Atlantic States Marine Fisheries 
Commission's efforts to impose needed measures on New Jersey's 
recreational fishery,\11\ they allowed anglers to prosecute the 
recreational summer flounder fishery throughout the summer season while 
generally assuring the future health of the stock.
---------------------------------------------------------------------------
    \11\ See Atlantic States Marine Fisheries Commission, ``Department 
of Commerce's Decision May Impact ASMFC's Ability to Conserve Atlantic 
Coast Fisheries,'' July 14, 2017, available at http://www.asmfc.org/
uploads/file/5968fe9dpr29SummerFlounderNJCompliance.pdf.
---------------------------------------------------------------------------
    Managing the recreational summer flounder fishery was also made 
easier because anglers had an alternative species readily available to 
them, which in many areas could be caught in conjunction with summer 
flounder. That was the black sea bass which, due to both good 
management and favorable spawning conditions, is at a high level of 
abundance, and could support a shift of effort from the summer flounder 
fishery. As a result, 2016 black sea bass regulations could be carried 
over into 2017 despite higher recreational landings.
    Thus, the lessons offered by the summer flounder and black sea bass 
fisheries is that abundance matters, and that it is not enough to have 
a single species at high levels of abundance; by diligently restoring a 
number of species to a level near or even well above target levels, 
managers create a sort of safety valve that allows angling effort to 
shift from species to species as needed, and does not require any 
restored species to be subject to very restrictive management measures.
    Both Mid-Atlantic black sea bass and summer flounder also provide 
good examples of species that were at low levels of abundance two or 
three decades ago, but were rebuilt after the 1996 reauthorization of 
Magnuson-Stevens prohibited overfishing and mandated that stocks had to 
be rebuilt in a time certain. The rebuilding of both species, summer 
flounder in particular, was controversial, again because there are 
elements within the recreational fishing community who are unwilling to 
accept even the most badly needed regulation. However, in the case of 
both species, reasonable fishing seasons were maintained throughout 
rebuilding period, although for a year or two anglers were forced to 
accept very restrictive bag and size limits in exchange for an adequate 
summer flounder season.
    It should be noted that managers' ability to strike a balance 
between the conservation needs of a rebuilding stock and fishing 
seasons reasonably acceptable to anglers is driven less by policy than 
by the life history of the species in question. Such balance was 
possible in the summer flounder and black sea bass fisheries because 
both species mature relatively early, and are relatively short-lived, 
and thus can rebuild at higher fishing mortality rates. In the case of 
red snapper, biology ties managers hands, as they are dealing with a 
fish that can live for more than 50 years, doesn't begin to make a 
material contribution to the spawning stock until it reaches 7 years of 
age, and even then doesn't reach its prime spawning potential until 
move than 10 years old. In the case of such long-lived, late-maturing 
species, regulations will necessarily be restrictive if the stock is to 
rebuild; a policy of cooperation between state and Federal managers 
will help somewhat, but even full cooperation will not lead to the 
months-long seasons that anglers enjoyed years ago, seasons which, in 
the last analysis, were a major cause of the stock's decline.

    Question 4. National Standard Guidelines Update: Several folks 
today have called for more flexibility in fisheries management, 
although your testimony has cautioned too much flexibility. In October 
2016, NOAA issued an update to the National Standard 1 Guidelines to 
provide more options and give fisheries management some of the 
requested flexibility.
    What reactions have you seen to this update and the flexibility 
that it provides to management?
    How long do you think it will take to see the full implementation 
of the is update and its subsequent results?
    Does this update to the National Standard 1 Guidelines go far 
enough in providing flexibility in your opinion? Or does it go too far?
    Answer. Before answering these questions in detail, it is probably 
best to observe that the National Standard 1 Guidelines are just what 
their name suggests, guidelines for implementing National Standard 1, 
and do not in themselves constitute a change to the statute. Thus, 
rather than providing additional flexibility to Magnuson-Stevens, the 
updated guidelines instead illustrate how much flexibility already 
exists in the law, and why additional legislation to increase 
flexibility in Federal fishery management is not needed.
    Reactions from various angling organizations and trade associations 
to the update has generally been favorable, while some conservation 
organizations have expressed concern that some of the provisions will 
entice regional fishery management councils to manage at the margins of 
what Magnuson-Stevens allows, and take a less precautionary approach in 
fishery management plans, and their various amendments and frameworks.
    Full implementation of the update will probably be a gradual 
process. In fisheries which have been functioning well, are at or near 
target abundance levels and largely free from overfishing, such as Mid-
Atlantic bluefish or scup, the update will probably have little or no 
near-term impact on management plans. However, with respect to large 
multi-species plans, such as New England Multi-species or Gulf of 
Mexico Reef Fish, regional fishery management councils may quickly 
resort to provisions of the update to address data-poor species within 
a species complex, new scientific information or the problems of 
rebuilding depleted stocks within a stock complex without placing 
unnecessary restrictions on other fisheries. In all cases, 
implementation of the update will probably occur on an ad hoc basis, 
driven by the characteristics and issues that define individual 
fisheries.
    As mentioned earlier in this response, the update does not provide 
additional flexibility, but rather illustrates the flexibility that is 
already inherent in Magnuson-Stevens. Some provisions of the update may 
help fishery managers, by demonstrating that some so-called 
``alternative management measures'' such as managing by control rule or 
fishing mortality rate, as opposed to hard-poundage quotas, may already 
be employed in recreational fisheries, so long as overfishing does not 
occur and overfished stocks may still promptly recover. Other 
provisions, such as the use of multi-year averaging and the alternate 
approaches for calculating the maximum time to rebuild an overfished 
stock (assuming that such stock cannot be rebuilt within 10 years), may 
tempt regional fishery management councils to use such provisions to 
put off addressing overfishing issues or delay the rebuilding of 
overfished stocks. However, so long as overfishing is ultimately 
avoided and stocks are rebuilt within the prescribed period, there 
should be few concerns about stock health.

    Question 5. Forage Fish Management: In the hearing, the benefits of 
managing forage fish were clearly made as well as the negative 
consequences of when their populations get too low.
    Can you elaborate on what policies you have advocated in the Mid-
Atlantic and describe what changes were made to lead to the stunning 
success in bringing back the forage fish for larger fish, osprey, and 
to the benefit of the larger ecosystem?
    How should the Magnuson-Stevens Act give additional treatment to 
forage fish management?
    Answer. There are two different success stories with regard to 
forage fish in the Mid-Atlantic.
    The first addresses Atlantic menhaden, a species managed by the 
Atlantic States Marine Fisheries Commission (ASMFC). Originally, 
menhaden were essentially unmanaged, with both the management board and 
its scientific advisors dominated by members of the menhaden 
industry,\12\ which assured ASMFC that all was well with the stock. 
However, observations by anglers and various conservation organizations 
determined that menhaden abundance had declined, and those observations 
led to a decades-long effort to manage menhaden sustainably, in 
accordance with reference points established by a team of independent 
biologists. That was first accomplished in 2012.\13\ Since then, 
menhaden have become noticeably more abundant along the Mid-Atlantic 
and New England coasts, which in turn has attracted a plethora of 
predators, ranging from striped bass to ospreys to humpback whales, 
into nearshore waters, where they feed on the menhaden schools.
---------------------------------------------------------------------------
    \12\ Atlantic States Marine Fisheries Commission, Fishery 
Management Plan for Atlantic Menhaden, 1981, available at http://
www.asmfc.org/uploads/file/1981MenhadenFMP.pdf.
    \13\ Atlantic States Marine Fisheries Commission, Amendment 2 to 
the Interstate Fishery Management Plan for Atlantic Menhaden, 2012, 
available at http://www.asmfc.org/uploads/file/
atlanticMenhadenAmendment2_Dec2012.pdf.
---------------------------------------------------------------------------
    The other success story involves the Mid-Atlantic Fishery 
Management Council's recent adoption of an Omnibus Unmanaged Forage 
Fish Amendment, which ``freezes the footprint'' of existing fisheries 
and prevents the creation of new fisheries targeting forage fish until 
it can be demonstrated that such fisheries can be prosecuted without 
disrupting the relevant ecosystem. While it is too early to determine 
the impact of such newly-adopted amendment, the decision to protect 
both forage species and their predators from unsustainable fisheries 
marks the next logical step forward in ecosystem-based fishery 
management.
    As good stewards of the resource, we have to understand that when 
we harvest species that are low on the trophic level, we impact the 
entire ecosystem. Single species management does not work well for 
forage species. That is, we can't manage menhaden based on ``how many 
can we remove so that there is some left over for next year''. Forage 
species need to be managed based on their ecological importance. We 
must dig deep and embrace new forage management strategies that account 
for the predatory species dependant on healthy levels of prey items.

    Question 6. M-RIP: When the Magnuson-Stevens Act was last 
reauthorized, Congress directed NOAA to overhaul its recreational 
angler survey methodology with a ``goal of achieving acceptable 
accuracy and utility'' for recreational fisheries. NOAA responded with 
the creation of the Marine Recreational Information Program (M-RIP). In 
January 2017, the National Academies of Sciences, Engineering, and 
Medicine published a review of M-RIP and found major progress in 
improving the data collection methodology.
    What are your experiences and observations regarding M-RIP compared 
to the old Marine Recreational Fisheries Statistics Survey?
    During the hearing, M-RIP was called a ``terrible data system''; 
could you provide a counter to the various points made in the argument 
against M-RIP?
    How could M-RIP move toward being a workable tool for in-season 
management?
    What role might technology play in improving M-RIP, data 
collection, and recreational fisheries management more broadly?
    Answer. The MRIP methodology, which provides 24-hour coverage of 
fishing locations and does not give interviewers discretion to change 
sampling locations, will serve to both capture data that was missed by 
MRFSS, which did not sample anglers fishing outside of typical 9-to-5 
``working hours'' and to eliminate sampling bias created when 
interviewers left less-frequented sampling locations in favor of areas 
with more anglers, and perhaps different rates of angling success. 
Those two changes will go a long way to improve the accuracy of field 
surveys of anglers. In addition, MRFSS' telephone survey of coastal 
households, designed to gauge angling effort, is being replaced by a 
mail survey of known anglers (from license/registration records 
maintained by each state) and coastal households. Research has 
demonstrated that mail surveys will provide both a better response rate 
and more accurate data, while mailing to a list of known anglers will 
provide more intercepts of people who actually went fishing during a 
two-month sampling ``wave,'' and so will also help to provide more 
accurate information.
    Criticism of MRIP generally addresses the perceived inaccuracy of 
the data provided. To the extent that such criticism is justified, it 
arises out of sampling that is inadequate to accurately gauge the 
harvest of seldom-encountered species or species with a very short 
fishing season. That is because the accuracy of MRIP is directly 
related to the number of samples; to increase the accuracy of the 
survey, it will be necessary to increase the number of samples taken; 
such increase can either be coastwide, or spatially and temporally 
limited in order to more accurately estimate landings in a particular 
place during the course of a short season. More generally, critics who 
call MRIP a ``terrible data system'' are in direct opposition to the 
National Academies report, which gave the program a generally favorable 
review, although some improvements to it are probably still needed.
    The question of ``in-season management'' largely addresses a 
problem that doesn't exist. Very few East Coast recreational fisheries 
are subject to in-season closures when a particular number of fish are 
harvested. The only one that comes to mind is bluefin tuna, where 
harvest is governed by quotas assigned by the International Commission 
for the Conservation of Atlantic Tunas, and landings are estimated 
through a dedicated Highly Migratory Species program, rather than MRIP. 
Virtually all other East Coast fisheries, including that for Gulf of 
Mexico red snapper, are subject to regulatory schemes that establish 
size limits, bag limits and seasons prior to the opening of the season, 
and estimates landings once the season has closed. That being said, 
adopting MRIP for in-season management would require that the number of 
angler intercepts be significantly increased, in order to obtain an 
accurate picture of landings, and that both the results of intercepts 
and angler surveys be made within a much shorter time period than the 
current two-month waves. Louisiana's state program, LACreel, which is 
designed in coordination with MRIP, is an example of how that could be 
successfully accomplished.
    The question of how technology could be used to improve 
recreational landings is a difficult question to answer. Allowing 
anglers to voluntarily provide data creates a significant issue of 
bias, as not all anglers would be entering data, and there is no way to 
be sure that the anglers who do provide such data are representative of 
the larger angling community. In addition, there is no way to be sure 
that the data provided is accurate. Mandatory angler reporting sounds 
like a viable answer, but compliance with such requirements has 
historically been poor. NMFS estimates that only about 20 percent of 
recreational bluefin tuna anglers report their harvest, even though 
such reporting is required. Alabama's experience with mandatory red 
snapper reporting reflects a similar experience; over the last two 
years of the program, the highest compliance rates were only about 30 
percent, while just 7 percent of Alabama red snapper anglers are 
believed to have reported their catch during the 2017 Federal red 
snapper season. Larger vessels, such as party and perhaps charter 
boats, might be subject to the same sort of electronic reporting that 
will be required of commercial vessels, with the cockpit videotaped to 
record all fish brought aboard, mandatory vessel trip reports completed 
before the boat returns to the dock and electronic monitoring devices 
to determine when the vessel is away from the dock and where it is 
fishing. However, the question then arises of whether the expense 
connected with such electronic monitoring is justified by the 
information provided.

    Question 7. Improving MSA: At the hearing, a witness from your 
panel was asked to comment on why you were ``wrong'' about the 
improvements made to the Magnuson-Stevens Act when it was last 
reauthorized. Unfortunately, you weren't able to respond, and so I'd 
like to give you that opportunity.
    How have annual catch limits and other improvements to the 
Magnuson-Stevens Act benefited anglers like you?
    Given your experience as the former executive director of CCA 
Maryland, why do you think some in the recreational fishing industry 
are now advocating against policies they supported during the last 
reauthorization?
    Answer. The most recent reauthorization of Magnuson-Stevens 
completed the work that was begun in 1996. Prior to the 1996 
reauthorization, regional fishery management councils were not required 
to develop management plans that were likely to end overfishing and 
rebuild fish stocks; maximum sustainable yield could be exceeded if 
justified by economic and other considerations. As a result, fish 
stocks were not rebuilt, and the health of many fell into deep decline. 
The 1996 reauthorization, bolstered by a Federal appellate court 
decision that found that fishery management plans must have at least a 
50 percent probability of achieving their goals, ended overfishing in 
many fisheries and initiated the recovery of a number of stocks. 
However, overfishing still occurred in many fisheries, most notably 
those overseen by the New England Fishery Management Council.
    By requiring that annual catch limits be established for every 
fishery, prohibiting the councils from setting such limits higher than 
the allowable biological catch established by their science and 
statistical committees and imposing accountability measures in the 
event that such limits were exceeded, the most recent reauthorization 
imposed needed discipline on the fishery management process. Fishermen 
had a defined quota, based on the best available science, that they 
could not exceed, and faced the consequences imposed by the 
accountability measures should they land too many fish. Such discipline 
has led to additional management successes in the decade since that 
reauthorization occurred.
    As a recreational fishermen, these catch limits help me fish 
responsibly by knowing when and how many fish I can catch to take home, 
or when I simply need to fish for catch and release. It's about fishing 
responsibly and only taking your fair share.
    Critics of Magnuson-Stevens chafe at the strictures imposed by 
hard-poundage annual catch limits, but cannot point to a more 
successful model for fisheries management. Some recreational 
organizations advocate for a Federal management system that resembles 
the flexible approach taken by the Atlantic States Marine Fisheries 
Commission, which does not impose hard quotas on recreational 
fishermen. However, it is important to note that since 2000, Federal 
managers, adhering to the changes in the law made during the two most 
recent reauthorizations of Magnuson-Stevens, have successfully restored 
41 once-overfished populations, while ASMFC has failed to rebuild a 
single fish stock.
    CCA Maryland made a difference in the Chesapeake Bay. The 
volunteers were tireless stewards of the resource. It is quite a task 
to stay up to date on fisheries policies in your own state, much less 
high level Federal issues. Even the best volunteers have only so much 
time to dedicate. These major shifts have one root cause, red snapper. 
Recreational anglers in the Gulf States are frustrated with the 
situation. They don't feel they have the same access as other sectors. 
Anglers are experiencing large numbers of red snapper, in some cases 
more than they have ever seen. Yet, they aren't allowed to keep them. 
The fish seem abundant because they have been overfished for so long. 
Red snapper still need time to recover but people want them now. This 
feeds the narrative that recreational anglers don't matter. The 
rhetoric has become inflamed and science is taking it on the chin. The 
situation has created a high level of distrust, hence the desire for 
state management. On the Federal level, they feel that there is no 
other option left but to make drastic changes to Manguson. We can't let 
management challenges push us backwards. My only agenda is to improve 
fisheries for future generations. The rec industry has an incredible 
opportunity to do the right thing for young fishermen. Let's hope they 
decide to make the most of it.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                       Anthony ``Tony'' Friedrich
    Question 1. Climate Change: Mr. Friedrich, the effects of climate 
change on our oceans, fisheries and marine life are being studied all 
over the United States. In Massachusetts, the Waquoit Bay National 
Estuarine Research Reserve, the Gerry E. Studds Stellwagen Bank 
National Marine Sanctuary, the New England Aquarium, and dozens of 
colleges and universities are leading the way on this scientific 
research.
    The fishing industry is already seeing impacts that some of these 
researchers have found--The Gulf of Maine is the fastest warming body 
of water in the United States and fishermen have already seen species 
including black sea bass, scup, yellowtail flounder, mackerel, herring 
and monkfish moving northward towards cooler waters. A recent study 
estimated that global fisheries may lose as much as $41 billion in 
landings by 2050 due to the effects of climate change.
    How are the managers of the recreational fishing industry, 
including NOAA's Marine Recreational Information Program, responding to 
changes in our recreational fishing industry as a result of climate 
change?
    What flexibility exists in recreational fisheries management to 
handle species moving as a result of climate change?
    Answer. Recreational fishery managers aren't taking any direct 
action to address climate change's impacts on the recreational fishing 
industry. However, climate change's impacts on the fishery is addressed 
indirectly, on a species-by-species basis.
    For example, black sea bass produce larger year classes if young-
of-the-year fish encounter warm, saline waters at the edge of the 
continental shelf, where they spend their first winter.\14\ Recent 
warming off the northeast coast produced a very large 2011 year class, 
and reportedly a dominant 2015 year class as well.\15\ The 2016 stock 
assessment acknowledged the high biomass of the stock, and as a result, 
fishery managers permitted a 52 percent increase in black sea bass 
landings.\16\
---------------------------------------------------------------------------
    \14\ Northeast Fisheries Science Center, 2017, 62nd Northeast 
Regional Stock Assessment Workshop (62nd SAW) Assessment Report, (US 
Dept Commer, Northeast Fish Sci Cent Ref Doc 17-03, 822 p. Available 
from: National Marine Fisheries Service, 166 Water Street, Woods Hole, 
MA 02543-1026, or online at http://www.nefsc.noaa.gov/publications/, 
p.5
    \15\ Mid-Atlantic Fishery Management Council, Summer Flounder, Scup 
and Black Sea Bass Monitoring Committee Webinar Meeting Summary--Black 
Sea Bass, July 24, 2017, available at https://static1.squarespace.com/
static/511cdc7fe4b00307a2628ac6/t/597b66d87131a590b17806
b3/1501259484291/Tab08_BSB-Specifications-Review.pdf
    \16\ Mid-Atlantic Fishery Management Council, Summer Flounder, Scup 
and Black Sea Bass Monitoring Committee: January 26, 2017, 2017-2019 
Black Sea Bass Specifications and 2017 Black Sea Bass Recreational 
Measures, available at https://static1.squarespace.com/static/
511cdc7fe4b00307a2628ac6/t/5893a752579fb35d028370e1/1486071639873/
Tab06_BSB-Specifications.pdf
---------------------------------------------------------------------------
    Such increases in abundance and the corresponding increase in 
recreational landings are detected by the Marine Recreational 
Information Program (MRIP), and are translated into regulatory changes 
for the relevant species. In the case of black sea bass, the increasing 
abundance has led to sharply increased recreational landings in states 
between Massachusetts and New Jersey, which in recent years resulted in 
more restrictive bag limits, size limits and seasons; such increased 
landings would have led to extremely restrictive recreational 
regulations in 2017, had the 2016 stock assessment not assured fishery 
managers that the stock was abundant enough to allow 2016 regulations 
to be carried forward for another year.
    However, MRIP has not been accurate, and thus not as effective a 
management tool, as it could be due to the concept of ``conservation 
equivalency'' \17\ applied to the black sea bass and other fisheries 
which are prosecuted in both state and Federal waters.
---------------------------------------------------------------------------
    \17\ Atlantic States Marine Fisheries Commission, Conservation 
Equivalency: Policy and Technical Guidance Document, 2016, available at 
http://www.asmfc.org/files/pub/Conservation
EquivalencyGuidance_2016.pdf
---------------------------------------------------------------------------
    Although the Magnuson-Stevens Fishery Conservation and Management 
Act's National Standard 3 requires that ``To the extent practicable, an 
individual stock of fish shall be managed as a unit throughout its 
range,'' \18\ recreational fisheries regulations in the Mid-Atlantic 
the East Coast are often set by the states acting through the Atlantic 
States Marine Fisheries Commission (ASMFC), which permits states to set 
regulations unique to each jurisdiction, provided that such regulations 
are ``conservationally equivalent'' to those in the governing fishery 
management plan. Such regulations often vary not only by state, but 
also, within each state, by two month ``wave'' and/or by sector (shore, 
private/rental boat, for-hire vessels), resulting in MRIP surveyors 
interviewing a handful of anglers for each state, sector and wave. 
Since increasing the sampling size decreases MRIP's sampling error,\19\ 
varying state, wave and sector regulations decreases the number of 
samples that can be obtained for each different set of rules, and thus 
increases the error inherent in the survey. Thus, it can be difficult 
to craft regulations that reflect the current state of the fishery in 
each jurisdiction, resulting in angler dissatisfaction when the 
regulations don't seem to correspond to what they believe they see on 
the water. Eliminating such conservation equivalency for federally-
managed fish stocks would allow the National Marine Fisheries Service 
(NMFS) to more accurately gauge recreational landings and so devise 
regulations that would better manage stocks, in accordance with 
National Standard 3, as warming waters cause local changes in 
abundance, and provide greater flexibility on a coastwide basis, as 
individual states would not be locked into jurisdiction-based 
recreational catch limits, based on inadequate harvest data, that fail 
to account for populations expanding north as waters warm.
---------------------------------------------------------------------------
    \18\ 16 U.S.C. 1851(a)(3)
    \19\ NOAA Office of Science and Technology, Marine Recreational 
Information Program Data Users' Handbook, p.43, available at http://
www.st.nmfs.noaa.gov/recreational-fisheries/MRIP-Handbook/
MRIP_handbook.pdf
---------------------------------------------------------------------------
    In addition, in both commercial and recreational fisheries, NMFS 
must have the ability to change regional allocations based on the 
current distribution of fish, and not be locked into landings patterns 
established when oceanographic conditions were very different than they 
are today.
    Summer flounder provide a good example of why such changes are 
needed. The current commercial allocation is based on landings for the 
years 1980-1989,\20\ when the stock was in steep decline and most 
landings were made in the Mid-Atlantic states, while the primary 
recreational allocation (which has recently been modified by ASMFC, on 
an ad hoc basis, to permit regional management \21\) was based on 
landings in a single year, 1998.\22\ Although changes in both summer 
flounder abundance and oceanographic conditions have changed in the 
decades since, moving the center of abundance farther north, 
allocations have not been permanently adjusted to account for the 
impacts of a warming ocean, a failure that has been particularly 
harmful to commercial and recreational fishermen at the northern extent 
of the specie's range, who have seen traditional groundfish species 
disappear while Mid-Atlantic species become more abundant, but have not 
been granted sufficient ability to target the latter fisheries.
---------------------------------------------------------------------------
    \20\ Hicks, Robert and Kurt Schnier, ``Commercial and Recreational 
Allocation for Summer Flounder,'' 2017, p. 8, available at https://
static1.squarespace.com/static/511cdc7fe4b00307
a2628ac6/t/592589ef893fc0277a45e2fb/1495632370514/
summer_flounder_report_final_4_11_
2017.pdf
    \21\ Atlantic States Marine Fisheries Commission, Addendum XXVII to 
the Summer Flounder, Scup and Black Sea Bass Fishery Management Plan, 
2017, available at http://www.asmfc.org/uploads/file/
58b5cf80SummerFlounderAddendumXXVIII_Feb2017.pdf
    \22\ Atlantic States Marine Fisheries Commission, Addendum VIII to 
the Summer Flounder, Scup and Black Sea Bass Fishery Management Plan, 
2003, available at https://www.asmfc.org/uploads/file/addendumVIII.pdf

    Question 2. Science for Recreational Fisheries: In your testimony 
you describe how the Marine Recreational Information Program gathers 
catch and other data from state surveys to determine recreational 
fishery management decisions. Would providing more funding for this 
program improve the critical science needed for recreational fisheries 
management decisions?
    Answer. Yes. Additional funding, used to conduct additional angler 
interviews, would substantially reduce error in MRIP data.
    The National Academy of Sciences recently reviewed MRIP and found 
that the program has made ``impressive progress'' in providing reliable 
catch data for management.\23\ Increased funding for MRIP would allow 
the experts working there to implement plans to improve the timeliness 
and accuracy of data, addressing the need for better in-season data for 
fisheries.
---------------------------------------------------------------------------
    \23\ http://dels.nas.edu/Report/Review-Marine-Recreational-
Information/24640
---------------------------------------------------------------------------
    As mentioned in the response to the previous question, MRIP's 
accuracy depends on the number of anglers interviewed. If additional 
funding made a significantly greater number of interviews possible, the 
error inherent in MRIP estimates could be substantially reduced. In 
addition, by conducting more and more frequent interviews, fishery 
managers would be better able to address both fish that are caught less 
frequently than some other species and those fish, such as Gulf of 
Mexico red snapper, that are caught during short fishing seasons that 
aren't adequately sampled through the current MRIP protocols.

    Question 3. Public Education on Fishing Laws: Recreational 
fishermen are traditionally very conservation minded and want to follow 
fishing regulations. However there can be inadvertent noncompliance by 
anglers since state and Federal regulations change depending what 
waters they are fishing in and the time of year. Supported by NOAA 
funding, Scott Steinback in Woods Hole, Massachusetts helped develop an 
app for smart phones called Fish Rules. This free app helps anglers 
easily understand what regulations they need to follow because it 
determines which fishing regulations apply to the angler wherever they 
are, using the GPS and calendar in the angler's smartphone. Even though 
this app is only a year old, 20,000 to 35,000 people were checking this 
app a day in June and July of this year. How can these sort of efforts 
be expanded upon and what sort of future do you see for this app and 
other emerging technologies in recreational fishing?
    Answer. Apps such as the one mentioned, Fish Rules, can only help 
anglers comply with fishing regulations. As more species of fish are 
being subject to more intricate regulations which, as mentioned above, 
may differ from state to state and from month to month, and may even 
differ depending on whether an angler is fishing from a boat or from 
shore, having a handy app that allows such angler to check on the 
applicable regulations would be beneficial. The evolution of technology 
holds great potential for recreational fisheries management. In 2010, 
Florida lost 70 percent of the entire snook population in just a few 
days. Florida experienced extremely cold weather which is deadly for 
snook. Recreational anglers stepped up and worked with FWC to provide 
catch and effort data for snook recovery. The Snook and Gamefish 
Foundation employs iAngler as a data tool not just a regulation 
reference. \24\
---------------------------------------------------------------------------
    \24\ http://snookfoundation.org/news/research/561-iangler.html
---------------------------------------------------------------------------
    The reasoning behind creating the program was explained by Rick 
Roberts, Executive Director of SGF. ``With the threat of longstanding 
fishing closures, the time was right for recreational anglers at large 
to stop being viewed as the problem.'' A program was needed to bring 
recreational anglers into the process. In its infancy the program was a 
combination of an on-the-water data collection form and online logbook. 
Anglers recorded timely catch data on the form and then use their 
computer to upload it to the collection site.''
    After years of recreational anglers providing data for snook, the 
fishery was allowed to be reopened two years before predicted. While 
not perfect, we need to give technology a chance. It could be a way to 
get recreational anglers involved while working towards greater 
accountability for the recreational sector.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                       Anthony ``Tony'' Friedrich
    Question 1. A common theme in much of the testimony at this hearing 
was the need for good science to inform management decisions. We are 
fortunate to have some of the best scientists and researchers informing 
every management decision--from adjusting catch limits on a given 
fishery in a given season, to figuring out how to confront the big 
global challenges like climate change and ocean acidification. 
Particularly when you have legislation introduced that deals with 
things like how data collection should be improved and how to best 
conserve the resource while still allowing access, I don't see how we 
can have that conversation without science being at the very center.
    Under National Standard 2 of the Magnuson Act, all conservation and 
management measures for all fisheries are to be based on the best 
scientific information available. NOAA's guidelines provide a robust 
process for councils and Statistical and Scientific Committees to 
follow when determining what constitutes best available science. This 
process is based on recommendations from the National Academy of 
Sciences.
    Should we be legislating what constitutes best available science 
under the Magnuson Act, or should we leave these crucial decisions to 
the agency, councils, and SSCs that have well-honed expertise in this 
area? More generally, how can we ensure that fisheries management 
continues to be a process based on sound science?
    Answer. ``Science'' represents an orderly approach to obtaining and 
organizing information with a minimum of bias, and testing that 
information to determine whether or not it is true. The scientific 
collection of data requires that such data be collected in a systematic 
matter designed to minimize bias, that any biases that might have 
arisen in the collection of such data be identified and quantified, 
that such data is analyzed in a statistically valid manner and, 
ultimately, that the data collection process, the adequacy of the data 
for fishery management purposes and the conclusions drawn from such 
data be subject to rigorous, independent peer review to determine its 
validity. That is the process currently employed by the National Marine 
Fisheries Service.
    Unfortunately, there is pending legislation that would water down 
such a rigorous scientific approach, and mandate that seeks to 
facilitate ``greater incorporation of data, analysis, stock 
assessments, and surveys from State agencies and nongovernmental 
sources,'' with such ``nongovernmental sources'' to include both 
fishermen and fishing communities,\25\ without any requirement that 
such parties demonstrate their competence to collect data in a 
systematic or unbiased manner, or their qualifications to perform 
analyses, stock assessments, etc. Requiring that such dubious data be 
incorporated into the fishery management process, rather than leaving 
judgement calls on the appropriateness of various data sets to trained 
fisheries professionals, is contrary to the scientific approach and 
could only dilute the quality of the information on which fisheries 
decisions are based.
---------------------------------------------------------------------------
    \25\ H.R. 2023, the Modernizing Recreational Fisheries Management 
Act of 2017, available at https://www.congress.gov/bill/115th-congress/
house-bill/2023/text
---------------------------------------------------------------------------
    To ensure that fishery management decisions continue to be based on 
sound science, data should be gathered by or under the supervision of 
scientists, analyzed by scientists, and peer reviewed by scientists, 
who are allowed to act with complete freedom from the pressures that 
might be applied by persons or organizations seeking a conclusion that 
would benefit their particular interests. There's a real opportunity to 
bridge the gap between scientists and recreational anglers through the 
use of data and effort collection via smart phone apps. The anglers can 
participate in a meaningful way while the scientists can get real time 
information to better manage the resource. While there's so concern 
over inherent statistical bias, there are some success stories like 
snook that can't be ignored.
    We absolutely should NOT be legislating what constitutes best 
available science under the MSA. These are decisions that are properly 
left to the expertise of the agency and SSCs. Legislating what science 
can or should be used would reduce the ability of our management system 
to adapt to new scientific developments, would discourage innovation, 
and likely increase the uncertainty of our scientific estimates, which 
could result in reduced catch levels for fishermen. That process is 
best left with the scientists and peer review.
    National Standard 2 of the MSA requires that ``Conservation and 
management measures shall be based upon the best scientific information 
available.'' \26\ In 2013, NOAA Fisheries released revised guidelines, 
informed by input from the National Academy of Sciences, for 
determining what constitutes ``BSIA.'' \27\ The extensive criteria in 
this rule describes a dynamic process for balancing 8 important 
considerations (relevance, inclusiveness, objectivity, transparency, 
timeliness, verification, validation, and peer review) when determining 
what science meets the BSIA standard. This process is not exclusive to 
only ``federal'' or ``agency'' science--all relevant data, including 
the data from states or non-traditional sources that some are seeking 
to legislate into fisheries management--can and are evaluated based on 
these criteria.
---------------------------------------------------------------------------
    \26\ 16 U.S.C. Sec. 1851(a)(2).
    \27\ National Marine Fisheries Service, National Standard 2, Final 
Rule, 78 Fed. Reg. 43066, 43067 (July 19, 2013).
---------------------------------------------------------------------------
    In addition, the BSIA concept explicitly recognizes that the ideal 
amount of scientific evidence for decision making may not be available. 
We'd all like to have better data and less uncertainty, but the law and 
guidelines are clear--mandatory management decisions should not be 
delayed due to limitations in the scientific information or the promise 
of future data collection or analysis.\28\ Scientific uncertainty in 
fisheries data will never be completely eliminated, and new techniques 
and methodologies are being developed all the time
---------------------------------------------------------------------------
    \28\ National Marine Fisheries Service, National Standard 2, Final 
Rule, 78 Fed. Reg. 43066, 43067 (July 19, 2013).
---------------------------------------------------------------------------
    In order to ensure our scientific understanding of our fisheries is 
constantly improving, we should invest more in data collection, stock 
assessments, monitoring, and enforcement. The scientists and experts in 
academia, NOAA Fisheries, and the regions are doing amazing work on 
shoe string budgets. Transferring their work to other entities, like 
the states or commissions, will only disrupt the science endeavor and 
create inefficiency and redundancy. Where possible, NOAA Fisheries 
already uses data from states, academic institutions and other experts. 
The stumbling block to greater inclusion of this information is often 
simply the funding and capacity to ensure those data sets and existing 
data sets are properly calibrated and survey designs allow for 
comparing ``apples to apples.'' We have one of the best fisheries data 
and management systems in the world, and the solution to improving it 
is to invest in augmenting the system we have.
    Also, let's not forget that this isn't a unique system. Beyond the 
MSA, numerous resource management statutes contain a requirement for 
the use of the best available science. These include the Endangered 
Species Act, the Marine Mammal Protection Act, the Safe Drinking Water 
Act, the Toxic Substances Control Act, and others. The effectiveness of 
``best available science'' standards has been proven not only in the 
world of marine fish, but in these other resource management contexts 
as well.

    Question 2. Current Magnuson law requires a ten-year time-frame for 
rebuilding that is provided in the law, with an exception for 
situations where rebuilding is not possible within ten years. This ten-
year time-frame is double the amount of time that most stocks need to 
rebuild in the absence of fishing, which is generally regarded as an 
appropriate outer bound for rebuilding.
    Approximately how many rebuilding plans actually are subject to the 
ten-year timeframe? In your opinion, does current law provide 
sufficient flexibility with regard to rebuilding timelines?
    Answer. To clarify, the current law requires stocks to be rebuilt 
in as short a time as possible; that time is not to exceed 10 years 
except in cases where the biology of the stock, environmental 
conditions, or international agreements dictate a longer time-frame is 
necessary. Many stocks can and do rebuild in less than 10 years. 
However, there are certainly cases where stocks require a longer 
rebuilding time period. It is clear this built-in flexibility is being 
actively used: Over half of the rebuilding plans in place today are 
over the 10 year time limit.\29\
---------------------------------------------------------------------------
    \29\ http://www.nmfs.noaa.gov/sfa/fisheries_eco/
status_of_fisheries/archive/2016/2016-trends-analysis.pdf
---------------------------------------------------------------------------
    Of the 13 stocks that have rebuilding timelines of less than 10 
years, five are in their second rebuilding plan after previous ones 
failed (meaning their timeline has now been reset), and two are over 
their time limit but continuing with the same rebuilding plan. Thus the 
time in which they have been rebuilding is more than 10 years, despite 
being subject to a plan that states less than 10 years on paper. In 
short, there is so much flexibility in this system that MOST rebuilding 
plans are over 10 years.
    I agree that there is enough flexibility in the law already for 
rebuilding. Timelines are important because they establish a clear goal 
for restoring the stock to healthy levels, which improves ecosystem 
function and provides more opportunity for recreational and commercial 
fishermen alike. Before the timelines were put in the law, few if any 
stocks were recovered. Time and again, the decisions necessary to 
rebuild stocks were delayed because of short-term concerns. But since 
timelines were incorporated, we have seen clear success in rebuilding--
43 stocks have rebuilt since 2000.
    Of the 34 overfished and/or rebuilding stocks not subject to the 
10-year timeframe, 6 (13 percent) fall under the exception for stocks 
managed ``under an international agreement in which the United States 
participates.'' Three others (6 percent) have no set rebuilding 
deadline due to insufficient knowledge regarding the life histories of 
the relevant species, while two stocks (4 percent) have only recently 
been declared overfished, and no rebuilding plans have yet been 
developed. The remaining 23 stocks (49 percent) fall under the 
exception to the 10-year timeline created for cases ``where the biology 
of the stock of fish'' requires a longer rebuilding period.
    Current law certainly provides enough flexibility to rebuild those 
23 stocks. Current guidelines adopted by the National Marine Fisheries 
Service \30\ provide three methods for determining rebuilding timelines 
for stocks that, for biological reasons, cannot be rebuilt within ten 
years. The relevant regional fishery management council may select a 
rebuilding time that is equal to (1) the minimum time it would take to 
rebuild the stock in the absence of any fishing mortality, plus one 
mean generation (the average time it takes a fish to mature and first 
produce young) for the species in question; (2) the time it would take 
to rebuild the stock if it was fished at 75 percent of the maximum 
fishing mortality threshold; or (3) twice the time that it would take 
to rebuild the stock in the absence of any fishing mortality. Those 
three approaches, which allow managers to select the approach best 
suited to a particular fishery, provide all of the flexibility needed.
---------------------------------------------------------------------------
    \30\ 50 C.F.R. 600.305 et seq

    Question 3. Regarding proposals to add language into the law about 
``alternative management measures'' for recreational fisheries: do 
councils already have the authority to manage recreational fisheries in 
a number of creative ways, including with harvest control rules or 
extraction rates as noted in some legislative proposals? And that's as 
long as they are still subject to the backstop of a science-based ACL 
and accountability measures, correct?
    Answer. Magnuson-Stevens currently permits fishery managers broad 
discretion to employ ``alternative management measures.'' The National 
Standard One Guidelines issued by the National Marine Fisheries Service 
explicitly provide for the use of control rules and fishing mortality 
rates \31\ to manage fisheries, provided that overfishing does not 
occur and further provided that, in the case of overfished and 
rebuilding stocks, the rebuilding period is not extended. Thus, the 
desire to employ such alternative management measures does not justify 
the passage of additional legislation.
---------------------------------------------------------------------------
    \31\ 50 U.S.C. 600.301
---------------------------------------------------------------------------
     Response to Written Question Submitted by Hon. Bill Nelson to 
                              Lori Steele
    Question. Ms. Steele, your testimony referred to the ten year 
rebuilding target in MSA as ``arbitrary.'' First, I would like to 
clarify for the record that this rebuilding provision requires managers 
to consider the needs of fishing communities when setting the timeline 
and provides for a broad exception for stocks that cannot rebuild in 
ten years. Currently, the average length of timeline for stocks 
currently in a rebuilding plan is 15 years. I would further like to 
clarify that there is a body of scientific work demonstrating the basis 
for Congress's enactment of the 10 year target. I would like to submit 
an example of this for the record.
    Finally, with regard to arbitrariness, your testimony issues 
support for H.R. 200s amendment to the MSA's rebuilding requirements 
that would allow managers to develop plans that rebuild a stock in as 
short of a time as ``practicable,'' as opposed to ``possible.'' 
Legally, this change would provide managers with vast discretion in 
setting the rebuilding timeline lengths, regardless of what the science 
dictates. How does your support of this change square with the concern 
you've raised about so-called arbitrary timelines?
    Answer. My testimony references the 2013 National Academy of 
Sciences (NAS) report titled ``Evaluating the Effectiveness of Fish 
Stock Rebuilding Plans of the United States.'' In this report, one of 
the NAS key findings with respect to rebuilding timelines states, 
``Rebuilding plans that focus more on meeting selected fishing 
mortality targets than on exact schedules for attaining biomass targets 
may be more robust to assessment uncertainties, natural variability and 
ecosystem considerations, and have lower social and economic impact.''
    The fact that ``the average length of time for stocks currently in 
a rebuilding plan is 15 years'' supports the argument that the ten-year 
time-frame is arbitrary and unnecessary. The change from possible to 
practicable would not allow fisheries managers discretion to make 
decisions irrespective of the best available science. With this change, 
conservation and management measures will continue to be based on the 
best available science, consistent with MSA National Standard 2. Annual 
catch limits (ACLs) will continue to be set with precautionary buffers 
to account for scientific uncertainty and management uncertainty. 
Accountability measures will continue to ensure that ACLs are not 
exceeded. Nothing about this change alters the mandates for 
conservation embedded in the MSA.
    Fundamentally, the difference between possible and practicable with 
respect to the selection of rebuilding timelines is an allowance for 
the application of the best available science to the realities of a 
given fisheries management situation. This change will result in better 
management responses to variability and uncertainty, and better 
consideration of both ecological and economic conditions, while still 
meeting all of the conservation objectives of the MSA.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Lori Steele
    Question 1. Considering Ecosystem Changes: In your written 
testimony, you describe support for modifications that would ``allow 
regional Fishery Management Councils to consider ecosystem changes and 
the needs of fishing communities''.
    How do you envision the Fishery Management Councils taking into 
account changes to the ecosystem including changes to food sources and 
habitat?
    How is this different from what they consider now and how they 
consider that information?
    Answer. We are certainly fortunate that the MSA's standards and 
guiding principles already ensure that the Councils consider habitat 
impacts, cumulative effects, and other ecosystem factors when 
developing fishery management plans. However, it is essential that 
Congress clarify its intent and provide additional flexibility through 
this reauthorization so the Councils can more explicitly account for 
ecosystem factors and changing ecological conditions when developing 
rebuilding programs and/or setting catch limits. Increasing flexibility 
in the MSA allows Congress to specifically acknowledge the importance 
of changing ecological conditions, and to allow the Councils to better 
respond to these changes.
    The MSA reauthorization should require the Councils to consider 
ecosystem changes and economic needs of the communities when setting 
annual catch limits. In light of changing environmental and ecological 
conditions, these modifications make scientific and common sense. 
Specific changes to increase flexibility for Councils to allow 
rebuilding plans to better take into account environmental factors and 
predator/prey relationships could be very helpful to managers. There 
may be instances where the time period required to rebuild a particular 
stock of fish could be negatively impacted by excessive marine mammal 
predation; reduced availability of food; or changing ocean temperatures 
forcing a shift in distribution. Currently, we believe the RFMCs have 
little flexibility to extend rebuilding (and could also be required to 
reduce ACLs) to address such changing stock conditions. Providing 
explicit alternatives for the RFMCs could result in less onerous 
restrictions (i.e., rebuilding times and quotas) on fishing 
communities, and also encourage scientific data collection in areas not 
currently examined for inclusion in Federal fishery management plans.
    Additionally, the term ``overfished'' should be changed to 
``depleted'' throughout the Act to more explicitly acknowledge 
ecosystem factors beyond our control. The term ``overfished'' is 
perceived negatively and can unfairly implicate the industry for stock 
conditions resulting from other factors like pollution, coastal 
development, and changing ocean conditions. For example, a stock might 
be subject to minimal or even zero fishing yet still become 
``overfished'' due to predation, disease, changes in water temperature, 
or lowered ocean productivity. Yet when the public is informed that a 
stock is overfished, we believe the perception is that fishing is the 
cause. Changing this terminology in the MSA will clarify which factors 
are most significantly affecting stock status and ultimately lead to 
better conservation and management of the stock.
    Allowing the regional Fishery Management Councils to better address 
the needs of fishing communities can be achieved, in part, by changing 
language in Section 304 of the Act from ``possible'' to ``practicable'' 
in terms of rebuilding periods. This minor change will result in better 
management responses to variability and uncertainty. It will also 
improve consideration of both ecological and economic conditions while 
still meeting all the conservation objectives of the MSA.

    Question 2. Exempted Fishing Permits: In your testimony, you 
discuss numerous issues with the Modernizing Recreational Fisheries 
Management Act of 2017. One of the issues raised was regarding exempted 
fishing permits.
    How have you used exempted fishing permits, and what were the 
outcomes?
    Could you elaborate on how the process of obtaining exempted 
fishing permits through NOAA was a struggle, as you described in your 
written testimony?
    Answer. During my time on the New England Fishery Management 
Council staff, I worked on numerous EFPs aimed at developing 
opportunities for a small-mesh whiting fishery while minimizing bycatch 
of other groundfish species. I worked with the fishing industry on 
several EFPs, which ultimately led to regulatory changes to increase 
fishing opportunities for whiting. The EFP process was a critical tool 
to foster cooperation and promote conservation engineering within the 
fishing industry, encourage bycatch reduction, and develop better 
fishing practices. Opportunities to fish for whiting in New England 
would not exist today had it not been for the ability of the industry 
to work with the Council and NMFS to develop these opportunities 
through the EFP process.
    More recently, in my work for the industry on the West Coast, we 
are utilizing the EFP process to help expedite the implementation of a 
suite of trawl gear regulations for the West Coast groundfish fishery 
that hinge on the ability to minimize impacts to salmon species listed 
under the Endangered Species Act. The purpose of the EFP is to provide 
the opportunity for vessels to target rebuilt, abundant rockfish 
species on a year-round basis (to better achieve OY), while ensuring 
that conservation objectives for the groundfish fishery continue to be 
met. The goal of this EFP is to demonstrate that removal of outdated 
and unnecessary gear and season restrictions in the trawl individual 
fishing quota (IFQ) program can help the groundfish industry better 
meet the economic objectives of the trawl catch share program while 
keeping bycatch of salmon and other species within allowable limits. 
The flexibility afforded by this EFP is expected to foster innovation 
and allow for more optimal harvest operations in the bottom trawl 
fishery, which could reduce bycatch and provide additional conservation 
benefits.
    The process for establishing the West Coast trawl gear EFP has been 
lengthy and extremely challenging, given the need to address oftentimes 
conflicting standards in multiple Federal laws (MSA, ESA, MMPA, NEPA) 
as well as manpower/resource limitations within NOAA/NMFS. The Pacific 
Fishery Management Council approved changes to the West Coast trawl 
gear regulations in March 2016, but adequate data/analyses do not exist 
for NMFS to ensure that these regulatory changes will be consistent 
with all applicable laws, so the regulations have not been implemented 
and are not likely to be implemented in the foreseeable future. The 
trawl gear EFP is therefore needed to collect/provide data to support 
implementation of these regulations and successful long-term management 
of the groundfish fishery, yet the process for approving the EFP has 
been hamstrung by lack of data and manpower/resource limitations within 
NOAA/NMFS.
    Without the EFP process, however, there would likely be no 
opportunity to implement the Pacific Council's trawl gear package for 
the West Coast groundfish fishery. We need the opportunities afforded 
by the trawl gear EFP as quickly as possible in order for the 
groundfish fishery to improve its utilization of Optimum Yield. The 
modifications to the EFP process proposed in the Modernizing 
Recreational Fisheries Management Act would completely cripple the EFP 
process and eliminate a very important conservation and management tool 
available to the Councils.

    Question 3. Optimum Yield versus Maximum Sustainable Yield: At the 
hearing, your terminology focused on ``optimum yield'' for fisheries 
oppose to ``maximum sustainable yield'' which is terminology found 
within the current Magnuson-Stevens Act. Do you differentiate between 
these terms? And, if so, what is the difference?
    Answer. The differentiation between MSY and OY and the focus 
specifically on achieving OY is emphasized in the MSA through National 
Standard 1, the Act's fundamental guiding principle. OY is, in fact, 
differentiated from MSY in the MSA in that it is defined based on MSY.
    MSY is generally defined in the science as the largest average 
catch or yield that can continuously be taken from a stock under 
prevailing environmental conditions. MSY is a conceptual reference 
point, derived from an equilibrium-based statistical model. It is a 
static (constant) estimate of stock productivity that results from the 
model inputs, not from the environmental and economic realities of a 
given situation in a fishery. Therefore, MSY is strictly a biological 
concept, giving no consideration to economic, social, or political 
factors.
    For decades, the best available science has long acknowledged MSY 
as an important part of a fisheries management framework, but not as a 
specific amount of yield to be achieved in a fishery for perpetuity. As 
history and science have taught us, it is erroneous to assume that a 
given level of fishing mortality allows a certain yield to be 
maintained indefinitely, irrespective of environmental, ecological, and 
economic conditions. Moreover, the objectives of a fishery management 
plan are often numerous and quite diverse; OY considers and accounts 
for these other objectives. OY is essentially the yield that may result 
in a given year when a number of objectives/criteria are satisfied 
which effectively ensure that the fishery will remain in a productive 
and safe (risk-averse) range (i.e., while still meeting the plan's 
conservation objectives).
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                           Peter Andrew, Jr.
    Question 1. Long-term planning in Bristol Bay: From your testimony, 
the Bristol Bay seems to have a long-term plan to keep the salmon 
fishery abundant far into the future and sustain your community. How 
does your community plan and account for the various environmental 
factors that are changing and have the potential to negatively impact 
the robust salmon fisheries?
    Answer. A changing environment is certainly a challenge for the 
Bristol Bay fishery. Salmon, which rely on cool, clean water, are 
particularly sensitive to a changing habitat and have adapted to 
precise conditions over centuries of evolution. Even small changes--
increase in temperature, pollution, changes in stream conditions and 
flow--can have a huge impact, thwarting their biological instincts to 
return to the same streams from which they spawned. We must closely 
monitor changing conditions and act accordingly to protect our salmon 
and their future, and have management plans in place to preserve the 
untouched areas where salmon exist in abundance. We do not just 
preserve these fish for our own benefit; they are for the benefit of 
future generations. That is why flexibility and nimbleness to adjust to 
changing conditions is incredibly important in our management.
    It is important to note that all fisheries face the challenge of 
climate change and a generally changing environment. Bristol Bay 
nevertheless faces unique challenges as well. The proposed Pebble Mine 
is an existential threat to our fishery. What could be North America's 
largest open pit mine should not be built in the headwaters of the 
world's most prolific wild sockeye salmon fishery. While climate change 
is a complex challenge that requires a global solution, preventing 
damage from the Pebble Mine is a local challenge. Our challenge is to 
preserve the diverse habitats of the region as a buffer against the 
unpredictable effects of these coming challenges. We cannot afford to 
allow piecemeal destruction of any streams or watersheds when there is 
a more global threat such as climate change that is challenging the 
full resiliency of the region's fisheries.
    In 2014, the EPA proposed safeguards on mining the Pebble deposit, 
which were widely praised by the people and fishers of Bristol Bay. 
Unfortunately, the current EPA is moving to abandon those proposals. 
While I understand permitting the Pebble Mine would not fall under the 
jurisdiction of the Subcommittee on oceans, atmosphere, fisheries, and 
Coast Guard, I encourage Senators to do everything in their power to 
protect Bristol Bay's fisheries for future generations of fishers.

    Question 2. Suggested Revisions to MSA: During the hearing, Ms. 
Steele clearly outlined several revisions to consider during the MSA 
reauthorization process including: giving more flexibility to the 
councils, changing possible to practicable in Section 304, changing 
``overfished'' to ``depleted'', provide a definition for 
``overfishing'', and provide a definition for ``catch share''. What are 
your thoughts on these proposed changes?
    Answer. My experience with the Magnuson-Stevens Act comes from my 
lifelong participation in the Bristol Bay salmon fishery. The 
constructive relationship between the Federal and state governments in 
managing this fishery is one reason that we had such incredible fishing 
this year. Other reasons include a recognition by Congress in the 
Magnuson-Stevens Act, and among fishery managers, that a sustainable 
fishery can support coastal communities for generations upon 
generations. Again, there is no better example of this than Bristol 
Bay, where we have enjoyed 134 years of commercial salmon fishing. As 
you reauthorize the Magnuson-Stevens Act, I encourage you to judge 
proposed changes by their impact on the fishers of today as well as 
those that will come after us. Further, please take caution in making 
changes to law; those noted in this question and any other proposals 
that you consider, as our understanding of the marine environment is 
not perfect, and there should be a margin of error built into the law 
to minimize the risk of longer-term degradation of our Nation's 
important fishery resources.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Gary Peters to 
                         Gregory P. DiDomenico
    Question 1. Suggested Revisions to MSA: During the hearing, Ms. 
Steele clearly outlined several revisions to consider during the MSA 
reauthorization process including: giving more flexibility to the 
councils, changing possible to practicable in Section 304, changing 
``overfished'' to ``depleted'', provide a definition for 
``overfishing'', and provide a definition for ``catch share''.
    In your testimony you touched on a few of these, but could you 
elaborate on what your thoughts are on these proposed changes?
    Answer. 1) Flexibility to Regional Councils
    Providing ``flexibility'' can be achieved by eliminating the 10-
year time requirement for rebuilding fisheries, replacing it with a 
biologically-based foundation, and relying on our regional fisheries 
management process to determine the optimal path to stock rebuilding.
    The National Academy of Science concluded in their 2013 report 
titled ``Evaluating the Effectiveness of Fish Stock Rebuilding Plans in 
the U.S.'' that the pre-set 10-year rebuilding requirement was indeed 
arbitrary and harmful.
    It is time to admit the current requirement to adhere to an 
arbitrarily-defined rebuilding period is not necessary to rebuild 
fisheries and while on the path of rebuilding we can minimize impacts 
to fishing communities. Simply put, why would you not choose to rebuild 
a fishery in 12 years instead of 10 and avoid very significant impact 
to fishing communities?
    In addition ``flexibility'' could also adjust rebuilding plans by 
taking into account environmental factors and predator/prey 
relationships.
    Furthermore, ``flexibility'' could also be applied to ACL's. The 
ACL requirement would be retained in the Act but the Regional Fishing 
Management Councils (RFMC) could consider changes in ecosystem, species 
with unique biological characteristics and species managed under 
international agreements.
    For example a RFMC could be given the option to adjust the ACL 
requirements for a species like butterfish that has a short life 
history and extremely high natural mortality. This is similar to the 
exemption for ACL's that already exists in the MSA for short lived 
species but would expand it to include stocks like butterfish.
    The Act currently provides an exemption from the ACL control rules 
for stocks managed under international agreements but does not address 
species that are truly trans-boundary in nature where there is only an 
informal agreement (or no agreement) in place. We support expansion of 
these extra-territorial considerations.
    In the case of Atlantic mackerel, scientific evidence has indicated 
the stock distribution is shifting into Canadian waters. Unfortunately, 
the U.S. has no formal trans-boundary sharing agreement. In this case 
U.S. management actions pursuant to MSA disadvantage our fishermen and 
weaken the U.S. negotiating position.
2) Section 304 changing ``possible'' to ``practicable''
    Changing this terminology in the MSA provides the specific 
allowance for a Council to choose between several rebuilding scenarios 
to achieve required conservation and management objectives. Under this 
provision a Council would be given the choice to consider all of the 
aspects, including biological, life history of a species and socio 
economic impacts, not just the shortest path to rebuilding. The 
shortest path is often the most harmful to fishing communities with 
sometimes irreversible impacts. This change could benefit coastal 
communities without undermining any conservation and stock rebuilding 
objectives.
3) Changing ``overfished'' to ``depleted''
    Changing the term ``overfished'' to ``depleted'' allows for a 
differentiation between species that are approaching a reduced level of 
abundance due to fishing mortality and those species that are at a 
reduced level of abundance as a result of other factors. Why would we 
label a stock as ``overfished'' if its current status is as a result of 
something other than fishing?
4) Definition of ``overfishing''
    The change we are requesting removes the word ``overfished'' from 
the current definition of the term ``overfishing.'' We support more 
accurately defining ``overfishing'' (as a rate) and removing the term 
``overfished'' from the Act, substituting the newly defined term 
``depleted''. We support changing the annual Status of Stocks report 
submitted by the Secretary to distinguish between stocks that are 
depleted (or approaching that condition) due to fishing activities and 
those meeting that definition as a result of other factors. We also 
support the separation and clarification of the two terms and the 
requirement to differentiate sources of mortality when projecting stock 
status and setting ACLs.
5) Definition of ``catch share''
    We support adding a comprehensive definition of the term ``catch 
share'' to the Act. H.R. 200 proposes language to define a ``catch 
share'' as any fishery management program that allocates a specific 
percentage of the total allowable catch for a fishery, or a specific 
fishing area, to an individual, cooperative, community, processor, 
representative of a commercial sector, or regional fishery association 
established in accordance with section 303A(c)(4), or other entity.
    This definition is crucial to keeping the fishery management 
process fair and inclusive. Without a clear definition we are concerned 
that this type of fisheries management may be used to create unfair 
advantages within the fishing industry.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                     William ``Bubba'' Cochrane II
    Question 1. Success of IFQ Programs: Your written testimony 
describes the incredible success of the individual fishing quota (IFQ) 
program in the Gulf of Mexico. Bigger fish, better prices, fewer 
discards, larger quotas, and more importantly the security with having 
a defined share of the resource to allow for increased safety.
    How has the IFQ managed to triple the red snapper quota for all 
fishermen over the last 10 years, while we are also seeing shorter 
recreational fishing seasons in Federal waters? Can you shed some light 
on the situation in the Gulf?
    Also, how does the state fishing seasons compare to the Federal 
fishing season for red snapper?
    Answer. The passage of the Sustainable Fisheries Act in 1996 and 
the Magnuson-Stevens Act (MSA) in 2007 and the implementation of the 
Gulf of Mexico commercial red snapper IFQ program changed the way that 
red snapper were managed in the Gulf of Mexico. The old system wasn't 
working for anyone--the commercial fishery was subject to a series of 
short, intense seasons at the beginning of each month (regardless of 
weather) that led to massive discarding and soft markets; there were no 
science-based annual catch limits for any fishermen (commercial, 
charter, or recreational); and the Gulf of Mexico Fishery Management 
Council had the flexibility to overrule scientists' recommendations. 
Now, we have a successful management system under which all three 
fishing sectors are managed to a hard annual catch limit (ACL); the 
commercial sector implemented an IFQ program that allows sustainable, 
year-round access to the fishery; and the charter sector is in the 
process of developing its own management system to extend its fishing 
seasons. Before these developments, Gulf of Mexico red snapper were 
overfished, small in size (2-3 pounds on average), and scarce. Now, the 
stock is rebounding and red snapper are plentiful and getting bigger 
(7-8 pounds on average). The quota for all fishermen in the Gulf--
commercial, charter, and recreational--has nearly tripled in the last 
10 years from 5 million pounds in 2008 to 14 million pounds today. 
Because red snapper need to live for decades to reach their maximum 
spawning potential, it has taken until recently for fishermen to see 
the benefits of these management changes and it will take several more 
years of careful management until there are enough older female red 
snapper to allow us to maximize the fishery's potential. If these 
controls on Gulf red snapper fishing are relaxed too soon, we will see 
the stock plummet back to the bad old days of the early 1990s. I've 
already sacrificed to rebuild this stock--my son shouldn't have to 
sacrifice to rebuild it again.
    While it seems confusing to some that the Federal private angler 
season has shrunk while the red snapper population has increased, it is 
relatively simple to explain. When it was hard to find a large red 
snapper because they were overfished, recreational fishermen didn't 
target them. Part of the Gulf Council's efforts to implement the 1996 
and 2007 Acts involved reducing the private angler season from 365 days 
per year. For many years, four of the five Gulf States followed this 
practice (excluding Texas) and established their state waters private 
angler seasons to mirror the Federal season. As the red snapper stock 
started to recover and the fish got bigger, they became more popular 
with private anglers. As the recreational fishing effort per day and 
the weight of the fish they caught increased faster than the red 
snapper population rebounded, the Federal and state seasons had to be 
reduced in an effort to contain the recreational catch within its 
growing annual quota. In 2013, the four states started deviating from 
the Federal season by setting longer seasons. This increased the 
proportion of private angler red snapper caught in state waters, 
leaving a smaller percentage available to catch in Federal waters 
within the private angler quota. This required shrinking the Federal 
season even more. I have attached two graphics that show this trend and 
provide more details on how many red snapper were caught in state 
waters and Federal waters off each state by private anglers in 2016. As 
you can see, the fishing intensity varies off each state.
    As the Committee has heard, the use of single season open access 
fishing and delayed catch reporting for the private angler sector is 
not working well. While the Gulf Council already has the authority 
under the MSA to develop a more workable management system for the 
private angler sector while staying within that sector's ACL, doing so 
requires the cooperation of the States and private angler groups. Both 
have resisted participating in Gulf Council efforts to do so and 
instead are trying to get out from under the requirement to stay within 
an ACL. Granting that wish would reverse the rebuilding of the fishery 
and send us back to the bad old days when red snapper were scarce and 
small. As we have already seen from the Secretary of Commerce's 
decision to extend the 2017 private angler Federal season, more fish 
are being caught than the fishery can sustain, and the rebuilding 
schedule will be delayed several years. If this continues, Gulf red 
snapper will dwindle and private anglers will go back to fishing for 
other species, but commercial fishermen will lose their businesses.

    Question 2. During the hearing, Ms. Steele clearly outlined several 
revisions to consider during the MSA reauthorization process including: 
giving more flexibility to the councils, changing possible to 
practicable in Section 304, changing ``overfished'' to ``depleted'', 
provide a definition for ``overfishing'', and provide a definition for 
``catch share''. What are your thoughts on these proposed changes?
    Answer. While I think it may be appropriate to apply different 
terms to species whose populations have been reduced by too much 
fishing and to those reduced by environmental changes, at this point I 
don't agree that environmental causes should exempt ``depleted'' 
fisheries from the management requirements of the MSA, such as 
mandatory rebuilding timelines and annual catch limits. In some 
situations, a ``depleted'' fishery may only be able to support a lower 
fishing effort than if it had been overfished because its ability to 
rebound has been reduced by environmental changes. I also disagree with 
eliminating the term ``overfished'' because there are still some 
species that were overfished but are recovering because overfishing has 
stopped. Because these species may have a greater ability to recover 
than some ``depleted'' species, they can be managed differently.
    Fishery management councils have a lot of flexibility now under MSA 
to develop innovative ways to provide access to fishermen. Usually, 
when I hear someone say they want the councils to have more 
``flexibility'', it means they don't want to have to live within a 
particular rebuilding time-frame or ACL. Usually, that means they just 
want to fish more now and worry about the consequences later. Before 
2007, we saw a lot of fisheries failing under the kind of flexibility 
that some people are demanding be returned to the councils. While I 
think it may be helpful to clarify the biological factors described in 
the MSA that can allow for rebuilding timeframes longer than 10 years, 
I think the Congress needs to be very careful not to stall the progress 
that has been made in rebuilding so many overfished species since 2007.
    I am also opposed to relaxing requirements for scientifically-
determined ACLs. This is just a way to selfishly rob our children of 
the healthy fisheries that are our obligation to pass on to them. A 
hard ACL is not an impossible burden for the private angler fishing 
sector, as was shown this year when the state of Louisiana successfully 
held itself to its self-imposed red snapper recreational quota for 
state waters fishermen; it just requires private anglers to understand 
that they need to come up with a better system and more timely catch 
data than the current open seasons and MRIP survey system to manage 
their allocation. There are many creative and successful people who 
fish recreationally who could help make this happen if they worked with 
the Gulf Council to do so. How can the Gulf red snapper fishery be 
managed to an overall ACL, with the commercial and charter fishing 
sectors having their own ACLs, if the private angler sector is not also 
subject to its own ACL? If any sector is allowed to catch Gulf red 
snapper without an ACL, eventually all three sectors will suffer from 
reduced access in the near future because the resources will return to 
being overfished. Commercial fishermen like myself and eventually my 
son shouldn't be stuck paying the penalties of another sector 
overfishing.
    Finally, I don't see any beneficial reason to define ``catch 
share.'' The people I have heard saying this should be done only want 
to limit the use of catch shares as a management option for fishery 
management councils. The current Magnuson-Stevens Act definitions of 
``limited access privilege program,'' ``individual fishery quota'' and 
``community development quota'' provide good options for councils to 
manage fisheries outside of traditional season-based management. I 
don't think we need another similar definition and I oppose prohibiting 
the Councils from using these options when they make sense for the 
fishery and fishermen want to use them.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
